Pension Benefit Guaranty Corporation
    Office of Inspector General
             Audit Report




   Audit of the Pension Benefit Guaranty
 Corporation's Financial Statement Closing
  Package for Fiscal Year 2013 and 2012




            November 15, 2013
                                  AUD-2014-4 / FA-13-93-3
This page intentionally left blank.
This page intentionally left blank.
   Audit of the Pension Benefit Guaranty

 Corporation’s Financial Statements Closing

   Package for Fiscal Year 2013 and 2012




   Audit Report AUD-2014-4 / FA-13-93-3




                Section I


  Independent Auditor’s Report on
Financial Statements Closing Package
    For Fiscal Year 2013 and 2012
This page intentionally left blank.
                                                                            CliftonLarsonAllen LLP
                                                                            www.cliftonlarsonallen.com




                                  INDEPENDENT AUDITORS’ REPORT
                             ON CLOSING PACKAGE FINANCIAL STATEMENTS


To the Board of Directors, Management,
and Acting Inspector General of the
Pension Benefit Guaranty Corporation
Washington, DC


Report on the Closing Package Financial Statements

We have audited the accompanying Closing Package Financial Statement Report (herein referred to as the
closing package financial statements) of the Pension Benefit Guaranty Corporation (PBGC), which comprise:
     The Closing Package Financial Statement Report – Balance Sheet as of September 30, 2013 and
        2012.
     The related Closing Package Financial Statement Reports – Statements of Net Cost and Statement of
        Changes in Net Position, for the years then ended.
     The accompanying Financial Report (FR) Notes Report (except for the information in the FR Notes
        Report entitled “Threshold”), for the years then ended.
     The accompanying Additional Note No. 30.
     The accompanying Trading Partner Summary Note Report – Balance Sheet as of September 30, 2013
        and 2012.
     The related Trading Partner Summary Note Report – Statement of Net Cost and Statement of
        Changes in net Position, for the years then ended.

Management’s Responsibility for the Closing Package Financial Statements

Management is responsible for the preparation and fair presentation of these closing package financial
statements in accordance with U.S. generally accepted accounting principles; this includes the design,
implementation and maintenance of internal control relevant to the preparation and fair presentation of
the closing package financial statements, which are free from material misstatement, whether due to fraud
or error.

Auditor’s Responsibility

Our responsibility is to express an opinion on these closing package financial statements based on our
audits. We conducted our audits in accordance with auditing standards generally accepted in the U.S.; the
standards applicable to financial audits contained in Government Auditing Standards, issued by the
Comptroller General of the United States; and OMB Bulletin 14-02, Audit Requirements for Federal Financial
Statements. Those standards and OMB Bulletin 14-02 require that we plan and perform the audit to obtain




                                                     1
                                 INDEPENDENT AUDITORS’ REPORT ON
                          CLOSING PACKAGE FINANCIAL STATEMENTS (Continued)


reasonable assurance about whether the closing package financial statements are free from material
misstatement.

An audit involves performing procedures to obtain audit evidence about the amounts and disclosures in the
closing package financial statements. The procedures selected depend on the auditors’ judgment, including
the assessment of the risks of material misstatement of the closing package financial statements, whether
due to fraud or error. In making those risk assessments, the auditor considers internal control relevant to
the PBGC’s preparation and fair presentation of the closing package financial statements in order to design
audit procedures that are appropriate in the circumstances, but not for the purpose of expressing an
opinion on the effectiveness of the PBGC’s internal control. Accordingly, we express no such opinion. An
audit also includes evaluating the appropriateness of accounting policies used and the reasonableness of
significant estimates made by management, as well as evaluating the overall presentation of the closing
package financial statements.

We believe that the audit evidence we have obtained is sufficient and appropriate to provide a basis for our
opinion.

Opinion

In our opinion, the closing package financial statements referred to above present fairly, in all material
respects, the financial position of PBGC as of September 30, 2013 and 2012, and its net costs and changes in
net position for the years then ended, in conformity with accounting principles generally accepted in the
U.S. and the presentation pursuant to the requirements of the U.S. Department of the Treasury’s Treasury
Financial Manual (TFM) Volume I, Part 2, Chapter 4700.

Emphasis of Matter

As discussed in Additional Note No. 30 to the closing package financial statements, the accompanying
closing package financial statements were prepared to comply with the requirements of TFM Chapter 4700
for the purpose of providing financial information to the U.S. Department of the Treasury and the U.S.
Government Accountability Office to use in preparing and auditing the Financial Report of the U.S.
Government, and are not intended to be a complete presentation of the balance sheets of PBGC as of
September 30, 2013 and 2012, and the related statements of net costs and changes in net position,
(hereinafter referred to as “general-purpose financial statements”) for the years then ended.

By law, PBGC’s Single-Employer and Multiemployer Program Funds must be self-sustaining. As of September
30, 2013, PBGC reported in its general-purpose financial statements net deficit positions (liabilities in excess
of assets) in the Single-Employer and Multiemployer Program Funds of $27.4 billion and $8.3 billion,
respectively. As discussed in Note 9 to the general-purpose financial statements, loss exposure for the
Single-Employer and Multiemployer Programs that are reasonably possible as a result of unfunded vested
benefits are estimated to be $292 billion and $36 billion, respectively. Management calculated the Single-
Employer reasonably possible exposure based on the most recent data available from filings and
submissions for plan years ended on or after December 31, 2011 and adjusted the value reported for
liabilities to December 31, 2012 using actuarial assumptions. PBGC did not make a subsequent adjustment
for economic conditions that occurred between December 31, 2012 and September 30, 2013, and as a
result the exposure to loss for the Single-Employer Program, as of September 30, 2013, could be



                                                       2
                                 INDEPENDENT AUDITORS’ REPORT ON
                          CLOSING PACKAGE FINANCIAL STATEMENTS (Continued)


substantially different. In addition, PBGC’s net deficit and long-term viability could be further impacted by
losses from plans classified as reasonably possible (or from other plans not yet identified as potential losses)
as a result of deteriorating economic conditions, the insolvency of a large plan sponsor, or other factors.
PBGC has been able to meet its short-term benefit obligations; however, as discussed in Note 1 to the
general-purpose financial statements, management believes that neither program at present has the
resources to fully satisfy PBGC’s long-term obligations to plan participants. Our opinion is not modified with
respect to these matters.

Other Matters

Opinion on the General-Purpose Financial Statements

We have audited, in accordance with auditing standards generally accepted in the U.S.; the standards
applicable to financial audits contained in Government Auditing Standards issued by the Comptroller
General of the United States; and Office of Management and Budget (OMB) Bulletin No. 14-02, Audit
Requirements for Federal Financial Statements, as amended (Bulletin 14-02), the general-purpose financial
statements of PBGC as of September 30, 2013 and 2012, and our report thereon, dated November 15, 2013,
expressed an unmodified opinion on those financial statements.

Required Supplementary Information

U.S. generally accepted accounting principles require that the information in Other Data Report Nos. 1, 3
through 9, and 17, except for the information included in the Other Text Data of Other Data Report No. 1
(which are discussed below), be presented to supplement the basic general-purpose financial statements.
Such information, although not a part of the basic general-purpose financial statements, is required by the
Federal Accounting Standards Advisory Board who considers it to be an essential part of financial reporting
for placing the basic general-purpose financial statements in an appropriate operational, economic, or
historical context. We have applied certain limited procedures to the required supplementary information in
accordance with auditing standards generally accepted in the U.S., which consisted of inquiries of
management about the methods of preparing the information and comparing the information for
consistency with management’s responses to our inquiries, the basic closing package financial statements,
and other knowledge we obtained during our audits of the closing package financial statements. We do not
express an opinion or provide any assurance on the information because the limited procedures do not
provide us with sufficient evidence to express an opinion or provide any assurance.

Other Information

Our audit was conducted for the purpose of forming an opinion on the basic closing package financial
statements as a whole. The information in the sections included in the Other FR Data Report numbers 2, 10
through 13, 15, and 16; the information included in the Other Text Data of Other Data Report number 1; the
information in the sections entitled “Threshold” in FR Notes Report numbers 3, 4A, 6, 7, 15, and 19; the
information in the Closing Package Line Reclassification Summary Report – Balance Sheet; and the
information in the Closing Package Line Reclassification Summary Reports – Statement of Net Cost and
Statement of Changes in Net Position is presented for purposes of additional analysis in accordance with
TFM Chapter 4700 and is not a required part of the closing package financial statements. Such information




                                                       3
                                INDEPENDENT AUDITORS’ REPORT ON
                         CLOSING PACKAGE FINANCIAL STATEMENTS (Continued)


has not been subjected to the auditing procedures applied in the audits of the closing package financial
statements and, accordingly, we do not express an opinion or provide any assurances on it.

Restriction on Use of the Report on the Closing Package Financial Statements

This report is intended solely for the information and use of Board of Directors, PBGC’s management, the
PBGC’s Office of Inspector General, the U.S. Department of the Treasury, OMB, and the U.S. Government
Accountability Office, the U.S. Congress, and the President in connection with the preparation and audit of
the Financial Report of the U.S. Government and is not intended to be and should not be used by anyone
other than these specified parties.

Other Reporting Required by Government Auditing Standards

In accordance with Government Auditing Standards and OMB Bulletin 14-02, we have also issued a
combined report dated November 15, 2013 (See PBGC’s Office of Inspector General’s report number AUD-
2014-2/FA-13-93-1) which presents our opinion on management’s assertion about the effectiveness of
PBGC’s internal control over financial reporting and the results of our tests of its compliance with certain
provisions of laws and regulations. Those reports are an integral part of an audit performed in accordance
with U.S. Government Auditing Standards and OMB Bulletin 14-02 in considering PBGC’s internal control and
compliance, and should be read in conjunction with this report in considering the results of our audits of the
closing package financial statements.

In our fiscal year 2013 audit of the basic general-purpose financial statements of PBGC, we noted the
following material weaknesses, significant deficiency, and noncompliance with laws and regulations which
are summarized below:

    Material Weaknesses

    1. Benefits Administration and Payment Department (BAPD) Management and Oversight

        During fiscal year 2013, we continued to identify deficiencies in BAPD controls that included errors
        in their liability calculations, inadequate documentation to support the calculation of participants’
        benefits and liabilities, and errors in valuing plan assets.

    2. Entity-wide Security Program Planning and Management

        PBGC’s entity-wide security program continued to lack focus and a coordinated effort to adequately
        resolve control deficiencies. Though progress was made, deficiencies persisted in fiscal year 2013,
        which prevented PBGC from implementing effective security controls to protect its information
        from unauthorized access, modification, and disclosure.

    3. Access Controls and Configuration Management

        Access controls remain a systemic problem throughout PBGC. PBGC’s past decentralized approach
        to system development, system deployments, and configuration management created an
        environment that lacks a cohesive structure in which to implement controls and best practices.



                                                      4
                                    INDEPENDENT AUDITORS’ REPORT ON
                             CLOSING PACKAGE FINANCIAL STATEMENTS (Continued)


        Weaknesses in the IT environment contributed significantly to deficiencies in system configuration,
        segregation of duties, role-based access controls, and monitoring.

    Significant Deficiency

    4. Integrated Financial Management Systems

        The risk of inaccurate, inconsistent, and redundant data exists because PBGC lacks a single
        integrated financial management system. Though progress has been made, part of the system
        requires manipulation and the use of manual procedures to upload: (1) plan present value of future
        benefits liabilities; (2) the commingled funds monthly trial balance summary journal; and (3) the
        monthly journal entry for the premium financial activity.

    Noncompliance with Laws And Regulations

    5. PBGC failed to determine the fair market value of plan assets at the date of plan termination as
       required by regulation. Title 29 of the Code of Federal Regulation §4044.41(b), General valuation
       rules, states “Plan assets shall be valued at their fair market value, based on the method of
       valuation that most accurately reflects such fair market value”.

Report on Internal Control over Financial Reporting Specific to the Closing Package Financial Statements

In planning and performing our audit of the closing package financial statements as of and for the year
ended September 30, 2013, we also considered PBGC’s internal control over the financial reporting (internal
control) to determine the audit procedures that are appropriate in the circumstances for the purpose of
expressing our opinion on the closing package financial statements, but not for the purpose of expressing an
opinion of the effectiveness of PBGC’s internal control. Accordingly, we do not express an opinion on the
effectiveness of PBGC’s internal control.

A deficiency in internal control exists when the design or operation of a control does not allow management
or employees, in their normal course of performing their assigned functions, to prevent, or detect and
correct, misstatements on a timely basis. A material weakness is a deficiency, or a combination of
deficiencies, in internal control, such that there is a reasonable possibility that a material misstatement of
the entity’s financial statements will not be prevented, or detected and corrected, on a timely basis. A
significant deficiency is a deficiency, or a combination of deficiencies, in internal control that is less severe
than a material weakness yet important enough to merit the attention by those charged with governance.

Our consideration of internal control for the closing package financial statements was for the limited
purpose described in the first paragraph of this section and was not designed to identify all deficiencies in
internal control that might be material weaknesses or significant deficiencies and therefore, material
weaknesses or significant deficiencies may exist that were not identified. Given these limitations, during our
audit we did not identify any deficiencies in internal control that we consider to be material weaknesses.
However, material weaknesses may exist that have not been identified.




                                                       5
                                INDEPENDENT AUDITORS’ REPORT ON
                         CLOSING PACKAGE FINANCIAL STATEMENTS (Continued)


Report on Compliance and Other Matters Specific to the Closing Package Financial Statements

As part of obtaining reasonable assurance about whether PBGC’s closing package financial statements are
free from material misstatement, we also performed tests of its compliance with certain provisions of TFM
Chapter 4700. However, providing an opinion on compliance with those provisions was not an objective of
our audit of the closing package financial statements, and accordingly, we do not express such an opinion.
The results of our tests of compliance with TFM Chapter 4700 disclosed no instances of noncompliance or
other matters that are required to be reported under Government Auditing Standards.

Purpose of the Other Reporting Required by Government Auditing Standards

The purpose of the communication provided in the Other Reporting Required by Government Auditing
Standards section is solely to describe the scope of our testing of internal control and compliance and the
results of that testing, and not to provide an opinion on the effectiveness of PBGC’s internal control or on
compliance. This communication is an integral part of an audit performed in accordance with U.S. generally
accepted government auditing standards in considering internal control and compliance with provisions of
laws and regulations that have a material effect on the closing package financial statements. Accordingly,
this communication is not suitable for any other purpose.



a
Calverton, Maryland
November 15, 2013




                                                     6
        Audit of the Pension Benefit Guaranty

      Corporation’s Financial Statements Closing

        Package for Fiscal Year 2013 and 2012



        Audit Report AUD-2014-4 / FA-13-93-3




                     Section II


GF001G – Financial Statements Template Report
 with Standard General Ledger (SGL) Accounts
This page intentionally left blank.
                                                                                                            11/15/2013 22:22:10
                                            U.S. Department of the Treasury
                                            Financial Management Service
                                       Governmentwide Financial Report System
                                     Financial Statement Template with SGL Accounts
Statement: BALANCE SHEET                             Fiscal Year:                2013       Period:       SEPTEMBER
Entity:    1602 - PENSION BENEFIT GUARANTY CORPORATION
I = Inactive

ASSETS
Cash and cash equivalents
SGL    Description                                                 Status F/N TP X/T        S/A       BSF   ATB Code
1010   Fund Balance With Treasury                                         U   U   U          U         U    ALL
1110   Undeposited Collections                                            N   U   U          A         U    ALL
1120   Imprest Funds                                                      N   U   U          U         U    ALL
1190   Other Cash                                                         N   U   U          U         U    ALL
1610   Investments in U.S. Treas. Securities Issued by BPD                 F ALL U           U         U    ALL
Securities lending collateral (Notes 3 and 5)
SGL Description                                                    Status F/N   TP    X/T   S/A       BSF   ATB Code
1690 Other Investments                                                    N     U      U     U         U    ALL
Investments, at market (Notes 3 and 5):
Fixed maturity securities
SGL  Description                                                   Status F/N   TP X/T      S/A       BSF   ATB Code
1610 Investments in U.S. Treas. Securities Issued by BPD                   F    ALL U        U         U    ALL
1611 Discount on U.S. Treasury Securities Issued by BPD                    F    ALL U        U         U    ALL
1612 Premium on U.S. Treasury Securities Issued by BPD                     F    ALL U        U         U    ALL
1613 Amort. of Disc. & Pre. on U.S.Treasury Sec. Issued by BPD             F    ALL U        U         U    ALL
1618 Market Adjustment - Investments                                      N      U  U        U         U    ALL
1620 Investments in Securities Other Than BPD Securities                  N      U  U        U         U    ALL
1621 Discount on Securities Other Than BPD Securities                     N      U  U        U         U    ALL
1622 Premium on Securities Other Than BPD Securities                      N      U  U        U         U    ALL
1630 Invest in U.S. Treas Zero Coupon Bonds Issued by BPD                  F    ALL U        U         U    ALL
1631 Discount on U.S. Treasury Zero Coupon Bonds Issued by                 F    ALL U        U         U    ALL
     BPD
1633 Amort of Disc - U.S. Treas Zero Coupon Bonds Issued by               F     ALL   U      U        U     ALL
     BPD
1690 Other Investments                                                    N     U     U      U        U     ALL
Equity securities
SGL Description                                                    Status F/N   TP    X/T   S/A       BSF   ATB Code
1618 Market Adjustment - Investments                                      N     U      U     U         U    ALL
1690 Other Investments                                                    N     U      U     U         U    ALL
Private equity
SGL Description                                                    Status F/N   TP    X/T   S/A       BSF   ATB Code
1618 Market Adjustment - Investments                                      N     U      U     U         U    ALL
1690 Other Investments                                                    N     U      U     U         U    ALL
Real estate and real estate investment trusts
SGL Description                                                    Status F/N   TP    X/T   S/A       BSF   ATB Code
1618 Market Adjustment - Investments                                      N     U      U     U         U    ALL
1690 Other Investments                                                    N     U      U     U         U    ALL




                                                             -1-
                                                                                                          11/15/2013 22:22:10
                                           U.S. Department of the Treasury
                                           Financial Management Service
                                      Governmentwide Financial Report System
                                    Financial Statement Template with SGL Accounts
Statement: BALANCE SHEET                             Fiscal Year:               2013      Period:       SEPTEMBER
Entity:    1602 - PENSION BENEFIT GUARANTY CORPORATION
I = Inactive

Other
SGL Description                                                   Status F/N   TP   X/T   S/A       BSF   ATB Code
1618 Market Adjustment - Investments                                     N     U     U     U         U    ALL
1690 Other Investments                                                   N     U     U     U         U    ALL
Total investments
Calculation
Line Description
 5     Fixed maturity securities
 6     Equity securities
 7     Private equity
 8     Real estate and real estate investment trusts
 9     Other
Receivables, net:
Sponsors of terminated plans
SGL     Description                                               Status F/N   TP   X/T   S/A       BSF   ATB Code
1310    Accounts Receivable                                              N     U     U     A         U    ALL
1319    Allowance for Loss on Accounts Receivable                        N     U     U     A         U    ALL
1340    Interest Receivable - Not Otherwise Classified                   N     U     U     A         U    ALL
Premiums (Note 11)
SGL  Description                                                  Status F/N   TP   X/T   S/A       BSF   ATB Code
1310 Accounts Receivable                                                 N     U     U     A         U    ALL
1319 Allowance for Loss on Accounts Receivable                           N     U     U     A         U    ALL
1340 Interest Receivable - Not Otherwise Classified                      N     U     U     A         U    ALL
1347 Allowance for Loss on Interest Receivable - Not Otrws               N     U     U     A         U    ALL
     Class.
1360 Penalties and Fines Receivable - Not Otherwise Classified           N     U    U      A        U     ALL
1367 Allowance for Loss on Penal. & Fines Rec. - Not Otrws               N     U    U      A        U     ALL
     Class.
Sale of securities
SGL Description                                                   Status F/N   TP   X/T   S/A       BSF   ATB Code
1310 Accounts Receivable                                                 N     U     U     A         U    ALL
Derivative contracts (Note 4)
SGL Description                                                   Status F/N   TP   X/T   S/A       BSF   ATB Code
1310 Accounts Receivable                                                 N     U     U     A         U    ALL
Investment income
SGL     Description                                               Status F/N TP X/T       S/A       BSF   ATB Code
1310    Accounts Receivable                                              N   U   U         A         U    ALL
1342    Interest Receivable - Investments                                N   U   U         A         U    ALL
1342    Interest Receivable - Investments                                 F ALL U          A         U    ALL




                                                            -2-
                                                                                                             11/15/2013 22:22:10
                                           U.S. Department of the Treasury
                                           Financial Management Service
                                      Governmentwide Financial Report System
                                    Financial Statement Template with SGL Accounts
Statement: BALANCE SHEET                             Fiscal Year:                  2013      Period:     SEPTEMBER
Entity:    1602 - PENSION BENEFIT GUARANTY CORPORATION
I = Inactive

Other
SGL     Description                                                  Status F/N   TP   X/T   S/A       BSF   ATB Code
1310    Accounts Receivable                                                 N     U     U     A         U    ALL
1319    Allowance for Loss on Accounts Receivable                           N     U     U     A         U    ALL
1340    Interest Receivable - Not Otherwise Classified                      N     U     U     A         U    ALL
1341    Interest Receivable - Loans                                         N     U     U     A         U    ALL
1345    Allowance for Loss on Interest Receivable - Loans                   N     U     U     A         U    ALL
1350    Loans Receivable                                                    N     U     U     U         U    ALL
1359    Allowance for Loss on Loans Receivable                              N     U     U     U         U    ALL
1360    Penalties and Fines Receivable - Not Otherwise Classified           N     U     U     A         U    ALL
1410    Advances and Prepayments                                            N     U     U     U         U    ALL
1990    Other Assets                                                        N     U     U     U         U    ALL
2400    Liab. for Nonfid. Dep. Funds & Undep. Collects.                     N     U     U     U         U    ALL
Total receivables
Calculation
Line Description
 12    Sponsors of terminated plans
 13    Premiums (Note 11)
 14    Sale of securities
 15    Derivative contracts (Note 4)
 16    Investment income
 17    Other
Capitalized assets, net
SGL     Description                                                  Status F/N   TP   X/T   S/A       BSF   ATB Code
1750    Equipment                                                           N     U     U     U         U    ALL
1759    Accumulated Depreciation on Equipment                               N     U     U     U         U    ALL
1820    Leasehold Improvement                                               N     U     U     U         U    ALL
1829    Accumulated Amortization on Leasehold Improvements                  N     U     U     U         U    ALL
1830    Internal-Use Software                                               N     U     U     U         U    ALL
1832    internal-Use Software in Development                                N     U     U     U         U    ALL
1839    Accumulated Amortization on Internal-Use Software                   N     U     U     U         U    ALL
Total assets
Calculation
Line Description
 2     Cash and cash equivalents
 3     Securities lending collateral (Notes 3 and 5)
 10    Total investments
 18    Total receivables
 19    Capitalized assets, net


LIABILITIES
Present value of future benefits, net (Note 6):
Trusteed plans
SGL Description                                                      Status F/N   TP   X/T   S/A       BSF   ATB Code
2690 Other Actuarial Liabilities                                            N     U     U     U         U    ALL

                                                               -3-
                                                                                                                  11/15/2013 22:22:10
                                            U.S. Department of the Treasury
                                            Financial Management Service
                                       Governmentwide Financial Report System
                                     Financial Statement Template with SGL Accounts
Statement: BALANCE SHEET                             Fiscal Year:                       2013      Period:     SEPTEMBER
Entity:    1602 - PENSION BENEFIT GUARANTY CORPORATION
I = Inactive

Plans pending termination and trusteeship
SGL Description                                                           Status F/N   TP   X/T   S/A       BSF   ATB Code
2690 Other Actuarial Liabilities                                                 N     U     U     U         U    ALL
Settlements and judgments
SGL Description                                                           Status F/N   TP   X/T   S/A       BSF   ATB Code
2690 Other Actuarial Liabilities                                                 N     U     U     U         U    ALL
Claims for probable terminations
SGL Description                                                           Status F/N   TP   X/T   S/A       BSF   ATB Code
2690 Other Actuarial Liabilities                                                 N     U     U     U         U    ALL
Total present value of future benefits, net
Calculation
Line Description
 24    Trusteed plans
 25    Plans pending termination and trusteeship
 26    Settlements and judgments
 27    Claims for probable terminations
Inactive - Present value of nonrecoverable future financial assistance (Note 7)
Present value of nonrecoverable future financial assistance (Note 7):
Insolvent plans
SGL Description                                                           Status F/N   TP   X/T   S/A       BSF   ATB Code
2920 Contingent Liabilities                                                      N     U     U     U         U    ALL
Probable insolvent plans
SGL Description                                                           Status F/N   TP   X/T   S/A       BSF   ATB Code
2920 Contingent Liabilities                                                      N     U     U     U         U    ALL
Total present value of nonrecoverable future financial assistance
Calculation
Line Description
 31    Insolvent plans
 32    Probable insolvent plans
Payables, net:
Derivative contracts (Note 4)
SGL Description                                                           Status F/N   TP   X/T   S/A       BSF   ATB Code
2990 Other Liabilities Without Related Budgetary Obligations                     N     U     U     U         U    ALL
Due for purchases of securities
SGL Description                                                           Status F/N   TP   X/T   S/A       BSF   ATB Code
2990 Other Liabilities Without Related Budgetary Obligations                     N     U     U     U         U    ALL
Payable upon return of securities loaned
SGL Description                                                           Status F/N   TP   X/T   S/A       BSF   ATB Code
2990 Other Liabilities Without Related Budgetary Obligations                     N     U     U     U         U    ALL

                                                                    -4-
                                                                                                                   11/15/2013 22:22:10
                                            U.S. Department of the Treasury
                                            Financial Management Service
                                       Governmentwide Financial Report System
                                     Financial Statement Template with SGL Accounts
Statement: BALANCE SHEET                             Fiscal Year:                        2013      Period:     SEPTEMBER
Entity:    1602 - PENSION BENEFIT GUARANTY CORPORATION
I = Inactive

Securities sold under repurchase agreements
SGL Description                                                            Status F/N   TP   X/T   S/A       BSF   ATB Code
2990 Other Liabilities Without Related Budgetary Obligations                      N     U     U     U         U    ALL
Unearned premiums
SGL Description                                                            Status F/N   TP   X/T   S/A       BSF   ATB Code
2320 Other Deferred Revenue                                                       N     U     U     U         U    ALL
2400 Liab. for Nonfid. Dep. Funds & Undep. Collects.                              N     U     U     U         U    ALL
Inactive - Due for purchases of securities
Inactive - Derivative contracts (Note 4)
Accounts payable and accrued expenses (Note 8)
SGL     Description                                                        Status F/N   TP X/T     S/A       BSF   ATB Code
2110    Accounts Payable                                                           F    ALL U       A         U    ALL
2110    Accounts Payable                                                          N      U  U       A         U    ALL
2120    Disbursements in Transit                                                   F    ALL U       U         U    ALL
2120    Disbursements in Transit                                                  N      U  U       U         U    ALL
2130    Contract Holdbacks                                                        N      U  U       U         U    ALL
2210    Accrued Funded Payroll and Leave                                          N      U  U       U         U    ALL
2213    Employer Contributions and Payroll Taxes Payable                           F    ALL U       U         U    ALL
2215    Other Post-Employment Benefits Due and Payable                             F    ALL U       U         U    ALL
2215    Other Post-Employment Benefits Due and Payable                            N      U  U       U         U    ALL
2220    Unfunded Leave                                                            N      U  U       U         U    ALL
2400    Liab. for Nonfid. Dep. Funds & Undep. Collects.                           N      U  U       U         U    ALL
Total payables
Calculation
Line Description
 35    Derivative contracts (Note 4)
 36    Due for purchases of securities
 37    Payable upon return of securities loaned
 38    Securities sold under repurchase agreements
 39    Unearned premiums
 42    Accounts payable and accrued expenses (Note 8)
Total liabilities
Calculation
Line Description
 28    Total present value of future benefits, net
 33    Total present value of nonrecoverable future financial assistance
 43    Total payables




                                                                -5-
                                                                                                       11/15/2013 22:22:10
                                            U.S. Department of the Treasury
                                            Financial Management Service
                                       Governmentwide Financial Report System
                                     Financial Statement Template with SGL Accounts
Statement: BALANCE SHEET                             Fiscal Year:                 2013     Period:   SEPTEMBER
Entity:    1602 - PENSION BENEFIT GUARANTY CORPORATION
I = Inactive

Net position
SGL     Description                                                 Status F/N   TP X/T    S/A   BSF   ATB Code
3310    Cumulative Results of Operations                                   U      U  U      U     U    ALL
5310    Interest Revenue - Other                                           N      U  T      A    ALL   ALL
5310    Interest Revenue - Other                                           N      U  X      A    ALL   ALL
5311    Interest Revenue - Investments                                      F    ALL X      A    ALL   ALL
5311    Interest Revenue - Investments                                     N      U  X      A    ALL   ALL
5320    Penalties and Fines Revenue                                        N      U  T      A    ALL   ALL
5329    Contra Revenue for Administrative Fees                             N      U  T      A    ALL   ALL
5500    Insurance and Guarantee Premium Revenue                            N      U  X      U    ALL   ALL
5765    Nonexpenditure Financing Sources - Transfer-Out - Otr               F    ALL U      U     U    ALL
5780    Imputed Financing Sources                                           F    ALL U      U     U    ALL
5900    Other Revenue                                                       F    ALL X      A    ALL   ALL
5900    Other Revenue                                                      N      U  X      A    ALL   ALL
6100    Operating Expenses/Program Cost                                     F    ALL U      U    ALL   ALL
6100    Operating Expenses/Program Cost                                    N      U  U      U    ALL   ALL
6330    Other Interest Expenses                                            N      U  U      A    ALL   ALL
6400    Benefit Expense                                                     F    ALL U      U    ALL   ALL
6400    Benefit Expense                                                    N      U  U      U    ALL   ALL
6720    Bad Debt Expense                                                   N      U  U      U    ALL   ALL
6730    Imputed Costs                                                       F    ALL U      U    ALL   ALL
6790    Other Expenses Not Requiring Budgetary Resources                   N      U  U      U    ALL   ALL
6850    Empl'yr Contrib. to Emp. Benefit Prog. Not Req. Curr Yr             F    ALL U      U    ALL   ALL
        BA
7110    Gains on Disposition of Assets - Other                             N      U    X    U    ALL   ALL
7111    Gains on Disposition of Investments                                F     ALL   X    U     U    ALL
7111    Gains on Disposition of Investments                                N      U    X    U     U    ALL
7180    Unrealized Gains                                                   F     ALL   X    U     U    ALL
7180    Unrealized Gains                                                   N      U    X    U     U    ALL
7190    Other Gains                                                        N      U    X    U    ALL   ALL
7210    Losses on Disposition of Assets - Other                            N      U    X    U    ALL   ALL
7211    Losses on Disposition of Investments                               F     ALL   X    U     U    ALL
7211    Losses on Disposition of Investments                               N      U    X    U     U    ALL
7280    Unrealized Losses                                                  F     ALL   X    U     U    ALL
7280    Unrealized Losses                                                  N      U    X    U     U    ALL
7290    Other Losses                                                       N      U    X    U    ALL   ALL
7600    Changes in Actuarial Liability                                     N      U    U    U    ALL   ALL
Total liabilities and net position
Calculation
Line Description
 44    Total liabilities
 45    Net position




                                                              -6-
                                                                                                 11/15/2013 22:22:10
                                           U.S. Department of the Treasury
                                           Financial Management Service
                                      Governmentwide Financial Report System
                                    Financial Statement Template with SGL Accounts
Statement: INCOME STATEMENT                          Fiscal Year:            2013    Period:   SEPTEMBER
Entity:    1602 - PENSION BENEFIT GUARANTY CORPORATION
I = Inactive

UNDERWRITING:
Income:
Premium, net (Note 11)
Other
Total
Expenses:
Administrative
Other
Total
Other underwriting activity:
Losses from completed and probable terminations (Note 12)
Losses from insolvent and probable plans-financial assistance (Note 7)
Actuarial adjustments (credits) (Note 6)
Total
Underwriting gain (loss)
FINANCIAL:
Investment income (loss) (Note 13):
Fixed
Equity
Private equity
Real estate
Other
Total
Expenses:
Investment
Actuarial charges (Note 6):
Due to expected interest
Due to change in interest factors
Total
Financial loss




                                                                -7-
                                                                                                            11/15/2013 22:22:10
                                         U.S. Department of the Treasury
                                         Financial Management Service
                                    Governmentwide Financial Report System
                                  Financial Statement Template with SGL Accounts
Statement: INCOME STATEMENT                          Fiscal Year:                2013       Period:     SEPTEMBER
Entity:    1602 - PENSION BENEFIT GUARANTY CORPORATION
I = Inactive

Net income (loss)
Calculation
Line Description
 15    Underwriting gain (loss)
 30    Financial loss
Total Costs
SGL    Description                                                 Status F/N   TP X/T      S/A   BSF       ATB Code
5765   Nonexpenditure Financing Sources - Transfer-Out - Otr               F    ALL U        U     U        ALL
6100   Operating Expenses/Program Cost                                     F    ALL U        U    ALL       ALL
6100   Operating Expenses/Program Cost                                    N      U  U        U    ALL       ALL
6330   Other Interest Expenses                                            N      U  U        A    ALL       ALL
6400   Benefit Expense                                                     F    ALL U        U    ALL       ALL
6400   Benefit Expense                                                    N      U  U        U    ALL       ALL
6720   Bad Debt Expense                                                   N      U  U        U    ALL       ALL
6730   Imputed Costs                                                       F    ALL U        U    ALL       ALL
6790   Other Expenses Not Requiring Budgetary Resources                   N      U  U        U    ALL       ALL
6850   Empl'yr Contrib. to Emp. Benefit Prog. Not Req. Curr Yr             F    ALL U        U    ALL       ALL
       BA
7210   Losses on Disposition of Assets - Other                            N      U    X      U    ALL       ALL
7211   Losses on Disposition of Investments                               F     ALL   X      U     U        ALL
7211   Losses on Disposition of Investments                               N      U    X      U     U        ALL
7280   Unrealized Losses                                                  N      U    X      U     U        ALL
7290   Other Losses                                                       N      U    X      U    ALL       ALL
7600   Changes in Actuarial Liability                                     N      U    U      U    ALL       ALL
Total Revenue
SGL    Description                                                 Status F/N   TP X/T      S/A   BSF       ATB Code
5310   Interest Revenue - Other                                           N      U  T        A    ALL       ALL
5310   Interest Revenue - Other                                           N      U  X        A    ALL       ALL
5311   Interest Revenue - Investments                                      F    ALL X        A    ALL       ALL
5311   Interest Revenue - Investments                                     N      U  X        A    ALL       ALL
5320   Penalties and Fines Revenue                                        N      U  T        A    ALL       ALL
5329   Contra Revenue for Administrative Fees                             N      U  T        A    ALL       ALL
5500   Insurance and Guarantee Premium Revenue                            N      U  X        U    ALL       ALL
5780   Imputed Financing Sources                                           F    ALL U        U     U        ALL
5900   Other Revenue                                                       F    ALL X        A    ALL       ALL
5900   Other Revenue                                                      N      U  X        A    ALL       ALL
7110   Gains on Disposition of Assets - Other                             N      U  X        U    ALL       ALL
7111   Gains on Disposition of Investments                                 F    ALL X        U     U        ALL
7111   Gains on Disposition of Investments                                N      U  X        U     U        ALL
7180   Unrealized Gains                                                   N      U  X        U     U        ALL
7190   Other Gains                                                        N      U  X        U    ALL       ALL
Net position, beginning of year
SGL Description                                                    Status F/N   TP    X/T   S/A       BSF   ATB Code
3310 Cumulative Results of Operations                                     U     U      U     U         U    ALL




                                                             -8-
                                                                                                11/15/2013 22:22:10
                                          U.S. Department of the Treasury
                                          Financial Management Service
                                     Governmentwide Financial Report System
                                   Financial Statement Template with SGL Accounts
Statement: INCOME STATEMENT                          Fiscal Year:           2013    Period:   SEPTEMBER
Entity:    1602 - PENSION BENEFIT GUARANTY CORPORATION
I = Inactive

Net position, end of year
Calculation
Line Description
 32    Total Costs
 33    Total Revenue
 34    Net position, beginning of year




                                                         -9-
This page intentionally left blank.
     Audit of the Pension Benefit Guaranty

  Corporation’s Financial Statements Closing

    Package for Fiscal Year 2013 and 2012




    Audit Report AUD-2014-4 / FA-13-93-3




                 Section III


Audited Financial Statement (FS) Reports
 including Other Comprehensive Basis
    of Accounting (OCBOA) Reports


 GF002A – Audited FS Report
 GF002B – OCBOA Statement Report
 GF002C – OCBOA Adjustments Report
This page intentionally left blank.
                                                                                             11/15/2013 22:16:35
                                        U.S.Department of the Treasury
                                         Financial Management Service
                                    Governmentwide Financial Report System

                                            GF002A - Audited FS Report


Statement:    BALANCE SHEET                           Fiscal Year: 2013                Period:   SEPTEMBER
Entity: 1602-PENSION BENEFIT GUARANTY                 Reported in: MILLIONS            Decimal: ZERO
        CORPORATION

Agency Line Description                                      FY 2013-SEPTEMBER              FY 2012-SEPTEMBER

ASSETS
Cash and cash equivalents                                                      4,377                       3,807
Securities lending collateral (Notes 3 and 5)                                  3,322                       3,425
Investments, at market (Notes 3 and 5):
Fixed maturity securities                                                     48,828                      50,717
Equity securities                                                             22,317                      21,463
Private equity                                                                 1,228                       1,339
Real estate and real estate investment trusts                                  2,373                         878
Other                                                                             28                          77
Total investments                                                             74,774                      74,474
Receivables, net:
Sponsors of terminated plans                                                      60                          41
Premiums (Note 11)                                                             1,037                       1,087
Sale of securities                                                               601                       1,353
Derivative contracts (Note 4)                                                    276                          83
Investment income                                                                445                         464
Other                                                                              4                           4
Total receivables                                                              2,423                       3,032
Capitalized assets, net                                                           50                          42
Total assets                                                                  84,946                      84,780

LIABILITIES
Present value of future benefits, net (Note 6):
Trusteed plans                                                            103,125                        103,127
Plans pending termination and trusteeship                                   1,091                            418
Settlements and judgments                                                      57                             56
Claims for probable terminations                                              745                          2,035
Total present value of future benefits, net                               105,018                        105,636
Present value of nonrecoverable future
financial assistance (Note 7):
Insolvent plans                                                                1,352                       1,388
Probable insolvent plans                                                       8,579                       5,622
Total present value of nonrecoverable future                                   9,931                       7,010
financial assistance
Payables, net:
Derivative contracts (Note 4)                                                    210                          94
Due for purchases of securities                                                1,608                       2,557
Payable upon return of securities loaned                                       3,322                       3,425
Securities sold under repurchase agreements                                        0                           0
Unearned premiums                                                                419                         358
Accounts payable and accrued expenses (Note 8)                                    77                          79


                                                        - 1 -
                                                                                          11/15/2013 22:16:35
                                         U.S.Department of the Treasury
                                          Financial Management Service
                                     Governmentwide Financial Report System

                                           GF002A - Audited FS Report


Statement:     BALANCE SHEET                         Fiscal Year: 2013              Period:   SEPTEMBER
Entity: 1602-PENSION BENEFIT GUARANTY                Reported in: MILLIONS          Decimal: ZERO
        CORPORATION

Agency Line Description                                     FY 2013-SEPTEMBER            FY 2012-SEPTEMBER

Total payables                                                             5,636                        6,513
Total liabilities                                                        120,585                      119,159
Net position                                                             (35,639)                     (34,379)
Total liabilities and net position                                        84,946                       84,780




                                                       - 2 -
                                                                                           11/15/2013 22:16:35
                                      U.S.Department of the Treasury
                                       Financial Management Service
                                  Governmentwide Financial Report System

                                         GF002A - Audited FS Report


Statement:   INCOME STATEMENT                      Fiscal Year: 2013                 Period:   SEPTEMBER
Entity: 1602-PENSION BENEFIT GUARANTY              Reported in: MILLIONS             Decimal: ZERO
        CORPORATION

Agency Line Description                                   FY 2013-SEPTEMBER               FY 2012-SEPTEMBER

UNDERWRITING:
Income:
Premium, net (Note 11)                                                     3,053                         2,734
Other                                                                         38                            13
Total                                                                      3,091                         2,747
Expenses:
Administrative                                                               371                           380
Other                                                                          5                             0
Total                                                                        376                           380
Other underwriting activity:
Losses from completed and probable terminations                              468                         2,006
(Note 12)
Losses from insolvent and probable plans-                                  2,969                         2,466
financial assistance (Note 7)
Actuarial adjustments (credits) (Note 6)                                    (406)                          223
Total                                                                      3,031                         4,695
Underwriting gain (loss)                                                    (316)                       (2,328)
FINANCIAL:
Investment income (loss) (Note 13):
Fixed                                                                      (1,725)                       4,790
Equity                                                                      4,157                        4,073
Private equity                                                                272                           42
Real estate                                                                   (70)                         (21)
Other                                                                          11                           (1)
Total                                                                       2,645                        8,883
Expenses:
Investment                                                                    88                            83
Actuarial charges (Note 6):
Due to expected interest                                                 3,432                           3,981
Due to change in interest factors                                           69                          10,834
Total                                                                    3,589                          14,898
Financial loss                                                            (944)                         (6,015)
Net income (loss)                                                       (1,260)                         (8,343)
Total Costs                                                            (12,069)                        (20,683)
Total Revenue                                                           10,809                          12,340
Net position, beginning of year                                        (34,379)                        (26,036)
Net position, end of year                                              (35,639)                        (34,379)




                                                     - 3 -
                                                                                             11/15/2013 22:16:41
                                            U.S.Department of the Treasury
                                             Financial Management Service
                                        Governmentwide Financial Report System

                                            GF002B - OCBOA Statement Report


Statement:   BALANCE SHEET                                     Fiscal Year: 2013            Period: SEPTEMBER
Entity:   1602-PENSION BENEFIT GUARANTY CORPORATION            Reported in: MILLIONS        Decimal: ZERO


Agency Line Description                                           FY 2013-SEPTEMBER           FY 2012-SEPTEMBER

ASSETS
Cash and cash equivalents                                                           4,377                     3,807
Securities lending collateral (Notes 3 and 5)                                       3,322                     3,425
Investments, at market (Notes 3 and 5):
Fixed maturity securities                                                          48,831                    48,011
Equity securities                                                                  22,317                    21,463
Private equity                                                                      1,228                     1,339
Real estate and real estate investment trusts                                       2,373                       878
Other                                                                                  28                        77
Total investments                                                                  74,777                    71,768
Receivables, net:
Sponsors of terminated plans                                                           60                        41
Premiums (Note 11)                                                                  1,037                     1,087
Sale of securities                                                                    601                     1,353
Derivative contracts (Note 4)                                                         276                        83
Investment income                                                                     445                       464
Other                                                                                   4                         4
Total receivables                                                                   2,423                     3,032
Capitalized assets, net                                                                50                        42
Total assets                                                                       84,949                    82,074

LIABILITIES
Present value of future benefits, net (Note 6):
Trusteed plans                                                                 103,125                      103,127
Plans pending termination and trusteeship                                        1,091                          418
Settlements and judgments                                                           57                           56
Claims for probable terminations                                                   745                        2,035
Total present value of future benefits, net                                    105,018                      105,636
Present value of nonrecoverable future financial
assistance (Note 7):
Insolvent plans                                                                     1,352                     1,388
Probable insolvent plans                                                            8,579                     5,622
Total present value of nonrecoverable future financial                              9,931                     7,010
assistance
Payables, net:
Derivative contracts (Note 4)                                                         210                        94
Due for purchases of securities                                                     1,608                     2,557
Payable upon return of securities loaned                                            3,322                     3,425
Securities sold under repurchase agreements                                             0                         0
Unearned premiums                                                                     419                       358
Accounts payable and accrued expenses (Note 8)                                         77                        79
Total payables                                                                      5,636                     6,513


                                                          - 1 -
                                                                                        11/15/2013 22:16:41
                                         U.S.Department of the Treasury
                                          Financial Management Service
                                     Governmentwide Financial Report System

                                       GF002B - OCBOA Statement Report


Statement:    BALANCE SHEET                                 Fiscal Year: 2013          Period: SEPTEMBER
Entity:   1602-PENSION BENEFIT GUARANTY CORPORATION        Reported in: MILLIONS       Decimal: ZERO


Agency Line Description                                        FY 2013-SEPTEMBER         FY 2012-SEPTEMBER

Total liabilities                                                           120,585                    119,159
Net position                                                                (35,636)                   (37,085)
Total liabilities and net position                                           84,949                     82,074




                                                       - 2 -
                                                                                                11/15/2013 22:16:41
                                         U.S.Department of the Treasury
                                          Financial Management Service
                                     Governmentwide Financial Report System

                                         GF002B - OCBOA Statement Report


Statement:   INCOME STATEMENT                                   Fiscal Year: 2013              Period: SEPTEMBER
Entity:   1602-PENSION BENEFIT GUARANTY CORPORATION             Reported in: MILLIONS          Decimal: ZERO


Agency Line Description                                             FY 2013-SEPTEMBER            FY 2012-SEPTEMBER

UNDERWRITING:
Income:
Premium, net (Note 11)                                                                3,053                      2,734
Other                                                                                    38                         13
Total                                                                                 3,091                      2,747
Expenses:
Administrative                                                                         371                        380
Other                                                                                    5                          0
Total                                                                                  376                        380
Other underwriting activity:
Losses from completed and probable terminations (Note 12)                               468                      2,006
Losses from insolvent and probable plans-financial                                    2,969                      2,466
assistance (Note 7)
Actuarial adjustments (credits) (Note 6)                                               (406)                       223
Total                                                                                 3,031                      4,695
Underwriting gain (loss)                                                               (316)                    (2,328)
FINANCIAL:
Investment income (loss) (Note 13):
Fixed                                                                                (1,083)                     5,139
Equity                                                                                4,157                      4,073
Private equity                                                                          272                         42
Real estate                                                                             (70)                       (21)
Other                                                                                    11                         (1)
Total                                                                                 5,453                      9,232
Expenses:
Investment                                                                               88                         83
Actuarial charges (Note 6):
Due to expected interest                                                              3,432                      3,981
Due to change in interest factors                                                        69                     10,834
Total                                                                                 3,589                     14,898
Financial loss                                                                       (1,864)                    (5,666)
Net income (loss)                                                                    (1,548)                    (7,994)
Total Costs                                                                          (9,261)                   (20,215)
Total Revenue                                                                        10,809                     12,221
Net position, beginning of year                                                     (37,184)                   (29,190)
Net position, end of year                                                           (35,636)                   (37,184)




                                                            - 3 -
                                                                                                                   11/15/2013 22:16:44
                                                       U.S.Department of the Treasury
                                                        Financial Management Service
                                                   Governmentwide Financial Report System

                                                    GF002C - OCBOA Adjustments Report


Statement: BALANCE SHEET                                                          Fiscal Year:     2013              Period: SEPTEMBER
Entity:       1602-PENSION BENEFIT GUARANTY CORPORATION                           Reported in:     MILLIONS        Decimal: ZERO

    All Amounts Shown as Debits and Credits().

Agency Line            FY 2013-SEPTEMBER FY 2013-SEPTEMBER FY 2013-SEPTEMBER    FY 2012-SEPTEMBER FY 2012-SEPTEMBER FY 2012-SEPTEMBER
Description                   Audit Amt       OCBOA Amt          Difference            Audit Amt       OCBOA Amt          Difference

ASSETS
Cash and cash                       4,377             4,377                 0                     3,807          3,807                    0
equivalents
Securities lending                  3,322             3,322                 0                     3,425          3,425                    0
collateral (Notes 3
and 5)
Investments, at
market (Notes 3
and 5):
Fixed maturity                    48,828            48,831                  3                    50,717         48,011               (2,706)
securities
Equity securities                 22,317            22,317                  0                    21,463         21,463                    0
Private equity                     1,228             1,228                  0                     1,339          1,339                    0
Real estate and real               2,373             2,373                  0                       878            878                    0
estate investment
trusts
Other                                 28                28                  0                        77             77                    0
Total investments                 74,774            74,777                  3                    74,474         71,768               (2,706)
Receivables, net:
Sponsors of                            60                60                 0                       41              41                    0
terminated plans
Premiums (Note 11)                  1,037             1,037                 0                     1,087          1,087                    0
Sale of securities                    601               601                 0                     1,353          1,353                    0
Derivative contracts                  276               276                 0                        83             83                    0
(Note 4)
Investment income                     445               445                 0                       464            464                    0
Other                                   4                 4                 0                         4              4                    0
Total receivables                   2,423             2,423                 0                     3,032          3,032                    0
Capitalized assets,                    50                50                 0                        42             42                    0
net
Total assets                      84,946            84,949                  3                    84,780         82,074               (2,706)

LIABILITIES
Present value of
future benefits, net
(Note 6):
Trusteed plans                   (103,125)         (103,125)                0                (103,127)        (103,127)                   0
Plans pending                      (1,091)           (1,091)                0                    (418)            (418)                   0
termination and
trusteeship



                                                                    - 1 -
                                                                                                                     11/15/2013 22:16:44
                                                        U.S.Department of the Treasury
                                                         Financial Management Service
                                                    Governmentwide Financial Report System

                                                     GF002C - OCBOA Adjustments Report


Statement: BALANCE SHEET                                                            Fiscal Year:     2013              Period: SEPTEMBER
Entity:       1602-PENSION BENEFIT GUARANTY CORPORATION                             Reported in:     MILLIONS        Decimal: ZERO

    All Amounts Shown as Debits and Credits().

Agency Line             FY 2013-SEPTEMBER FY 2013-SEPTEMBER FY 2013-SEPTEMBER      FY 2012-SEPTEMBER FY 2012-SEPTEMBER FY 2012-SEPTEMBER
Description                    Audit Amt       OCBOA Amt          Difference              Audit Amt       OCBOA Amt          Difference

Settlements and                        (57)              (57)                0                       (56)            (56)                     0
judgments
Claims for probable                   (745)             (745)                0                     (2,035)        (2,035)                     0
terminations
Total present value               (105,018)         (105,018)                0                 (105,636)        (105,636)                     0
of future benefits,
net
Present value of
nonrecoverable
future financial
assistance (Note
7):
Insolvent plans                     (1,352)           (1,352)                0                     (1,388)        (1,388)                     0
Probable insolvent                  (8,579)           (8,579)                0                     (5,622)        (5,622)                     0
plans
Total present value                 (9,931)           (9,931)                0                     (7,010)        (7,010)                     0
of nonrecoverable
future financial
assistance
Payables, net:
Derivative contracts                  (210)             (210)                0                       (94)            (94)                     0
(Note 4)
Due for purchases of                (1,608)           (1,608)                0                     (2,557)        (2,557)                     0
securities
Payable upon return                 (3,322)           (3,322)                0                     (3,425)        (3,425)                     0
of securities loaned
Securities sold under                    0                 0                 0                          0              0                      0
repurchase
agreements
Unearned premiums                     (419)             (419)                0                      (358)           (358)                     0
Accounts payable                       (77)              (77)                0                       (79)            (79)                     0
and accrued
expenses (Note 8)
Total payables                      (5,636)           (5,636)                 0                  (6,513)          (6,513)                      0
Total liabilities                 (120,585)         (120,585)                 0                (119,159)        (119,159)                      0
Net position                        35,639            35,636                 (3)                 34,379           37,085                   2,706
Total liabilities and              (84,946)          (84,949)                (3)                (84,780)         (82,074)                  2,706
net position




                                                                     - 2 -
                                                                                                                   11/15/2013 22:16:44
                                                        U.S.Department of the Treasury
                                                         Financial Management Service
                                                    Governmentwide Financial Report System

                                                     GF002C - OCBOA Adjustments Report


Statement: INCOME STATEMENT                                                        Fiscal Year:     2013            Period: SEPTEMBER
Entity:       1602-PENSION BENEFIT GUARANTY CORPORATION                            Reported in:     MILLIONS       Decimal: ZERO

    All Amounts Shown as Debits and Credits().

Agency Line             FY 2013-SEPTEMBER FY 2013-SEPTEMBER FY 2013-SEPTEMBER     FY 2012-SEPTEMBER FY 2012-SEPTEMBER FY 2012-SEPTEMBER
Description                    Audit Amt       OCBOA Amt          Difference             Audit Amt       OCBOA Amt          Difference

UNDERWRITING:
Income:
Premium, net (Note                  3,053             3,053                  0                    2,734         2,734                      0
11)
Other                                  38                38                  0                       13            13                      0
Total                               3,091             3,091                  0                    2,747         2,747                      0
Expenses:
Administrative                       371                371                  0                      380           380                      0
Other                                  5                  5                  0                        0             0                      0
Total                                376                376                  0                      380           380                      0
Other underwriting
activity:
Losses from                          468                468                  0                    2,006         2,006                      0
completed and
probable
terminations (Note
12)
Losses from                         2,969             2,969                  0                    2,466         2,466                      0
insolvent and
probable plans-
financial assistance
(Note 7)
Actuarial                            (406)             (406)                 0                      223           223                      0
adjustments (credits)
(Note 6)
Total                               3,031             3,031                  0                     4,695         4,695                     0
Underwriting gain                    (316)             (316)                 0                    (2,328)       (2,328)                    0
(loss)
FINANCIAL:
Investment income
(loss) (Note 13):
Fixed                              (1,725)            1,083               2,808                   4,790         5,139                    349
Equity                              4,157             4,157                   0                   4,073         4,073                      0
Private equity                        272               272                   0                      42            42                      0
Real estate                           (70)              (70)                  0                     (21)          (21)                     0
Other                                  11                11                   0                      (1)           (1)                     0
Total                               2,645             5,453               2,808                   8,883         9,232                    349
Expenses:
Investment                             88                88                  0                       83            83                      0




                                                                     - 3 -
                                                                                                                    11/15/2013 22:16:44
                                                       U.S.Department of the Treasury
                                                        Financial Management Service
                                                   Governmentwide Financial Report System

                                                    GF002C - OCBOA Adjustments Report


Statement: INCOME STATEMENT                                                        Fiscal Year:      2013             Period: SEPTEMBER
Entity:       1602-PENSION BENEFIT GUARANTY CORPORATION                            Reported in:      MILLIONS       Decimal: ZERO

     All Amounts Shown as Debits and Credits().

Agency Line            FY 2013-SEPTEMBER FY 2013-SEPTEMBER FY 2013-SEPTEMBER      FY 2012-SEPTEMBER FY 2012-SEPTEMBER FY 2012-SEPTEMBER
Description                   Audit Amt       OCBOA Amt          Difference              Audit Amt       OCBOA Amt          Difference

Actuarial charges
(Note 6):
Due to expected                     3,432             3,432                  0                      3,981         3,981                       0
interest
Due to change in                       69                69                  0                    10,834        10,834                        0
interest factors
Total                               3,589             3,589                  0                     14,898        14,898                       0
Financial loss                       (944)            1,864              2,808                     (6,015)       (5,666)                    349
Net income (loss)                  (1,260)            1,548              2,808                     (8,343)       (7,994)                    349
Total Costs                        12,069             9,261             (2,808)                    20,683        20,215                    (468)
Total Revenue                     (10,809)          (10,809)                 0                    (12,340)      (12,221)                    119
Net position,                      34,379            37,184              2,805                     26,036        29,190                   3,154
beginning of year
Net position, end of               35,639           35,636                  (3)                   34,379        37,184                    2,805
year




                                                                    - 4 -
  Audit of the Pension Benefit Guaranty

Corporation’s Financial Statements Closing

  Package for Fiscal Year 2013 and 2012




  Audit Report AUD-2014-4 / FA-13-93-3




              Section IV


     GF003F – Closing Package
    Financial Statement Report
This page intentionally left blank.
                                                                       U.S Department of the Treasury                                        11-15-2013 22:38:49
                                                                        Financial Management Service
                                                                   Governmentwide Financial Report System

                                                            GF003F-Closing Package Financial Statement Report

Statement: BALANCE SHEET                                            Fiscal Year:       2013                              Period:   SEPTEMBER

Entity:       1602-PENSION BENEFIT GUARANTY                         Reported In:       MILLIONS                 Decimal Point:     ZERO
              CORPORATION

          Amounts presented as debits and credits()
          The accompanying notes are an integral part of these financial statements.
          I = Inactive Line


Closing Line item                         Status               2013-SEPTEMBER                       2012-SEPTEMBER                    Previously Reported
Assets:
Non-Federal
Cash and Other Monetary Assets                                                 3,563                             3,540                               3,525
Accounts and Taxes Receivable                                                  1,809                             2,568                               2,568
Loans Receivable and mortgage                                                      0                                 0                                   0
backed securities
TARP Direct Loans and Equity                                                       0                                 0                                      0
Investments
Inventory and Related Property                                                    0                                  0                                   0
Property, Plant and Equipment                                                    50                                 42                                  42
Debt and Equity Securities                                                   54,689                             52,797                              52,812
Investment in Government sponsored                                                0                                  0                                   0
enterprises (GSEs)
Derivative Assets                          I                                      0                                  0                                   5
Other Assets                                                                    122                                  5                                   0
Total Non-Federal Assets                                                     60,233                             58,952                              58,952

Federal
Fund Balance with Treasury                                                        1                                  1                                   1
Federal Investments                                                          24,580                             22,957                              22,957
Accounts Receivable                                                               0                                  0                                   0
Accounts Receivable, capital transfers                                            0                                  0                                   0
Interest Receivable                                                             135                                164                                 164
Loans Receivable                                                                  0                                  0                                   0
Transfers Receivable                                                              0                                  0                                   0
Benefit Program Contributions                                                     0                                  0                                   0




                                                                                              -1-
                                                                       U.S Department of the Treasury                                          11-15-2013 22:38:49
                                                                        Financial Management Service
                                                                   Governmentwide Financial Report System

                                                            GF003F-Closing Package Financial Statement Report

Statement: BALANCE SHEET                                            Fiscal Year:       2013                                Period:   SEPTEMBER

Entity:       1602-PENSION BENEFIT GUARANTY                         Reported In:       MILLIONS                  Decimal Point:      ZERO
              CORPORATION

          Amounts presented as debits and credits()
          The accompanying notes are an integral part of these financial statements.
          I = Inactive Line


Closing Line item                         Status               2013-SEPTEMBER                       2012-SEPTEMBER                      Previously Reported
Receivable
Advances to Others and Prepayments                                                0                                    0                                   0
Other Assets (without reciprocals)                                                0                                    0                                   0
Total Federal Assets                                                         24,716                               23,122                              23,122
Total Assets                                                                 84,949                               82,074                              82,074

Liabilities
Non-Federal
Accounts Payable                                                                 (64)                                (67)                                (67)
Federal Debt Securities Held by the                                                0                                   0                                   0
Public
Federal Employee and Veteran                                                       0                                   0                                      0
Benefits Payable
Environmental and Disposal                                                         0                                   0                                      0
Liabilities
Benefits Due and Payable                                                           0                                   0                                      0
Loan Guarantee Liabilities                                                         0                                   0                                      0
Liabilities to Government Sponsored                                                0                                   0                                      0
Enterprises
Insurance and Guarantee Program                                            (105,018)                            (105,636)                           (105,636)
Liabilities
Derivative Liabilities                     I                                      0                                    0                                 (21)
Other Liabilities                                                           (15,502)                             (13,455)                            (13,434)
Total Non-Federal Liabilities                                              (120,584)                            (119,158)                           (119,158)

Federal




                                                                                              -2-
                                                                       U.S Department of the Treasury                                          11-15-2013 22:38:49
                                                                        Financial Management Service
                                                                   Governmentwide Financial Report System

                                                            GF003F-Closing Package Financial Statement Report

Statement: BALANCE SHEET                                            Fiscal Year:        2013                               Period:   SEPTEMBER

Entity:       1602-PENSION BENEFIT GUARANTY                         Reported In:        MILLIONS                 Decimal Point:      ZERO
              CORPORATION

          Amounts presented as debits and credits()
          The accompanying notes are an integral part of these financial statements.
          I = Inactive Line


Closing Line item                         Status               2013-SEPTEMBER                        2012-SEPTEMBER                     Previously Reported
Accounts Payable                                                                    0                                  0                                   0
Accounts Payable, capital transfers                                                 0                                  0                                   0
Federal Debt                                                                        0                                  0                                   0
Interest Payable                                                                    0                                  0                                   0
Loans Payable                                                                       0                                  0                                   0
Transfers Payable                                                                   0                                  0                                   0
Benefit Program Contributions                                                      (1)                                (1)                                 (1)
Payable
Advances from Others and Deferred                                                   0                                  0                                      0
Credits
Liability to the General Fund for                                                   0                                  0                                      0
custodial and other non-entity assets
Other Liabilities (without reciprocals)                                           0                                    0                                   0
Total Federal Liabilities                                                        (1)                                  (1)                                 (1)
Total Liabilities                                                          (120,585)                            (119,159)                           (119,159)


Net Position-All Other Funds                                                 35,636                               37,085                              37,085
Net Position- Funds From Dedicated                                                0                                    0                                   0
Collections

Total Net Position                                                           35,636                               37,085                              37,085
Total Liabilities and Net Position                                          (84,949)                             (82,074)                            (82,074)




                                                                                               -3-
                                                                       U.S Department of the Treasury                                         11-15-2013 22:38:49
                                                                        Financial Management Service
                                                                   Governmentwide Financial Report System

                                                            GF003F-Closing Package Financial Statement Report

Statement: STATEMENT OF NET COST                                    Fiscal Year:       2013                               Period:   SEPTEMBER

Entity:       1602-PENSION BENEFIT GUARANTY                         Reported In:       MILLIONS                 Decimal Point:      ZERO
              CORPORATION

          Amounts presented as debits and credits()
          The accompanying notes are an integral part of these financial statements.
          I = Inactive Line


Closing Line item                         Status               2013-SEPTEMBER                       2012-SEPTEMBER                     Previously Reported
Gross Cost:
Non-Federal Gross Cost                                                         9,105                             20,173                              20,173
Interest on Debt Held by the Public                                                0                                  0                                   0
Gain/Loss from changes in actuarial                                                0                                  0                                   0
assumptions
Total Non-Federal Gross Cost                                                   9,105                             20,173                              20,173

Federal Gross Cost
Benefit Program Costs                                                            25                                  24                                  24
Imputed Costs                                                                     7                                   8                                   8
Buy/Sell Costs                                                                    7                                   4                                   4
Federal Securities Interest Expense                                             117                                   6                                   6
Borrowing and Other Interest                                                      0                                   0                                   0
Expense
Borrowing Losses                                                                   0                                  0                                   0
Other Expenses (without reciprocals)                                               0                                  0                                   0
Total Federal Gross Cost                                                         156                                 42                                  42
Department Total Gross Cost                                                    9,261                             20,215                              20,215

Earned Revenue
Non-Federal Earned Revenue                                                    (9,409)                           (10,448)                            (10,448)

Federal Earned Revenue
Benefit Program Revenue (exchange)                                                 0                                  0                                   0
Buy/Sell Revenue                                                                   0                                  0                                   0
Federal Securities Interest Revenue                                           (1,387)                            (1,769)                             (1,769)




                                                                                              -4-
                                                                       U.S Department of the Treasury                                         11-15-2013 22:38:49
                                                                        Financial Management Service
                                                                   Governmentwide Financial Report System

                                                            GF003F-Closing Package Financial Statement Report

Statement: STATEMENT OF NET COST                                    Fiscal Year:       2013                               Period:   SEPTEMBER

Entity:       1602-PENSION BENEFIT GUARANTY                         Reported In:       MILLIONS                 Decimal Point:      ZERO
              CORPORATION

          Amounts presented as debits and credits()
          The accompanying notes are an integral part of these financial statements.
          I = Inactive Line


Closing Line item                         Status               2013-SEPTEMBER                       2012-SEPTEMBER                     Previously Reported
(exchange)
Borrowing and Other Interest                                                       0                                  0                                      0
Revenue (Exchange)
Borrowings Gains                                                                   0                                  0                                   0
Other Revenue (without reciprocals)                                               (1)                                 0                                   0
Total Federal Earned Revenue                                                  (1,388)                            (1,769)                             (1,769)

Department Total Earned Revenue                                             (10,797)                            (12,217)                            (12,217)

Net Cost                                                                      (1,536)                             7,998                               7,998




                                                                                              -5-
                                                                       U.S Department of the Treasury                                        11-15-2013 22:38:49
                                                                        Financial Management Service
                                                                   Governmentwide Financial Report System

                                                            GF003F-Closing Package Financial Statement Report

Statement: STATEMENT OF CHANGES IN NET POSITION Fiscal Year:                            2013                             Period:   SEPTEMBER

Entity:       1602-PENSION BENEFIT GUARANTY                         Reported In:        MILLIONS                Decimal Point:     ZERO
              CORPORATION

          Amounts presented as debits and credits()
          The accompanying notes are an integral part of these financial statements.
          I = Inactive Line


Closing Line item                         Status               2013-SEPTEMBER                        2012-SEPTEMBER                   Previously Reported
Beginning Net Position                                                       37,085                             29,062                              29,062
Non-Federal Prior-Period
Adjustments
Changes in Accounting Principles -                                                  0                                0                                      0
Non Federal
Corrections of Errors - Non Federal                                                 0                                0                                      0
Corrections of Errors - Years                                                       0                                0                                      0
Preceding the Prior Year - Non
Federal
Federal Prior-Period Adjustments
Change in Accounting Principles -                                                  99                              128                                 29
Federal
Corrections of Errors - Federal                                                     0                                0                                      0
Corrections of Errors - Years                                                       0                                0                                      0
Preceding the Prior Year - Federal
Adjusted Beginning Net Position                                              37,184                             29,190                              29,091
Balance

Non-Federal Nonexchange Revenue
Individual Income Tax and Tax                                                       0                                0                                      0
Witholdings
Corporation Income Taxes                                                            0                                0                                      0
Unemployment Taxes                                                                  0                                0                                      0
Excise Taxes                                                                        0                                0                                      0
Estate and Gift Taxes                                                               0                                0                                      0
Custom Duties                                                                       0                                0                                      0




                                                                                               -6-
                                                                       U.S Department of the Treasury                                        11-15-2013 22:38:49
                                                                        Financial Management Service
                                                                   Governmentwide Financial Report System

                                                            GF003F-Closing Package Financial Statement Report

Statement: STATEMENT OF CHANGES IN NET POSITION Fiscal Year:                            2013                             Period:   SEPTEMBER

Entity:       1602-PENSION BENEFIT GUARANTY                         Reported In:        MILLIONS                Decimal Point:     ZERO
              CORPORATION

          Amounts presented as debits and credits()
          The accompanying notes are an integral part of these financial statements.
          I = Inactive Line


Closing Line item                         Status               2013-SEPTEMBER                        2012-SEPTEMBER                   Previously Reported
Other Taxes and Receipts                                                           (5)                               4                                      4
Miscellaneous Earned Revenue                                                        0                                0                                      0
Total Non-Federal Nonexchange                                                      (5)                               4                                      4
Revenue

Federal Nonexchange Revenue
Federal Securities Interest Revenue                                                 0                                0                                      0
(nonexchange)
Borrowing and other interest revenue                                                0                                0                                      0
(nonexchange)
Benefit Program Revenue                                                             0                                0                                      0
(nonexchange)
Other taxes and receipts                                                            0                                0                                      0
Total Federal Nonexchange Revenue                                                   0                                0                                      0

Budgetary Financing Sources:
Appropriations received as adjusted                                                 0                                0                                      0
(rescissions and other adjustments)
Appropriation of unavailable special                                                0                                0                                      0
or trust fund receipts transfers-in
Appropriation of unavailable special                                                0                                0                                      0
or trust fund receipts Transfers-out
Nonexpenditure transfers-in of                                                      0                                0                                      0
unexpended appropriations and
financing sources
Nonexpenditure Transfers-out of                                                     0                                0                                      0




                                                                                               -7-
                                                                       U.S Department of the Treasury                                        11-15-2013 22:38:49
                                                                        Financial Management Service
                                                                   Governmentwide Financial Report System

                                                            GF003F-Closing Package Financial Statement Report

Statement: STATEMENT OF CHANGES IN NET POSITION Fiscal Year:                            2013                             Period:   SEPTEMBER

Entity:       1602-PENSION BENEFIT GUARANTY                         Reported In:        MILLIONS                Decimal Point:     ZERO
              CORPORATION

          Amounts presented as debits and credits()
          The accompanying notes are an integral part of these financial statements.
          I = Inactive Line


Closing Line item                         Status               2013-SEPTEMBER                        2012-SEPTEMBER                   Previously Reported
unexpended appropriations and
financing sources
Expenditure transfers-in of financing                                               0                                0                                      0
sources
Expenditure Transfers-out of                                                        0                                0                                      0
financing sources
Nonexpenditure Transfers-In of                                                      0                                0                                      0
Financing Sources - Capital Transfers
Nonexpenditure Transfers-out of                                                     0                                0                                      0
Financing Sources - Capital Transfers
Collections for Others Transferred to                                               0                                0                                      0
the General Fund
Accrual for Amounts to be Collected                                                 0                                0                                      0
for Others and Transferred to the
General Fund
Other budgetary financing sources                                                   0                                0                                      0
Total Budgetary Financing Sources                                                   0                                0                                      0

Other Financing Sources:
Transfers-in Without Reimbursement                                                  0                                0                                      0
Transfers-out Without                                                               0                                0                                      0
Reimbursement
Imputed Financing Source                                                           (7)                              (8)                                 (8)
Non-Entity Collections Transferred                                                  0                                0                                   0
to the General Fund
Accrual for Non-entity Amounts to                                                   0                                0                                      0




                                                                                               -8-
                                                                       U.S Department of the Treasury                                        11-15-2013 22:38:49
                                                                        Financial Management Service
                                                                   Governmentwide Financial Report System

                                                            GF003F-Closing Package Financial Statement Report

Statement: STATEMENT OF CHANGES IN NET POSITION Fiscal Year:                            2013                             Period:   SEPTEMBER

Entity:       1602-PENSION BENEFIT GUARANTY                         Reported In:        MILLIONS                Decimal Point:     ZERO
              CORPORATION

          Amounts presented as debits and credits()
          The accompanying notes are an integral part of these financial statements.
          I = Inactive Line


Closing Line item                         Status               2013-SEPTEMBER                        2012-SEPTEMBER                   Previously Reported
be Collected and Transferred to the
General Fund
Other non-budgetary financing                                                       0                                0                                      0
sources
Total Other Financing Sources                                                      (7)                              (8)                                 (8)


Net Cost                                                                      (1,536)                            7,998                               7,998

Ending Net Position Balance                                                  35,636                             37,184                              37,085




                                                                                               -9-
This page intentionally left blank.
  Audit of the Pension Benefit Guaranty

Corporation’s Financial Statements Closing

  Package for Fiscal Year 2013 and 2012




  Audit Report AUD-2014-4 / FA-13-93-3




               Section V


    GF003G – Closing Package
        Line Reclassification
          Summary Report
This page intentionally left blank.
                                                                 U.S. Department of the Treasury                                     11/15/2013 22:37:41
                                                                   Financial Management Service
                                                              Governmentwide Financial Report System

                                                 GF003G-Closing Package Line Reclassification Summary Report

Statement: BALANCE SHEET                                                      Fiscal Year: 2013                                   Period: SEPTEMBER
    Entity: 1602 - PENSION BENEFIT GUARANTY CORPORATIO                        Reported in: MILLIONS                         Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                                  Status Account NB       F/N      2013-SEPTEMBER          2012-SEPTEMBER
                                                                                      Type
 2   Cash and cash equivalents                                                          A      D       B                     4,377                  3,807
                                                                                     Variance:                                   0                      0

Closing Package Line Reclassification
Closing Package Line Description                 Status F/N     2013-SEPTEMBER         2012-SEPTEMBER          Previously Reported      Line Item Changes
Cash and Other Monetary Assets                           N                 3,563                  3,540                      3,525                    15
Fund Balance with Treasury                               F                     1                      1                          1                     0
Federal Investments                                      F                   813                    266                        266                     0
Total:                                                                     4,377                  3,807                      3,792                    15
Line Agency Line Description                                                  Status Account NB       F/N      2013-SEPTEMBER          2012-SEPTEMBER
                                                                                      Type
 3   Securities lending collateral (Notes 3 and 5)                                      A      D       N                     3,322                  3,425
                                                                                     Variance:                                   0                      0

Closing Package Line Reclassification
Closing Package Line Description                 Status F/N     2013-SEPTEMBER         2012-SEPTEMBER          Previously Reported      Line Item Changes
Debt and Equity Securities                               N                 3,322                  3,425                      3,425                     0
Total:                                                                     3,322                  3,425                      3,425                     0

Line Agency Line Description                                                  Status Account NB       F/N      2013-SEPTEMBER          2012-SEPTEMBER
                                                                                      Type
 5   Fixed maturity securities                                                          A      D       B                    48,831                 48,011
                                                                                     Variance:                                   0                      0

Closing Package Line Reclassification
Closing Package Line Description                 Status F/N     2013-SEPTEMBER         2012-SEPTEMBER          Previously Reported      Line Item Changes
Other Assets                                             N                   (51)                     1                          0                     1
Federal Investments                                      F                23,767                 22,691                     22,691                     0
Debt and Equity Securities                               N                25,115                 25,319                     24,545                   774


                                                                               -1-
                                                             U.S. Department of the Treasury                                     11/15/2013 22:37:41
                                                               Financial Management Service
                                                          Governmentwide Financial Report System

                                             GF003G-Closing Package Line Reclassification Summary Report

Statement: BALANCE SHEET                                                  Fiscal Year: 2013                                   Period: SEPTEMBER
    Entity: 1602 - PENSION BENEFIT GUARANTY CORPORATIO                    Reported in: MILLIONS                         Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                                     Account NB       F/N      2013-SEPTEMBER          2012-SEPTEMBER
                                                                                  Type
 5 Fixed maturity securities                                                        A    D         B                   48,831                  48,011
Derivative Assets                                 I   N                     0                       0                       1                      (1)
Total:                                                                 48,831                  48,011                  47,237                    774




Line Agency Line Description                                              Status Account NB       F/N      2013-SEPTEMBER          2012-SEPTEMBER
                                                                                  Type
 6   Equity securities                                                              A      D       N                    22,317                 21,463
                                                                                 Variance:                                   0                      0

Closing Package Line Reclassification
Closing Package Line Description             Status F/N     2013-SEPTEMBER         2012-SEPTEMBER          Previously Reported      Line Item Changes
Debt and Equity Securities                           N                22,317                 21,463                     22,619                 (1,156)
Total:                                                                22,317                 21,463                     22,619                 (1,156)

Line Agency Line Description                                              Status Account NB       F/N      2013-SEPTEMBER          2012-SEPTEMBER
                                                                                  Type
 7   Private equity                                                                 A      D       N                     1,228                  1,339
                                                                                 Variance:                                   0                      0

Closing Package Line Reclassification
Closing Package Line Description             Status F/N     2013-SEPTEMBER         2012-SEPTEMBER          Previously Reported      Line Item Changes
Debt and Equity Securities                           N                 1,228                  1,339                      1,339                     0
Total:                                                                 1,228                  1,339                      1,339                     0




                                                                           -2-
                                                                 U.S. Department of the Treasury                                     11/15/2013 22:37:41
                                                                   Financial Management Service
                                                              Governmentwide Financial Report System

                                                 GF003G-Closing Package Line Reclassification Summary Report

Statement: BALANCE SHEET                                                      Fiscal Year: 2013                                   Period: SEPTEMBER
    Entity: 1602 - PENSION BENEFIT GUARANTY CORPORATIO                        Reported in: MILLIONS                         Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                                  Status Account NB       F/N      2013-SEPTEMBER          2012-SEPTEMBER
                                                                                      Type
 8   Real estate and real estate investment trusts                                      A      D       N                     2,373                    878
                                                                                     Variance:                                   0                      0

Closing Package Line Reclassification
Closing Package Line Description                 Status F/N     2013-SEPTEMBER         2012-SEPTEMBER          Previously Reported      Line Item Changes
Debt and Equity Securities                               N                 2,373                   878                        511                    367
Total:                                                                     2,373                   878                        511                    367

Line Agency Line Description                                                  Status Account NB       F/N      2013-SEPTEMBER          2012-SEPTEMBER
                                                                                      Type
 9   Other                                                                              A      D       N                       28                      77
                                                                                     Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description                 Status F/N     2013-SEPTEMBER         2012-SEPTEMBER          Previously Reported      Line Item Changes
Debt and Equity Securities                               N                   28                     77                         77                      0
Total:                                                                       28                     77                         77                      0

Line Agency Line Description                                                  Status Account NB       F/N      2013-SEPTEMBER          2012-SEPTEMBER
                                                                                      Type
 12 Sponsors of terminated plans                                                        A      D       N                       60                      41
                                                                                     Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description                 Status F/N     2013-SEPTEMBER         2012-SEPTEMBER          Previously Reported      Line Item Changes
Accounts and Taxes Receivable                            N                   60                     41                         41                      0
Total:                                                                       60                     41                         41                      0




                                                                               -3-
                                                             U.S. Department of the Treasury                                     11/15/2013 22:37:41
                                                               Financial Management Service
                                                          Governmentwide Financial Report System

                                             GF003G-Closing Package Line Reclassification Summary Report

Statement: BALANCE SHEET                                                  Fiscal Year: 2013                                   Period: SEPTEMBER
    Entity: 1602 - PENSION BENEFIT GUARANTY CORPORATIO                    Reported in: MILLIONS                         Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                              Status Account NB       F/N      2013-SEPTEMBER          2012-SEPTEMBER
                                                                                  Type
 13 Premiums (Note 11)                                                              A      D       N                     1,037                  1,087
                                                                                 Variance:                                   0                      0

Closing Package Line Reclassification
Closing Package Line Description             Status F/N     2013-SEPTEMBER         2012-SEPTEMBER          Previously Reported      Line Item Changes
Accounts and Taxes Receivable                        N                 1,037                  1,087                      1,087                     0
Total:                                                                 1,037                  1,087                      1,087                     0

Line Agency Line Description                                              Status Account NB       F/N      2013-SEPTEMBER          2012-SEPTEMBER
                                                                                  Type
 14 Sale of securities                                                              A      D       N                      601                   1,353
                                                                                 Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description             Status F/N     2013-SEPTEMBER         2012-SEPTEMBER          Previously Reported      Line Item Changes
Accounts and Taxes Receivable                        N                  601                   1,353                      1,353                     0
Total:                                                                  601                   1,353                      1,353                     0

Line Agency Line Description                                              Status Account NB       F/N      2013-SEPTEMBER          2012-SEPTEMBER
                                                                                  Type
 15 Derivative contracts (Note 4)                                                   A      D       N                      276                      83
                                                                                 Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description             Status F/N     2013-SEPTEMBER         2012-SEPTEMBER          Previously Reported      Line Item Changes
Other Assets                                         N                  173                      4                           0                     4
Accounts and Taxes Receivable                        N                  103                     79                         79                      0
Derivative Assets                               I    N                    0                      0                           4                    (4)
Total:                                                                  276                     83                         83                      0



                                                                           -4-
                                                             U.S. Department of the Treasury                                     11/15/2013 22:37:41
                                                               Financial Management Service
                                                          Governmentwide Financial Report System

                                             GF003G-Closing Package Line Reclassification Summary Report

Statement: BALANCE SHEET                                                  Fiscal Year: 2013                                   Period: SEPTEMBER
    Entity: 1602 - PENSION BENEFIT GUARANTY CORPORATIO                    Reported in: MILLIONS                         Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                              Status Account NB       F/N      2013-SEPTEMBER          2012-SEPTEMBER
                                                                                  Type
 16 Investment income                                                               A      D       B                      445                     464
                                                                                 Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description             Status F/N     2013-SEPTEMBER         2012-SEPTEMBER          Previously Reported      Line Item Changes
Interest Receivable                                  F                  135                    164                        164                      0
Accounts and Taxes Receivable                        N                    4                      4                           4                     0
Debt and Equity Securities                           N                  306                    296                        296                      0
Total:                                                                  445                    464                        464                      0
Line Agency Line Description                                              Status Account NB       F/N      2013-SEPTEMBER          2012-SEPTEMBER
                                                                                  Type
 17 Other                                                                           A      D       N                        4                          4
                                                                                 Variance:                                  0                          0

Closing Package Line Reclassification
Closing Package Line Description             Status F/N     2013-SEPTEMBER         2012-SEPTEMBER          Previously Reported      Line Item Changes
Accounts and Taxes Receivable                        N                   4                      4                            4                     0
Total:                                                                   4                      4                            4                     0

Line Agency Line Description                                              Status Account NB       F/N      2013-SEPTEMBER          2012-SEPTEMBER
                                                                                  Type
 19 Capitalized assets, net                                                         A      D       N                       50                      42
                                                                                 Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description             Status F/N     2013-SEPTEMBER         2012-SEPTEMBER          Previously Reported      Line Item Changes
Property, Plant and Equipment                        N                   50                     42                         42                      0
Total:                                                                   50                     42                         42                      0



                                                                           -5-
                                                                U.S. Department of the Treasury                                      11/15/2013 22:37:41
                                                                  Financial Management Service
                                                             Governmentwide Financial Report System

                                                GF003G-Closing Package Line Reclassification Summary Report

Statement: BALANCE SHEET                                                     Fiscal Year: 2013                                    Period: SEPTEMBER
    Entity: 1602 - PENSION BENEFIT GUARANTY CORPORATIO                       Reported in: MILLIONS                          Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                                  Status Account NB      F/N      2013-SEPTEMBER           2012-SEPTEMBER
                                                                                      Type
 24 Trusteed plans                                                                      L      C      N                   103,125                 103,127
                                                                                     Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2013-SEPTEMBER         2012-SEPTEMBER          Previously Reported       Line Item Changes
Insurance and Guarantee Program Liabilities             N                103,125                103,127                   103,127                      0
Total:                                                                  (103,125)              (103,127)                 (103,127)                     0

Line Agency Line Description                                                  Status Account NB      F/N      2013-SEPTEMBER           2012-SEPTEMBER
                                                                                      Type
 25 Plans pending termination and trusteeship                                           L      C      N                     1,091                     418
                                                                                     Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2013-SEPTEMBER         2012-SEPTEMBER          Previously Reported       Line Item Changes
Insurance and Guarantee Program Liabilities             N                 1,091                   418                        418                       0
Total:                                                                   (1,091)                 (418)                      (418)                      0

Line Agency Line Description                                                  Status Account NB      F/N      2013-SEPTEMBER           2012-SEPTEMBER
                                                                                      Type
 26 Settlements and judgments                                                           L      C      N                        57                      56
                                                                                     Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2013-SEPTEMBER         2012-SEPTEMBER          Previously Reported       Line Item Changes
Insurance and Guarantee Program Liabilities             N                   57                     56                         56                       0
Total:                                                                     (57)                   (56)                       (56)                      0




                                                                              -6-
                                                                U.S. Department of the Treasury                                     11/15/2013 22:37:41
                                                                  Financial Management Service
                                                             Governmentwide Financial Report System

                                               GF003G-Closing Package Line Reclassification Summary Report

Statement: BALANCE SHEET                                                      Fiscal Year: 2013                                  Period: SEPTEMBER
    Entity: 1602 - PENSION BENEFIT GUARANTY CORPORATIO                        Reported in: MILLIONS                        Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                                   Status Account NB      F/N    2013-SEPTEMBER           2012-SEPTEMBER
                                                                                       Type
 27 Claims for probable terminations                                                     L      C     N                      745                   2,035
                                                                                      Variance:                                0                       0

Closing Package Line Reclassification
Closing Package Line Description               Status F/N        2013-SEPTEMBER        2012-SEPTEMBER        Previously Reported       Line Item Changes
Insurance and Guarantee Program Liabilities            N                     745                  2,035                    2,035                      0
Total:                                                                      (745)                (2,035)                  (2,035)                     0

Line Agency Line Description                                                   Status Account NB      F/N    2013-SEPTEMBER           2012-SEPTEMBER
                                                                                       Type
 29 Present value of nonrecoverable future financial assistance (Note 7)          I      L      C     N
                                                                                      Variance:                                0                          0

Closing Package Line Reclassification
Closing Package Line Description               Status F/N        2013-SEPTEMBER        2012-SEPTEMBER        Previously Reported       Line Item Changes
Total:                                                                        0                     0                          0                      0


Line Agency Line Description                                                   Status Account NB      F/N    2013-SEPTEMBER           2012-SEPTEMBER
                                                                                       Type
 31 Insolvent plans                                                                      L      C     N                    1,352                   1,388
                                                                                      Variance:                                0                       0

Closing Package Line Reclassification
Closing Package Line Description               Status F/N        2013-SEPTEMBER        2012-SEPTEMBER        Previously Reported       Line Item Changes
Other Liabilities                                      N                    1,352                 1,388                    1,388                      0
Total:                                                                     (1,352)               (1,388)                  (1,388)                     0




                                                                                -7-
                                                             U.S. Department of the Treasury                                      11/15/2013 22:37:41
                                                               Financial Management Service
                                                          Governmentwide Financial Report System

                                             GF003G-Closing Package Line Reclassification Summary Report

Statement: BALANCE SHEET                                                  Fiscal Year: 2013                                    Period: SEPTEMBER
    Entity: 1602 - PENSION BENEFIT GUARANTY CORPORATIO                    Reported in: MILLIONS                          Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                              Status Account NB       F/N      2013-SEPTEMBER           2012-SEPTEMBER
                                                                                  Type
 32 Probable insolvent plans                                                        L      C       N                     8,579                   5,622
                                                                                 Variance:                                   0                       0

Closing Package Line Reclassification
Closing Package Line Description             Status F/N     2013-SEPTEMBER         2012-SEPTEMBER          Previously Reported       Line Item Changes
Other Liabilities                                    N                 8,579                  5,622                      5,622                      0
Total:                                                                (8,579)                (5,622)                    (5,622)                     0

Line Agency Line Description                                              Status Account NB       F/N      2013-SEPTEMBER           2012-SEPTEMBER
                                                                                  Type
 35 Derivative contracts (Note 4)                                                   L      C       N                       210                      94
                                                                                 Variance:                                   0                       0

Closing Package Line Reclassification
Closing Package Line Description             Status F/N     2013-SEPTEMBER         2012-SEPTEMBER          Previously Reported       Line Item Changes
Other Liabilities                                    N                  210                     94                         73                      21
Derivative Liabilities                          I    N                    0                      0                         21                     (21)
Total:                                                                 (210)                   (94)                       (94)                      0
Line Agency Line Description                                              Status Account NB       F/N      2013-SEPTEMBER           2012-SEPTEMBER
                                                                                  Type
 36 Due for purchases of securities                                                 L      C       N                     1,608                   2,557
                                                                                 Variance:                                   0                       0

Closing Package Line Reclassification
Closing Package Line Description             Status F/N     2013-SEPTEMBER         2012-SEPTEMBER          Previously Reported       Line Item Changes
Other Liabilities                                    N                 1,608                  2,557                      2,557                      0
Total:                                                                (1,608)                (2,557)                    (2,557)                     0




                                                                           -8-
                                                               U.S. Department of the Treasury                                      11/15/2013 22:37:41
                                                                 Financial Management Service
                                                            Governmentwide Financial Report System

                                               GF003G-Closing Package Line Reclassification Summary Report

Statement: BALANCE SHEET                                                    Fiscal Year: 2013                                    Period: SEPTEMBER
    Entity: 1602 - PENSION BENEFIT GUARANTY CORPORATIO                      Reported in: MILLIONS                          Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                                Status Account NB       F/N      2013-SEPTEMBER           2012-SEPTEMBER
                                                                                    Type
 37 Payable upon return of securities loaned                                          L      C       N                     3,322                   3,425
                                                                                   Variance:                                   0                       0

Closing Package Line Reclassification
Closing Package Line Description               Status F/N     2013-SEPTEMBER         2012-SEPTEMBER          Previously Reported       Line Item Changes
Other Liabilities                                      N                 3,322                  3,425                      3,425                      0
Total:                                                                  (3,322)                (3,425)                    (3,425)                     0

Line Agency Line Description                                                Status Account NB       F/N      2013-SEPTEMBER           2012-SEPTEMBER
                                                                                    Type
 38 Securities sold under repurchase agreements                                       L      C       N                         0                          0
                                                                                   Variance:                                   0                          0

Closing Package Line Reclassification
Closing Package Line Description               Status F/N     2013-SEPTEMBER         2012-SEPTEMBER          Previously Reported       Line Item Changes
Total:                                                                     0                      0                            0                      0


Line Agency Line Description                                                Status Account NB       F/N      2013-SEPTEMBER           2012-SEPTEMBER
                                                                                    Type
 39 Unearned premiums                                                                 L      C       N                       419                     358
                                                                                   Variance:                                   0                       0

Closing Package Line Reclassification
Closing Package Line Description               Status F/N     2013-SEPTEMBER         2012-SEPTEMBER          Previously Reported       Line Item Changes
Other Liabilities                                      N                  419                    358                        358                       0
Total:                                                                   (419)                  (358)                      (358)                      0




                                                                             -9-
                                                             U.S. Department of the Treasury                                     11/15/2013 22:37:41
                                                               Financial Management Service
                                                          Governmentwide Financial Report System

                                             GF003G-Closing Package Line Reclassification Summary Report

Statement: BALANCE SHEET                                                  Fiscal Year: 2013                                   Period: SEPTEMBER
    Entity: 1602 - PENSION BENEFIT GUARANTY CORPORATIO                    Reported in: MILLIONS                         Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                              Status Account NB       F/N      2013-SEPTEMBER          2012-SEPTEMBER
                                                                                  Type
 40 Due for purchases of securities                                          I      L      C       N
                                                                                 Variance:                                  0                          0

Closing Package Line Reclassification
Closing Package Line Description             Status F/N     2013-SEPTEMBER          2012-SEPTEMBER         Previously Reported      Line Item Changes
Total:                                                                   0                       0                           0                     0


Line Agency Line Description                                              Status Account NB       F/N      2013-SEPTEMBER          2012-SEPTEMBER
                                                                                  Type
 41 Derivative contracts (Note 4)                                            I      L      C       N
                                                                                 Variance:                                  0                          0

Closing Package Line Reclassification
Closing Package Line Description             Status F/N     2013-SEPTEMBER          2012-SEPTEMBER         Previously Reported      Line Item Changes
Total:                                                                   0                       0                           0                     0


Line Agency Line Description                                              Status Account NB       F/N      2013-SEPTEMBER          2012-SEPTEMBER
                                                                                  Type
 42 Accounts payable and accrued expenses (Note 8)                                  L      C       B                       77                      79
                                                                                 Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description             Status F/N     2013-SEPTEMBER          2012-SEPTEMBER         Previously Reported      Line Item Changes
Accounts Payable                                     N                   64                      67                        67                      0
Other Liabilities                                    N                   12                      11                        11                      0
Benefit Program Contributions Payable                F                    1                       1                          1                     0
Total:                                                                  (77)                    (79)                      (79)                     0



                                                                           - 10 -
                                                             U.S. Department of the Treasury                                      11/15/2013 22:37:41
                                                               Financial Management Service
                                                          Governmentwide Financial Report System

                                             GF003G-Closing Package Line Reclassification Summary Report

Statement: BALANCE SHEET                                                  Fiscal Year: 2013                                    Period: SEPTEMBER
    Entity: 1602 - PENSION BENEFIT GUARANTY CORPORATIO                    Reported in: MILLIONS                          Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                               Status Account NB      F/N      2013-SEPTEMBER           2012-SEPTEMBER
                                                                                   Type
 45 Net position                                                                     E      C      B                   (35,636)                (37,085)
                                                                                  Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description             Status F/N     2013-SEPTEMBER          2012-SEPTEMBER         Previously Reported       Line Item Changes
Net Position-All Other Funds                         B                (35,636)                (37,085)                 (37,085)                     0
Total:                                                                 35,636                  37,085                   37,085                      0




                                                                           - 11 -
                                                               U.S. Department of the Treasury                                     11/15/2013 22:37:41
                                                                 Financial Management Service
                                                            Governmentwide Financial Report System

                                              GF003G-Closing Package Line Reclassification Summary Report

Statement: INCOME STATEMENT                                                 Fiscal Year: 2013                                   Period: SEPTEMBER
    Entity: 1602 - PENSION BENEFIT GUARANTY CORPORATIO                      Reported in: MILLIONS                         Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                                 Status Account NB      F/N     2013-SEPTEMBER           2012-SEPTEMBER
                                                                                     Type
 32 Total Costs                                                                       TC      D      B                    9,261                  20,215
                                                                                    Variance:                                 0                       0

Closing Package Line Reclassification
Closing Package Line Description             Status F/N       2013-SEPTEMBER          2012-SEPTEMBER        Previously Reported       Line Item Changes
Imputed Costs                                        F                       7                       8                        8                      0
Buy/Sell Costs                                       F                       7                       4                        4                      0
Benefit Program Costs                                F                      25                      24                       24                      0
Federal Securities Interest Expense                  F                     117                       6                        6                      0
Non-Federal Gross Cost                               N                   9,105                  20,173                   20,173                      0
Total:                                                                   9,261                  20,215                   20,215                      0
Line Agency Line Description                                                 Status Account NB      F/N     2013-SEPTEMBER           2012-SEPTEMBER
                                                                                     Type
 33 Total Revenue                                                                     TR      C      B                   10,809                  12,221
                                                                                    Variance:                                 0                       0

Closing Package Line Reclassification
Closing Package Line Description               Status F/N     2013-SEPTEMBER          2012-SEPTEMBER        Previously Reported       Line Item Changes
Imputed Financing Source                               F                      7                       8                       8                      0
Federal Securities Interest Revenue (exchange)         F                  1,387                   1,769                   1,769                      0
Non-Federal Earned Revenue                             N                  9,409                  10,448                  10,448                      0
Other Revenue (without reciprocals)                    F                      1                       0                       0                      0
Other Taxes and Receipts                               N                      5                      (4)                     (4)                     0
Total:                                                                  (10,809)                (12,221)                (12,221)                     0




                                                                             - 12 -
                                                             U.S. Department of the Treasury                                      11/15/2013 22:37:41
                                                               Financial Management Service
                                                          Governmentwide Financial Report System

                                             GF003G-Closing Package Line Reclassification Summary Report

Statement: INCOME STATEMENT                                               Fiscal Year: 2013                                    Period: SEPTEMBER
    Entity: 1602 - PENSION BENEFIT GUARANTY CORPORATIO                    Reported in: MILLIONS                          Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                               Status Account NB      F/N      2013-SEPTEMBER           2012-SEPTEMBER
                                                                                   Type
 34 Net position, beginning of year                                                 BN      C      B                   (37,184)                (29,190)
                                                                                  Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description             Status F/N     2013-SEPTEMBER          2012-SEPTEMBER         Previously Reported       Line Item Changes
Beginning Net Position                               B                (37,085)                (29,062)                 (29,062)                     0
Change in Accounting Principles - Federal            F                    (99)                   (128)                     (29)                   (99)
Total:                                                                 37,184                  29,190                   29,091                    (99)




                                                                           - 13 -
This page intentionally left blank.
  Audit of the Pension Benefit Guaranty

Corporation’s Financial Statements Closing

  Package for Fiscal Year 2013 and 2012




  Audit Report AUD-2014-4 / FA-11-93-3




              Section VI


     GF004F – Trading Partner
       Summary Note Report
This page intentionally left blank.
                                                             U.S.Department of the Treasury                                 11-15-2013 22:36:37
                                                             Financial Management Service
                                                         Governmentwide Financial Report System

                                                      GF004F - Trading Partner Summary Note Report

Statement: BALANCE SHEET                                          Fiscal Year: 2013                                Period: SEPTEMBER

Entity:    1602 - PENSION BENEFIT GUARANTY CORPORATION            Reported in: MILLIONS                     Decimal Point: ZERO
    Amounts presented as debits and credits()
    I = Inactive Line
Agency FS Status CP Line Description                              Account Type        NB              2013-SEPTEMBER        2012-SEPTEMBER
 BS              Federal Investments                              A                   D                         24,580                22,957
                                                                                 Variance:                             0                     0

Trading       Name                              Status 2013-SEPTEMBER      2012-SEPTEMBER             Previously Reported    Line item Changes
Partner
 2000 Department of the Treasury                                24,580                       22,957                22,957                    0
                                  Total                         24,580                       22,957                22,957                    0


Agency FS Status CP Line Description                              Account Type        NB              2013-SEPTEMBER        2012-SEPTEMBER
 BS              Interest Receivable                              A                   D                           135                   164
                                                                                 Variance:                             0                     0

Trading       Name                              Status 2013-SEPTEMBER      2012-SEPTEMBER             Previously Reported    Line item Changes
Partner
 2000 Department of the Treasury                                   135                         164                   164                     0
                                  Total                            135                         164                   164                     0




                                                                          -1-
                                                             U.S.Department of the Treasury                              11-15-2013 22:36:37
                                                             Financial Management Service
                                                         Governmentwide Financial Report System

                                                      GF004F - Trading Partner Summary Note Report

Statement: BALANCE SHEET                                          Fiscal Year: 2013                             Period: SEPTEMBER

Entity:    1602 - PENSION BENEFIT GUARANTY CORPORATION            Reported in: MILLIONS                  Decimal Point: ZERO
    Amounts presented as debits and credits()
    I = Inactive Line
Agency FS Status CP Line Description                              Account Type        NB           2013-SEPTEMBER        2012-SEPTEMBER
 BS              Benefit Program Contributions Payable            L                   C                         1                     1
                                                                                 Variance:                          0                     0

Trading         Name                            Status 2013-SEPTEMBER      2012-SEPTEMBER          Previously Reported    Line item Changes
Partner
 2400 Office of Personnel Management                                 1                        1                     1                     0
                                  Total                             (1)                      (1)                   (1)                    0




                                                                          -2-
                                                               U.S.Department of the Treasury                                   11-15-2013 22:36:37
                                                               Financial Management Service
                                                           Governmentwide Financial Report System

                                                       GF004F - Trading Partner Summary Note Report

Statement: STATEMENT OF NET COST                                    Fiscal Year: 2013                                 Period: SEPTEMBER

Entity:    1602 - PENSION BENEFIT GUARANTY CORPORATION              Reported in: MILLIONS                      Decimal Point: ZERO
    Amounts presented as debits and credits()
    I = Inactive Line
Agency FS Status CP Line Description                                Account Type        NB               2013-SEPTEMBER         2012-SEPTEMBER
 IS              Federal Securities Interest Revenue (exchange)     ER                  C                           1,387                  1,769
                                                                                   Variance:                               0                     0

Trading       Name                              Status 2013-SEPTEMBER        2012-SEPTEMBER              Previously Reported     Line item Changes
Partner
 2000 Department of the Treasury                                  1,387                        1,769                   1,769                     0
                                  Total                           (1,387)                      (1,769)                (1,769)                    0


Agency FS Status CP Line Description                                Account Type        NB               2013-SEPTEMBER         2012-SEPTEMBER
 IS              Other Revenue (without reciprocals)                ER                  C                             1                      0
                                                                                   Variance:                               0                     0

Trading        Name                             Status 2013-SEPTEMBER        2012-SEPTEMBER              Previously Reported     Line item Changes
Partner
 1800 United States Postal Service                                     1                            0                      0                     0
                                  Total                               (1)                           0                      0                     0




                                                                            -3-
                                                             U.S.Department of the Treasury                             11-15-2013 22:36:37
                                                             Financial Management Service
                                                         Governmentwide Financial Report System

                                                      GF004F - Trading Partner Summary Note Report

Statement: STATEMENT OF NET COST                                  Fiscal Year: 2013                            Period: SEPTEMBER

Entity:    1602 - PENSION BENEFIT GUARANTY CORPORATION            Reported in: MILLIONS                 Decimal Point: ZERO
    Amounts presented as debits and credits()
    I = Inactive Line
Agency FS Status CP Line Description                              Account Type        NB          2013-SEPTEMBER        2012-SEPTEMBER
 IS              Benefit Program Costs                            GC                  D                        25                    24
                                                                                 Variance:                         0                     0

Trading         Name                            Status 2013-SEPTEMBER      2012-SEPTEMBER         Previously Reported    Line item Changes
Partner
 2400 Office of Personnel Management                                18                       17                   17                     0
 9900 Treasury General Fund                                          7                        7                    7                     0
                                  Total                             25                       24                   24                     0

Agency FS Status CP Line Description                              Account Type        NB          2013-SEPTEMBER        2012-SEPTEMBER
 IS              Buy/Sell Costs                                   GC                  D                        7                     4
                                                                                 Variance:                         0                     0

Trading         Name                            Status 2013-SEPTEMBER      2012-SEPTEMBER         Previously Reported    Line item Changes
Partner
 1300 Department of Commerce                                         1                        1                    1                     0
 1400 Department of the Interior                                     1                        1                    1                     0
 1601 Department of Labor                                            1                        1                    1                     0
 2400 Office of Personnel Management                                 1                        0                    0                     0
 2800 Social Security Administration                                 1                        0                    0                     0
 4700 General Services Administration                                2                        1                    1                     0
                                  Total                              7                        4                    4                     0




                                                                          -4-
                                                              U.S.Department of the Treasury                             11-15-2013 22:36:37
                                                              Financial Management Service
                                                          Governmentwide Financial Report System

                                                       GF004F - Trading Partner Summary Note Report

Statement: STATEMENT OF NET COST                                   Fiscal Year: 2013                            Period: SEPTEMBER

Entity:    1602 - PENSION BENEFIT GUARANTY CORPORATION             Reported in: MILLIONS                 Decimal Point: ZERO
    Amounts presented as debits and credits()
    I = Inactive Line
Agency FS Status CP Line Description                               Account Type        NB          2013-SEPTEMBER        2012-SEPTEMBER
 IS              Federal Securities Interest Expense               GC                  D                       117                    6
                                                                                  Variance:                         0                     0

Trading       Name                              Status 2013-SEPTEMBER       2012-SEPTEMBER         Previously Reported    Line item Changes
Partner
 2000 Department of the Treasury                                    117                       6                     6                     0
                                  Total                             117                       6                     6                     0


Agency FS Status CP Line Description                               Account Type        NB          2013-SEPTEMBER        2012-SEPTEMBER
 IS              Imputed Costs                                     GC                  D                        7                     8
                                                                                  Variance:                         0                     0

Trading         Name                            Status 2013-SEPTEMBER       2012-SEPTEMBER         Previously Reported    Line item Changes
Partner
 2400 Office of Personnel Management                                  7                       8                     8                     0
                                  Total                               7                       8                     8                     0




                                                                           -5-
                                                             U.S.Department of the Treasury                              11-15-2013 22:36:37
                                                             Financial Management Service
                                                         Governmentwide Financial Report System

                                                      GF004F - Trading Partner Summary Note Report

Statement: STATEMENT OF CHANGES IN NET POSITION                   Fiscal Year: 2013                             Period: SEPTEMBER

Entity:    1602 - PENSION BENEFIT GUARANTY CORPORATION            Reported in: MILLIONS                  Decimal Point: ZERO
    Amounts presented as debits and credits()
    I = Inactive Line
Agency FS Status CP Line Description                              Account Type        NB           2013-SEPTEMBER        2012-SEPTEMBER
 IS              Imputed Financing Source                         F                   C                         7                     8
                                                                                 Variance:                          0                     0

Trading         Name                            Status 2013-SEPTEMBER      2012-SEPTEMBER          Previously Reported    Line item Changes
Partner
 2400 Office of Personnel Management                                 7                        8                     8                     0
                                  Total                             (7)                      (8)                   (8)                    0




                                                                          -6-
  Audit of the Pension Benefit Guaranty

Corporation’s Financial Statements Closing

  Package for Fiscal Year 2013 and 2012




  Audit Report AUD-2014-4 / FA-13-93-3




              Section VII




     GF006C – Financial Report
          (FR) Notes Report
This page intentionally left blank.
                                                                                                                                                                                       11/15/2013 22:23:35

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

     Note: 01            Federal Reserve Earnings, Subsequent Events, and Other Pertinent Information                                 Fiscal Year: 2013               Period: SEPTEMBER
     Entity: 1602        PENSION BENEFIT GUARANTY CORPORATION                                                                         Agency Notes:    AR - Note 17

  Status: Complete                            The accompanying notes are an integral part of these financial statements.           I = Inactive Line

Tab: Other Notes Info.

       Section: B             Section Name: Related Parties, External to the Reporting Entity for       No Data Flag: YES         Line Attributes: Dollars
                                            the Financial Report                                                                Rounding Method: Millions                      Decimal: Zero
Line Status Line Description          NB        2013 - SEPTEMBER             2012 - SEPTEMBER                 Previously Rptd    Line Item Changes
 1              Related party        Debit
                receivables
 2              Related party        Credit
                payables
 3              Related party        Credit
                operating revenue
 4              Related party net    Debit
                cost of operations
 5              Related party        Debit
                economic
                dependency
                transactions
 6              Investments in       Debit
                related parties




                                                                                                           -1-
                                                                                                                                                                                                11/15/2013 22:23:35

                                                                                    U.S. Department of the Treasury
                                                                                     Financial Management Service
                                                                                Governmentwide Financial Report System
                                                                                        GF006 - FR Notes Report

     Note: 01         Federal Reserve Earnings, Subsequent Events, and Other Pertinent Information                                    Fiscal Year: 2013                  Period: SEPTEMBER
    Entity: 1602      PENSION BENEFIT GUARANTY CORPORATION                                                                            Agency Notes:       AR - Note 17

 Status: Complete                        The accompanying notes are an integral part of these financial statements.                I = Inactive Line

Tab: Text Data
Line               Question                                                                                         Answer
1                  Describe any significant events or transactions that occurred after the date of the Balance      1). Management evaluated subsequent events through publication on November 15,
                   Sheet but before the issuance of agency¿s audited financial statements that have a material      2013, the date the financial statements were available to be issued. Events or
                   effect on the financial statements and, therefore, require adjustments or disclosure in the      transactions for either the single-employer or multiemployer program, occurring after
                   statements.                                                                                      September 30, 2013 and before the financial statements were available to be issued,
                                                                                                                    that provided additional evidence about conditions that existed at September 30, 2013
                                                                                                                    have been recognized in the financial statements.

                                                                                                                    For the fiscal year ended September 30, 2013, there were no nonrecognized
                                                                                                                    subsequent events or transactions to report for both the single-employer and
                                                                                                                    multiemployer programs that provided evidence about conditions that did not exist at
                                                                                                                    September 30, 2013, and which arose before the financial statements were available to
                                                                                                                    be issued.

2                  Describe any departures from U.S. Generally Accepted Accounting Procedures (GAAP).               2). There were no departures from GAAP for the end of fiscal year September 30, 2013.
3                  When applying the general rule of the Statements of Federal Financial Accounting Standards       3). There were no such accruals that need to be noted for the fiscal year September 30,
                   (SFFAS) No. 7, par.                                                                              2013.
                   48, describe the specific potential accruals that are not made and the practical and inherent
                   limitations affecting the
                   accrual of taxes and duties.
4                  Describe any change in accounting if a collecting entity adopts accounting standards that        4). There were no changes in accounting for the end of the fiscal year September 30,
                   embody a fuller                                                                                  2013.
                   application of accrual accounting concepts that differ from that prescribed by SFFAS No. 7,
                   par. 48.
5                  List all of the agency's components for which balances and activities are not combined into      5). There were no omissions of balances nor activity from PBGC's financial statements.
                   the agency's financial statements, and, therefore, are represented in the GFRS data.             All activity is represented in GFRS.
6                  List all of the agency's components for which balances and activities are combined into the      6). PBGC has two programs - The single-employer and the multiemployer program, in
                   agency's financial                                                                               which both are combined on the agency's financial statements and, therefore,
                   statements, and, therefore, are represented in the GFRS data.                                    represented in the GFRS data.
7                  Describe any additional significant accounting policies specific to the agency not included in   7). There is no additional information to report for the end of fiscal year September 30,
                   GFRS Module                                                                                      2013.
                   GF006 - FR Notes.
8                  Provide any other relevant information pertaining to the Federal Reserve Earnings.               8). N/A
9                  Describe the nature of the related party relationship and transactions pertaining to the         9). N/A
                   amount in the ,Other
                   Notes Info, tab, Related party receivables' line.
10                 Describe the nature of the related party relationship and transactions pertaining to the         10). N/A
                   amount in the "Other
                   Notes Info " tab," Related party payables" line.
11                 Describe the "Other Notes Info" tab, "Related party operating revenue" transactions along        11). N/A
                   with the related party
                   relationship and include transactions with zero or nominal balances, guarantees, and other
                   terms. Also, describe
                   changes in related party terms.


                                                                                                           -2-
                                                                                                                                                                               11/15/2013 22:23:35

                                                                                   U.S. Department of the Treasury
                                                                                    Financial Management Service
                                                                               Governmentwide Financial Report System
                                                                                       GF006 - FR Notes Report

     Note: 01       Federal Reserve Earnings, Subsequent Events, and Other Pertinent Information                               Fiscal Year: 2013               Period: SEPTEMBER
  Entity: 1602       PENSION BENEFIT GUARANTY CORPORATION                                                                      Agency Notes:    AR - Note 17

 Status: Complete                       The accompanying notes are an integral part of these financial statements.          I = Inactive Line

Tab: Text Data
Line             Question                                                                                        Answer
12               Describe the ''Other Notes Info" tab, "Related party net cost of operations" transactions       12). N/A
                 along with the related party relationship and include transactions with zero or nominal
                 balances, guarantees, and other terms. Also, describe changes in related party terms.
13               Describe related party economic dependency (that is, major customers, suppliers,                13). N/A
                 franchisors, franchisees, distributors, general agents, borrowers, and lenders) relationships
                 and transactions included in the "Other Notes Info" tab, "Related party economic
                 dependency transactions" section.
14               Provide details on the investments in related parties.                                          14). N/A
15               Provide details on related party leases.                                                        15). N/A
16               Describe control relationships with entities under common ownership, management control,        16). N/A
                 and conservatorship if the operating results or financial position could be significantly
                 impacted as a result of the relationship. Include control relationships with and without
                 transactions.
17               Provide any other useful information on related parties.                                        17). N/A




                                                                                                         -3-
                                                                                                                                                                                          11/15/2013 22:23:35

                                                                               U.S. Department of the Treasury
                                                                                Financial Management Service
                                                                           Governmentwide Financial Report System
                                                                                   GF006 - FR Notes Report

     Note: 02          Cash and Other Monetary Assets                                                                             Fiscal Year: 2013                  Period: SEPTEMBER
   Entity: 1602        PENSION BENEFIT GUARANTY CORPORATION                                                                       Agency Notes:         AR - MD&A Investment Activity & Note 3

  Status: Complete                      The accompanying notes are an integral part of these financial statements.             I = Inactive Line

Tab: Line Item Notes
Closing Package Line Description                                      NB    Account     2013 - SEPTEMBER       2012 - SEPTEMBER
                                                                              Type
Cash and Other Monetary Assets                                         D        A                     3,563                   3,540
                                                                           Variance:                      0                       0           Rounding Method: Millions              Decimal: Zero
Line Status Line Description          2013 - SEPTEMBER           2012 - SEPTEMBER               Previously Rptd           Line Item Changes
 3          Other cash - not                                 1                          1                            1                             0
            restricted
 4          Other cash - restricted                      3,444                      3,539                       3,524                           15
 7          Foreign currency                               118
            Total                                        3,563                       3,540                        3,525                            15




                                                                                                   -4-
                                                                                                                                                                                     11/15/2013 22:23:35

                                                                                      U.S. Department of the Treasury
                                                                                       Financial Management Service
                                                                                  Governmentwide Financial Report System
                                                                                          GF006 - FR Notes Report

     Note: 02             Cash and Other Monetary Assets                                                                          Fiscal Year: 2013             Period: SEPTEMBER
     Entity: 1602         PENSION BENEFIT GUARANTY CORPORATION                                                                    Agency Notes:    AR - MD&A Investment Activity & Note 3

  Status: Complete                             The accompanying notes are an integral part of these financial statements.      I = Inactive Line

Tab: Other Notes Info.

       Section: C              Section Name: Analysis of Cash Held Outside Treasury                    No Data Flag: YES      Line Attributes: Dollars
                                                                                                                            Rounding Method: Millions                       Decimal: Zero
Line Status Line Description           NB        2013 - SEPTEMBER             2012 - SEPTEMBER
 1              Total Cash Held       Credit
                Outside Treasury
                (reported to Treas
                central account
                thru the statement
                of Transac/ Stat of
                Accountbilit
 2                                    Credit
 3                                    Credit
 4                                    Credit
 5                                    Credit
 6                                    Credit
 7              Total cash reported    N/A
                in Note 2.




                                                                                                          -5-
                                                                                                                                                                                                    11/15/2013 22:23:35

                                                                                        U.S. Department of the Treasury
                                                                                         Financial Management Service
                                                                                    Governmentwide Financial Report System
                                                                                            GF006 - FR Notes Report

     Note: 02          Cash and Other Monetary Assets                                                                                    Fiscal Year: 2013                   Period: SEPTEMBER
    Entity: 1602       PENSION BENEFIT GUARANTY CORPORATION                                                                               Agency Notes:       AR - MD&A Investment Activity & Note 3

 Status: Complete                          The accompanying notes are an integral part of these financial statements.                 I = Inactive Line

Tab: Text Data
Line               Question                                                                                            Answer
1                  Describe the nature of the amount in the line item "other cash - not restricted."                   1). Relates to entity cash as defined in FASAB. This cash is derived from a cash
                                                                                                                       lockbox, whereas premiums are paid by sponsors of defined benefit plans.
3                  If the cash is restricted because it is non-entity, state the entity for which the cash is being    3). Restricted cash held by PBGC's trust fund is both for the single-employer and
                   held.                                                                                               multiemployer programs.
4                  Is the reported restricted cash being held in a financial institution? If yes, is it a Treasury     4). Yes. PBGC's restricted cash is held in a U.S. financial institution but the cash is not
                   designated bank?                                                                                    in a Treasury designated bank.
5                  If the agency has restricted cash, is the restricted cash invested? If yes, is it invested in the   5). PBGC's restricted cash is invested in both federal and non-federal securities, within
                   Bureau of the Fiscal Service (BFS)security, agency security, and/or non-Federal security?           PBGC's trust fund.
6                  Describe the nature of the amount in the line item "Foreign currency."                              6). Cash includes cash on hand and demand deposits. Cash equivalents are
                                                                                                                       investments with original maturities of one business day and highly liquid investments
                                                                                                                       that are readily convertible into cash within one business day. Also included is cash-
                                                                                                                       foreign currency (F/X exchange). Foreign currency is any currency not normally used in
                                                                                                                       a particular region or country (i.e., non-United States currency).
7                  Disclose any restrictions on the use (for example, by law, regulation, or agreement) of the         7). N/A
                   amount in the line item "Foreign Currency."
8                  Disclose the method of exchange rate used on the financial statement date (Treasury                 8). N/A
                   exchange rate or prevailing market rate).
9                  Provide additional details describibg the nature and cause of reconciling items reported in         9). Cash includes cash on hand and demand deposits. Cash equivalents are
                   Section C, lines 2 through 6.                                                                       investments with original maturities of one business day and highly liquid investments
                                                                                                                       that are readily convertible into cash within one business day.
10                 Provide any other relevant information pertaining to this note. At a minimum, describe briefly      10). N/A
                   the significant accounting policies pertaining to this note.




                                                                                                                -6-
                                                                                                                                                                                               11/15/2013 22:23:35

                                                                                  U.S. Department of the Treasury
                                                                                   Financial Management Service
                                                                              Governmentwide Financial Report System
                                                                                      GF006 - FR Notes Report

     Note: 03           Accounts and Taxes Receivable                                                                                 Fiscal Year: 2013                 Period: SEPTEMBER
   Entity: 1602         PENSION BENEFIT GUARANTY CORPORATION                                                                          Agency Notes:        AR - Note 7 & APM

  Status: Complete                         The accompanying notes are an integral part of these financial statements.              I = Inactive Line

Tab: Line Item Notes
Closing Package Line Description                                         NB    Account     2013 - SEPTEMBER       2012 - SEPTEMBER
                                                                                 Type
Accounts and Taxes Receivable                                             D        A                     1,809                    2,568
                                                                              Variance:                      0                        0           Rounding Method: Millions               Decimal: Zero
Line Status Line Description            2013 - SEPTEMBER            2012 - SEPTEMBER               Previously Rptd            Line Item Changes
 1           Accounts receivable,                           2,132                      2,855                       2,855                               0
             gross
 2           Related interest                                259                          227                           227                            0
             receivable - accounts
             receivable
 3           Penalties, fines, and                              3                           3                             3                            0
             administrative fees
             receivable
 4           Less: allowance for                            -332                        -293                         -293                              0
             loss on accounts
             receivable
 5           Less: allowance for                            -252                        -223                         -223                              0
             loss on interest
             receivable
 6           Less: allowance for                              -1                           -1                            -1                            0
             loss on penalties,
             fines, and admin. fees
             rec.
             Total                                          1,809                       2,568                        2,568                             0
Threshold

 Line Description                                              Question                                                            Answer
 Line Item Notes - Accounts receivable, gross (2013 -          Please provide explanations for any amounts that have               The change in this account is mainly due to decreases in receivables
 SEPTEMBER)                                                    changed by 10% or more and or greater than 500,000 between          stemming from the sale of securities and decreases in premium income
                                                               the current fiscal year and prior fiscal year. (Unaudited)          receivable.
 Line Item Notes - Related interest receivable - accounts      Please provide explanations for any amounts that have               This change is mainly attributable to increases in accrued interest on loans
 receivable (2013 - SEPTEMBER)                                 changed by 10% or more and or greater than 500,000 between          receivable for financial assistance provided to multiemployer plans.
                                                               the current fiscal year and prior fiscal year. (Unaudited)




                                                                                                      -7-
                                                                                                                                                                                                11/15/2013 22:23:35

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

    Note: 03          Accounts and Taxes Receivable                                                                                   Fiscal Year: 2013                  Period: SEPTEMBER
    Entity: 1602      PENSION BENEFIT GUARANTY CORPORATION                                                                            Agency Notes:       AR - Note 7 & APM

 Status: Complete                        The accompanying notes are an integral part of these financial statements.                I = Inactive Line

Tab: Text Data
Line               Question                                                                                         Answer
1                  Describe the method(s) used to calculate the allowances on accounts receivable.                  1). PBGC provides financial assistance to multiemployer defined benefit pension plans
                                                                                                                    in the form of loans. Since these loans are not generally repaid, an allowance is set up
                                                                                                                    to the extent that repayment of these loans is not expected. Receivables not expected
                                                                                                                    to be collected within one year, and which do not bear interest, or which carry an
                                                                                                                    interest rate not appropriate for the receivable at the date of the transaction, shall be
                                                                                                                    discounted from the expected collection date(s) to the reporting date. The rate used for
                                                                                                                    valuation purposes will normally be at least equal to the rate at which the debtor can
                                                                                                                    obtain financing of a similar nature from other sources at the transaction date.
                                                                                                                    Discounts shall be accreted by the interest method.
3                  Explain any material difference between the balance of accounts receivable and the               3). For the period ended September 30, 2013, there were no material differences
                   amounts reported on the Treasury Report on Receivables.                                          between accounts receivable and the Treasury Report on receivables.
4                  Provide any other relevant information pertaining to this note. At a minimum, describe briefly   4). Under the accrual basis of accounting, receivables represent amounts due from
                   the significant accounting policies pertainnig to this note.                                     others. They are accounted for as assets from the time that the events giving rise to
                                                                                                                    such claims occur until the time they are collected.

                                                                                                                    Receivables shall be reduced by an allowance risk for estimated uncollectible amounts.
                                                                                                                    These estimated uncollectible amounts, and PBGC's policies and procedures for
                                                                                                                    determining the estimates shall be disclosed. Such estimates shall be based on past
                                                                                                                    experience, present market conditions, financial condition of the debtor, and analysis of
                                                                                                                    outstanding balances. Allowances shall also be estimated for uncollectible interest and
                                                                                                                    penalties accrued on delinquent payments of principal and interest.




                                                                                                           -8-
                                                                                                                                                                                              11/15/2013 22:23:35

                                                                                   U.S. Department of the Treasury
                                                                                    Financial Management Service
                                                                               Governmentwide Financial Report System
                                                                                       GF006 - FR Notes Report

      Note: 04A         Direct Loans Receivable and Mortgage Backed Securities                                                       Fiscal Year: 2013                 Period: SEPTEMBER
   Entity: 1602         PENSION BENEFIT GUARANTY CORPORATION                                                                         Agency Notes:      AR - MD&A Part IV.B and Note 7

  Status: Complete                        The accompanying notes are an integral part of these financial statements.              I = Inactive Line

Tab: Line Item Notes
Closing Package Line Description                                          NB    Account      2013 - SEPTEMBER      2012 - SEPTEMBER
                                                                                  Type
Loans Receivable and mortgage backed securities                            D        A                         0                     0
                                                                               Variance:                      0                     0          Rounding Method: Millions                 Decimal: Zero
Line Status Line Description             CY Face Value of loans        CY Long-term cost of       CY Net loans receivable    PY Face Value of loans        PY Long-term cost of          PY Net loans receivable
                                              outstanding             loans outstanding                                           outstanding             loans outstanding
 17
 18
 19
 20
 21
 22          All other loans                                   783                      -783                                                     695                           -695
             receivable
             Total                                             783                         -783                                                   695                          -695
Threshold

 Line Description                                               Question                                                           Answer
 Line Item Notes - All other loans receivable (CY Face Value    Please provide explanations for any amounts that have             The change is attributable to an increase in requests for financial assistance
 of loans outstanding)                                          changed by 10% or more and or greater than 500,000 between        from multiemployer plan sponsors.
                                                                the current fiscal year and prior fiscal year. (Unaudited)




                                                                                                        -9-
                                                                                                                                                                                                      11/15/2013 22:23:35

                                                                                       U.S. Department of the Treasury
                                                                                        Financial Management Service
                                                                                   Governmentwide Financial Report System
                                                                                           GF006 - FR Notes Report

     Note: 04A           Direct Loans Receivable and Mortgage Backed Securities                                                              Fiscal Year: 2013                 Period: SEPTEMBER
     Entity: 1602        PENSION BENEFIT GUARANTY CORPORATION                                                                                Agency Notes:        AR - MD&A Part IV.B and Note 7

  Status: Complete                             The accompanying notes are an integral part of these financial statements.                 I = Inactive Line

Tab: Other Notes Info.

       Section: A                Section Name: Subsidy Expense/(Income)                                                                 Line Attributes: Dollars
                                                                                                                                      Rounding Method: Millions                             Decimal: Zero
Line Status Line Description            NB       2013 - SEPTEMBER             2012 - SEPTEMBER                   Previously Rptd         Line Item Changes
17             Multiemployer           Debit                          89                           95                          95                             0
               Financial
               Assistance -
               Revolving
18                                     Debit
19                                     Debit
20                                     Debit
21                                     Debit
22             All other loans         Debit
               receivable
23             Total                   N/A                            89                           95                          95                             0
       Section: B                Section Name: Foreclosed Assets - Balances (SFFAS No. 3, par.           No Data Flag: YES              Line Attributes: Dollars
                                               91)                                                                                    Rounding Method: Millions                             Decimal: Zero
Line Status Line Description            NB       2013 - SEPTEMBER             2012 - SEPTEMBER                   Previously Rptd         Line Item Changes
 1             Balances for            Debit
               property held Pre-
               1992
 2             Balances for            Debit
               property held Post-
               1991




Tab: Text Data
 Line                Question                                                                                              Answer
 1                   Provide a broad description of foreclosed property.                                                   1). N/A
 2                   Provide any other relevant information pertaining to this note. At a minimum, describe briefly        2). PBGC provides financial assistance to multiemployer defined benefit pension plans
                     the significant accounting policies pertaining to this note.                                          in the form of loans. Since these loans are not generally repaid, an allowance is set up
                                                                                                                           to the extent that repayment of these loans is not expected.




                                                                                                            - 10 -
                                                                                                                                                                                 11/15/2013 22:23:35

                                                                                 U.S. Department of the Treasury
                                                                                  Financial Management Service
                                                                             Governmentwide Financial Report System
                                                                                     GF006 - FR Notes Report

      Note: 04B         Loan Guarantees                                                                                          Fiscal Year: 2013               Period: SEPTEMBER
   Entity: 1602         PENSION BENEFIT GUARANTY CORPORATION                                                                     Agency Notes:      N/A

  Status: Complete                        The accompanying notes are an integral part of these financial statements.          I = Inactive Line

Tab: Line Item Notes
Closing Package Line Description                                        NB    Account     2013 - SEPTEMBER       2012 - SEPTEMBER
                                                                                Type
Loan Guarantee Liabilities                                               C        L                          0                  0
                                                                             Variance:                       0                  0            Rounding Method: Millions       Decimal: Zero
Line Status Line Description         2013 - SEPTEMBER             2012 - SEPTEMBER                Previously Rptd        Line Item Changes
 13
 14
 15
 16
 17
 18          All other loan
             guarantee liabilities
             Total




                                                                                                    - 11 -
                                                                                                                                                                                      11/15/2013 22:23:35

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

     Note: 04B         Loan Guarantees                                                                                                  Fiscal Year: 2013          Period: SEPTEMBER
  Entity: 1602         PENSION BENEFIT GUARANTY CORPORATION                                                                             Agency Notes:    N/A

  Status: Complete                        The accompanying notes are an integral part of these financial statements.                 I = Inactive Line

Tab: Other Notes Info.

      Section: A            Section Name: Other Related Information                                     No Data Flag: YES           Line Attributes: Dollars
                                                                                                                                  Rounding Method: Millions                  Decimal: Zero
Line Status Line Description        NB          CY Face Value of           CY Amount Guaranteed         CY Subsidy Expense D     PY Face Value of Loans PY Amount Guaranteed by   PY Subsidy Expense D
                                            Loans Outstanding D             by the Government D                                         Outstanding D        the Government D
13                                  N/A
14                                  N/A
15                                  N/A
16                                  N/A
17                                  N/A
18          All other loans         N/A
            guarantee liabilities
19          Total:                  N/A
Tab: Text Data                        No Data Flag: YES
 Line              Question                                                                                             Answer
 1                 Provide any other relevant information pertaining to this note. At a minimum, describe briefly
                   the significant accounting policies pertaining to this note.




                                                                                                           - 12 -
                                                                                                                                                                                11/15/2013 22:23:35

                                                                                U.S. Department of the Treasury
                                                                                 Financial Management Service
                                                                            Governmentwide Financial Report System
                                                                                    GF006 - FR Notes Report

     Note: 05          Inventories and Related Property                                                                         Fiscal Year: 2013               Period: SEPTEMBER
   Entity: 1602        PENSION BENEFIT GUARANTY CORPORATION                                                                     Agency Notes:      N/A

  Status: Complete                       The accompanying notes are an integral part of these financial statements.          I = Inactive Line

Tab: Line Item Notes
Closing Package Line Description                                       NB    Account     2013 - SEPTEMBER       2012 - SEPTEMBER
                                                                               Type
Inventory and Related Property                                          D        A                          0                  0
                                                                            Variance:                       0                  0            Rounding Method: Millions       Decimal: Zero
Line Status Line Description          2013 - SEPTEMBER           2012 - SEPTEMBER                Previously Rptd        Line Item Changes
 1          Gross Inventory -
            balance beginning of
            year
 2          Prior-period
            adjustment (not
            restated)
 3          Capitalized
            acquisitions from the
            public
 4          Capitalized
            acquisitions from
            Government agencies
 5          Inventory sold or used
 6          Total allowance for
            inventories and related
            property
            Total




                                                                                                   - 13 -
                                                                                                                                                                               11/15/2013 22:23:35

                                                                                        U.S. Department of the Treasury
                                                                                         Financial Management Service
                                                                                    Governmentwide Financial Report System
                                                                                            GF006 - FR Notes Report

     Note: 05             Inventories and Related Property                                                                             Fiscal Year: 2013      Period: SEPTEMBER
     Entity: 1602         PENSION BENEFIT GUARANTY CORPORATION                                                                         Agency Notes:    N/A

  Status: Complete                               The accompanying notes are an integral part of these financial statements.         I = Inactive Line

Tab: Other Notes Info.

       Section: A               Section Name: Inventory Yearend Balances by Category Type                No Data Flag: YES         Line Attributes: Dollars
                                                                                                                                 Rounding Method: Millions             Decimal: Zero
Line Status Line Description             NB        2013 - SEPTEMBER             2012 - SEPTEMBER               Previously Rptd    Line Item Changes
 1              Inventory               Debit
                purchased for sale
 2              Inventory held in       Debit
                reserve for future
                sale to the public
 3              Inventory and           Debit
                operating materials
                and supplies held
                for repair
 4              Inventory - excess,     Debit
                obsolete, and
                unserviceable
 5              Operating materials     Debit
                and supplies held
                for use
 6              Operating materials     Debit
                and supplies held
                in reserve for future
                use
 7              Operating materials     Debit
                and supplies
                excess, obsolete,
                and unserviceable
 8              Stockpile materials     Debit
 9              Stockpile materials     Debit
                held for sale
10              Forfeited property      Debit
11              Other related           Debit
                property
12              Total allowance for     Credit
                inventories and
                related property
13              Total inventories        N/A
                and related
                property, net




                                                                                                           - 14 -
                                                                                                                                                                               11/15/2013 22:23:35

                                                                                    U.S. Department of the Treasury
                                                                                     Financial Management Service
                                                                                Governmentwide Financial Report System
                                                                                        GF006 - FR Notes Report

     Note: 05            Inventories and Related Property                                                                          Fiscal Year: 2013         Period: SEPTEMBER
     Entity: 1602        PENSION BENEFIT GUARANTY CORPORATION                                                                      Agency Notes:    N/A

  Status: Complete                           The accompanying notes are an integral part of these financial statements.         I = Inactive Line


       Section: B              Section Name: Capitalized Acquitions From Government Agencies         No Data Flag: YES         Line Attributes: Dollars
                                             by Trading Patrner                                                              Rounding Method: Millions                Decimal: Zero
Line Status Line Description          NB       2013 - SEPTEMBER             2012 - SEPTEMBER               Previously Rptd    Line Item Changes
 1              General Services     Debit
                Administration
 2              Department of        Debit
                Defense
 3              Department of        Debit
                Justice
 4              National             Debit
                Aeronautics and
                Space
                Administration
 5              All other            Debit
                departments
 6              Total Capitalized     N/A
                Assets from
                Federal Agencies
       Section: C              Section Name: Other Information - Dollar Value                        No Data Flag: YES         Line Attributes: Dollars
                                                                                                                             Rounding Method: User-Defined            Decimal: User-Defined
Line Status Line Description          NB       2013 - SEPTEMBER             2012 - SEPTEMBER               Previously Rptd    Line Item Changes
 1              Seized property      Debit
 2              Forfeited property   Debit
 3              Goods held under     Debit
                price support and
                stabilization
                programs




                                                                                                       - 15 -
                                                                                                                                                                               11/15/2013 22:23:35

                                                                                       U.S. Department of the Treasury
                                                                                        Financial Management Service
                                                                                   Governmentwide Financial Report System
                                                                                           GF006 - FR Notes Report

     Note: 05            Inventories and Related Property                                                                               Fiscal Year: 2013      Period: SEPTEMBER
     Entity: 1602         PENSION BENEFIT GUARANTY CORPORATION                                                                          Agency Notes:    N/A

  Status: Complete                          The accompanying notes are an integral part of these financial statements.               I = Inactive Line


       Section: D              Section Name: Other Information - Number of Items/Volume                  No Data Flag: YES          Line Attributes: Units


Line Status Line Description          NB      2013 - SEPTEMBER                2012 - SEPTEMBER                   Previously Rptd    Line Item Changes
 1              Seized property      N/A
 2              Forfeited property   N/A
 3              Goods held under     N/A
                price support and
                stabilization
                programs



Tab: Text Data                          No Data Flag: YES
 Line                Question                                                                                              Answer
 1                   Method used to calculate allowance for each category of inventory.
 2                   Significant accounting principles and methods of applying those principles.
 3                   Provide any other relevant information pertaining to this note. At a minimum, describe briefly
                     the significant accounting policies pertaining to this note.




                                                                                                            - 16 -
                                                                                                                                                                                         11/15/2013 22:23:35

                                                                                U.S. Department of the Treasury
                                                                                 Financial Management Service
                                                                            Governmentwide Financial Report System
                                                                                    GF006 - FR Notes Report

     Note: 06          Property, Plant, and Equipment                                                                            Fiscal Year: 2013                 Period: SEPTEMBER
   Entity: 1602        PENSION BENEFIT GUARANTY CORPORATION                                                                      Agency Notes:        AR - Note 2 Depreciation and Amortization

  Status: Complete                       The accompanying notes are an integral part of these financial statements.           I = Inactive Line

Tab: Line Item Notes
Closing Package Line Description                                       NB    Account     2013 - SEPTEMBER        2012 - SEPTEMBER
                                                                               Type
Property, Plant and Equipment                                           D        A                          50                 42
                                                                            Variance:                        0                  0             Rounding Method: Millions             Decimal: Zero
Line Status Line Description                     CY PP&E                      CY Accum.             CY Net PP&E                     PY PP&E                       PY Accum.               PY Net PP&E
                                                                   Depr./Amortization                                                                  Depr./Amortization
 1          PP&E - balance                                 130                        88                               42                      110                        77                             33
            beginning of year
 2          Prior-period
            adjustments (not
            restated)
 3          Capitalized                                     19                                                         19                       20                                                       20
            acquisitions from the
            public
 4          Capitalized
            acquisitions from
            Government agencies
 5          Deletions from the
            Balance Sheet
 6          Revaluations
 7          Stewardship
            reclassifications
 8          Depreciation/amortizati                                                     11                            -11                                                    11                         -11
            on
            Total                                           149                          99                            50                       130                          88                          42




                                                                                                   - 17 -
                                                                                                                                                                                                  11/15/2013 22:23:35

                                                                                        U.S. Department of the Treasury
                                                                                         Financial Management Service
                                                                                    Governmentwide Financial Report System
                                                                                            GF006 - FR Notes Report

     Note: 06              Property, Plant, and Equipment                                                                                Fiscal Year: 2013                 Period: SEPTEMBER
     Entity: 1602          PENSION BENEFIT GUARANTY CORPORATION                                                                          Agency Notes:        AR - Note 2 Depreciation and Amortization

  Status: Complete                              The accompanying notes are an integral part of these financial statements.            I = Inactive Line

Tab: Other Notes Info.

       Section: A                Section Name: Cost of PP&E for each category                                                        Line Attributes: Dollars
                                                                                                                                   Rounding Method: Millions                            Decimal: Zero
Line Status Line Description             NB       2013 - SEPTEMBER             2012 - SEPTEMBER                  Previously Rptd    Line Item Changes
 1              Buildings,              Debit
                structures, and
                facilities (including
                improvement to
                land)
 2              Furniture, fixtures,    Debit                          26                          23                         23                          0
                and equipmen
                (including
                aircraf,ships,
                vessels, small
                boats, and
                vehicles)
 3              Construction in         Debit
                progress
 4              Land and Land           Debit
                Rights
 5              Internal use            Debit                         123                         107                        107                          0
                software
 6              Assets under            Debit
                capital lease
 7              Leasehold               Debit
                improvements
 8              Other property,         Debit
                plant and
                equipment
 9              Total property,         N/A                           149                         130                        130                          0
                plant and
                equipment
Threshold
 Line Description                                                   Question                                                          Answer
 Other Notes Info - Furniture, fixtures, and equipmen               Please provide explanations for any amounts that have             This change is attributable to an increase in the purchase of capitalizable
 (including aircraf,ships, vessels, small boats, and vehicles)      changed by 10% or more and or greater than 500,000                equipment during the fiscal year.
 (2013 - SEPTEMBER)                                                 between the current fiscal year and prior fiscal year.
                                                                    (Unaudited)
 Other Notes Info - Internal use software (2013 -                   Please provide explanations for any amounts that have             This change is attributable to an increase in the development of internal use
 SEPTEMBER)                                                         changed by 10% or more and or greater than 500,000                software placed into production during the fiscal year.
                                                                    between the current fiscal year and prior fiscal year.
                                                                    (Unaudited)



                                                                                                             - 18 -
                                                                                                                                                                                                  11/15/2013 22:23:35

                                                                                        U.S. Department of the Treasury
                                                                                         Financial Management Service
                                                                                    Governmentwide Financial Report System
                                                                                            GF006 - FR Notes Report

     Note: 06             Property, Plant, and Equipment                                                                                  Fiscal Year: 2013                 Period: SEPTEMBER
     Entity: 1602         PENSION BENEFIT GUARANTY CORPORATION                                                                            Agency Notes:        AR - Note 2 Depreciation and Amortization

  Status: Complete                               The accompanying notes are an integral part of these financial statements.            I = Inactive Line


       Section: B               Section Name: Accumulated Depreciation/Amortization                                                   Line Attributes: Dollars
                                                                                                                                    Rounding Method: Millions                           Decimal: Zero
Line Status Line Description             NB        2013 - SEPTEMBER             2012 - SEPTEMBER               Previously Rptd       Line Item Changes
 1              Buildings,              Credit
                structures, and
                facilities (including
                improvements to
                land)
 2              Furniture, fixtures,    Credit                          20                         18                          18                          0
                and equipment
                (including aircraft,
                ships, vessels,
                small boats, and
                vehicles)
 3              Internal use            Credit                          79                         70                          70                          0
                software
 4              Assets under            Credit
                capital lease
 5              Leasehold               Credit
                improvements
 6              Other property,         Credit
                plant, and
                equipment
 7              Total accumulated        N/A                           -99                        -88                         -88                          0
                depreciation/amorti
                zation
       Section: C               Section Name: Intragovernmental Capitalized acquisition amounts          No Data Flag: YES            Line Attributes: Dollars
                                                                                                                                    Rounding Method: Millions                           Decimal: Zero
Line Status Line Description             NB        2013 - SEPTEMBER             2012 - SEPTEMBER               Previously Rptd       Line Item Changes
 1              General Services        Debit
                Administration
 2              Department of           Debit
                Defense
 3              Department of the       Debit
                Interior
 4              Department of           Debit
                Justice
 5              National                Debit
                Aeronautics and
                Space
                Administration



                                                                                                           - 19 -
                                                                                                                                                                                                    11/15/2013 22:23:35

                                                                                      U.S. Department of the Treasury
                                                                                       Financial Management Service
                                                                                  Governmentwide Financial Report System
                                                                                          GF006 - FR Notes Report

     Note: 06            Property, Plant, and Equipment                                                                                    Fiscal Year: 2013                 Period: SEPTEMBER
     Entity: 1602         PENSION BENEFIT GUARANTY CORPORATION                                                                             Agency Notes:       AR - Note 2 Depreciation and Amortization

  Status: Complete                             The accompanying notes are an integral part of these financial statements.               I = Inactive Line


       Section: C              Section Name: Intragovernmental Capitalized acquisition amounts          No Data Flag: YES             Line Attributes: Dollars
                                                                                                                                    Rounding Method: Millions                             Decimal: Zero
Line Status Line Description           NB        2013 - SEPTEMBER             2012 - SEPTEMBER                 Previously Rptd         Line Item Changes
 6              All other             Debit
                departments
 7              Total capitalized      N/A
                assets from
                Federal agencies




       Section: D              Section Name: Gain/Loss on Sale/Disposition                              No Data Flag: YES             Line Attributes: Dollars
                                                                                                                                    Rounding Method: User-Defined                         Decimal: User-Defined
Line Status Line Description           NB        2013 - SEPTEMBER             2012 - SEPTEMBER                 Previously Rptd         Line Item Changes
 1              Gain/loss on          Credit
                sale/disposition of
                property, plant and
                equipment




Tab: Text Data
 Line                Question                                                                                            Answer
 1                   Provide the physical quantity information by category for multiuse heritage assets that are         1). N/A
                     included in the "Line Item Notes" tab of this note (SFFAS No. 29, par 25).
 2                   Provide any other relevant information pertaining to this note and any material changes from        2). PBGC calculates depreciation on the straight-line basis over estimated useful lives
                     the prior fiscal years' depreciation methods and capitalization thresholds. In addition,            of 5 years for equipment and 10 years for furniture and fixtures. PBGC calculates
                     describe briefly the significant accounting policies pertaining to this note.                       amortization for capitalized software, which includes certain costs incurred for
                                                                                                                         purchasing and developing software for internal use, on the straight-line basis over
                                                                                                                         estimated useful lives not to exceed 5 years, commencing on the date that the
                                                                                                                         Corporation determines that the internal-use software is implemented. Routine
                                                                                                                         maintenance and leasehold improvements (the amounts of which are not material) are
                                                                                                                         charged to operations as incurred. Capitalization of software cost occurs during the
                                                                                                                         development stage and costs incurred during the preliminary project and post-
                                                                                                                         implementation stages are expensed as incurred.




                                                                                                           - 20 -
                                                                                                                                                                                             11/15/2013 22:23:35

                                                                                   U.S. Department of the Treasury
                                                                                    Financial Management Service
                                                                               Governmentwide Financial Report System
                                                                                       GF006 - FR Notes Report

     Note: 07             Debt and Equity Securities                                                                                   Fiscal Year: 2013                 Period: SEPTEMBER
   Entity: 1602           PENSION BENEFIT GUARANTY CORPORATION                                                                         Agency Notes:        AR - MD&A Section VII, Note 3 & APM

  Status: Complete                          The accompanying notes are an integral part of these financial statements.              I = Inactive Line

Tab: Line Item Notes
Closing Package Line Description                                          NB    Account     2013 - SEPTEMBER       2012 - SEPTEMBER
                                                                                  Type
Debt and Equity Securities                                                 D        A                    54,689                   52,797
                                                                               Variance:                      0                        0           Rounding Method: Millions            Decimal: Zero
Line Status Line Description              2013 - SEPTEMBER           2012 - SEPTEMBER               Previously Rptd            Line Item Changes
 1              Fixed/Debt Securities                      10,138                       9,108                       9,123                           -15
                (FASB ASC 320-10-
                50-1 and 320-10-50-
                9): Non-U.S.
                Government Securities
 2              Fixed/Debt Securities                          53                          442                           442                            0
                (FASB ASC 320-10-
                50-1 and 320-10-50-
                9): Commercial
                Securities
 3              Fixed/Debt Securities                        2,999                      3,508                       3,508                               0
                (FASB ASC 320-10-
                50-1 and 320-10-50-
                9): Mortgage/asset
                backed Securities
 4              Fixed/Debt Securities                      10,182                      10,872                      10,872                               0
                (FASB ASC 320-10-
                50-1 and 320-10-50-
                9):Corporate and other
                bonds
 5              All other Fixed                              1,743                      1,389                            600                        789
                Income/Debt Securities
                (FASB ASC 320-10-
                50-1 and 320-10-50-
                9) All:Other fixed/debt
                securities
 6              Equity Securities                            2,656                      2,327                       2,327                               0
                (FASB ASC 320-10-
                50-1 and 320-10-50-
                9): Common Stocks
 7              Equity Securities                          18,129                      18,376                      19,532                       -1,156
                (FASB ASC 320-10-
                50-1 and 320-10-50-
                9): Unit Trusts
 8              Equity Securities                            2,760                      2,099                       2,099                               0
                (FASB ASC 320-10-
                50-1 and 320-10-50-
                9): All Other Equity



                                                                                                      - 21 -
                                                                                                                                                                                             11/15/2013 22:23:35

                                                                                   U.S. Department of the Treasury
                                                                                    Financial Management Service
                                                                               Governmentwide Financial Report System
                                                                                       GF006 - FR Notes Report

     Note: 07             Debt and Equity Securities                                                                                 Fiscal Year: 2013                Period: SEPTEMBER
   Entity: 1602           PENSION BENEFIT GUARANTY CORPORATION                                                                       Agency Notes:      AR - MD&A Section VII, Note 3 & APM

  Status: Complete                          The accompanying notes are an integral part of these financial statements.            I = Inactive Line


Line Status Line Description             2013 - SEPTEMBER            2012 - SEPTEMBER               Previously Rptd          Line Item Changes
             Securities
 9           Other                                           6,029                      4,676                       4,309                        367
             Total                                          54,689                     52,797                      52,812                        -15
Threshold

 Line Description                                               Question                                                           Answer
 Line Item Notes - Fixed/Debt Securities (FASB ASC 320-10-      Please provide explanations for any amounts that have             The Board adopted a new investment policy in May 2011. The objective is
 50-1 and 320-10-50-9): Commercial Securities (2013 -           changed by 10% or more and or greater than 500,000 between        to maximize total return within a prudent risk framework that incorporates
 SEPTEMBER)                                                     the current fiscal year and prior fiscal year. (Unaudited)        PBGC's fixed obligations and asset composition of potential trusteed plans.
                                                                                                                                  The investment policy establishes a 30 percent target asset allocation for
                                                                                                                                  equities and other non-fixed income assets, and a 70 percent asset
                                                                                                                                  allocation for fixed income. Investment activity is dependent upon
                                                                                                                                  investment policy. Other changes are due to the decrease in commercial
                                                                                                                                  paper and the related market fluctuations during the fiscal year.
 Line Item Notes - Fixed/Debt Securities (FASB ASC 320-10-      Please provide explanations for any amounts that have             The Board adopted a new investment policy in May 2011. The objective is
 50-1 and 320-10-50-9): Mortgage/asset backed Securities        changed by 10% or more and or greater than 500,000 between        to maximize total return within a prudent risk framework that incorporates
 (2013 - SEPTEMBER)                                             the current fiscal year and prior fiscal year. (Unaudited)        PBGC's fixed obligations and asset composition of potential trusteed plans.
                                                                                                                                  The investment policy establishes a 30 percent target asset allocation for
                                                                                                                                  equities and other non-fixed income assets, and a 70 percent asset
                                                                                                                                  allocation for fixed income. Investment activity is dependent upon
                                                                                                                                  investment policy. Other changes are due to the market fluctuations during
                                                                                                                                  the fiscal year of mortgage backed securities.
 Line Item Notes - All other Fixed Income/Debt Securities       Please provide explanations for any amounts that have             The Board adopted a new investment policy in May 2011. The objective is
 (FASB ASC 320-10-50-1 and 320-10-50-9) All:Other               changed by 10% or more and or greater than 500,000 between        to maximize total return within a prudent risk framework that incorporates
 fixed/debt securities (2013 - SEPTEMBER)                       the current fiscal year and prior fiscal year. (Unaudited)        PBGC's fixed obligations and asset composition of potential trusteed plans.
                                                                                                                                  The investment policy establishes a 30 percent target asset allocation for
                                                                                                                                  equities and other non-fixed income assets, and a 70 percent asset
                                                                                                                                  allocation for fixed income. Investment activity is dependent on investment
                                                                                                                                  policy. Other changes are due to the increase in the purchase of pooled
                                                                                                                                  fund-fixed income investments and the related market fluctuations during
                                                                                                                                  the fscal year.
                                                                                                                                  Additionally, as of 09/30/2012, a $789 million pool fund fixed investment was
                                                                                                                                  recorded as a pool fund equity investment on the Statements of Financial
                                                                                                                                  Position. In FY 2013, PBGC reclassified the $789 million from the equity
                                                                                                                                  security to fixed securities, which resulted in increase of $789 million in
                                                                                                                                  Fixed maturity securities and a $789 million decrease in Equity securities.
                                                                                                                                  This reclassification has no impact in the total investment or net position
                                                                                                                                  reported on FY 2012 Statements of Financial Position.




                                                                                                      - 22 -
                                                                                                                                                                                     11/15/2013 22:23:35

                                                                               U.S. Department of the Treasury
                                                                                Financial Management Service
                                                                           Governmentwide Financial Report System
                                                                                   GF006 - FR Notes Report

   Note: 07           Debt and Equity Securities                                                                            Fiscal Year: 2013                 Period: SEPTEMBER
  Entity: 1602        PENSION BENEFIT GUARANTY CORPORATION                                                                  Agency Notes:      AR - MD&A Section VII, Note 3 & APM

 Status: Complete                       The accompanying notes are an integral part of these financial statements.       I = Inactive Line



Threshold

Line Description                                            Question                                                      Answer
Line Item Notes - Equity Securities (FASB ASC 320-10-50-    Please provide explanations for any amounts that have        The Board adopted a new investment policy in May 2011. The objective is
1 and 320-10-50-9): Common Stocks (2013 -                   changed by 10% or more and or greater than 500,000 between   to maximize total return within a prudent risk framework that incorporates
SEPTEMBER)                                                  the current fiscal year and prior fiscal year. (Unaudited)   PBGC's fixed obligations and asset composition of potential trusteed plans.
                                                                                                                         The investment policy establishes a 30 percent target asset allocation for
                                                                                                                         equities and other non-fixed income assets, and a 70 percent asset
                                                                                                                         allocation for fixed income. Investment activity is dependent on investment
                                                                                                                         policy. Other changes are due to the increase in the purchase of common
                                                                                                                         stock and the related market fluctuations during the fiscal year.
Line Item Notes - Equity Securities (FASB ASC 320-10-50-    Please provide explanations for any amounts that have        The Board adopted a new investment policy in May 2011. The objective is
1 and 320-10-50-9): All Other Equity Securities (2013 -     changed by 10% or more and or greater than 500,000 between   to maximize total return within a prudent risk framework that incorporates
SEPTEMBER)                                                  the current fiscal year and prior fiscal year. (Unaudited)   PBGC's fixed obligations and asset composition of potential trusteed plans.
                                                                                                                         The investment policy establishes a 30 percent target asset allocation for
                                                                                                                         equities and other non-fixed income assets, and a 70 percent asset
                                                                                                                         allocation for fixed income. Investment activity is dependent on investment
                                                                                                                         policy. Other changes are due to the increase in the purchase of foreign
                                                                                                                         equity investments and the related market fluctuations during the fiscal year.




                                                                                                  - 23 -
                                                                                                                                                                                      11/15/2013 22:23:35

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

     Note: 07             Debt and Equity Securities                                                                                Fiscal Year: 2013             Period: SEPTEMBER
     Entity: 1602         PENSION BENEFIT GUARANTY CORPORATION                                                                      Agency Notes:    AR - MD&A Section VII, Note 3 & APM

  Status: Complete                            The accompanying notes are an integral part of these financial statements.         I = Inactive Line

Tab: Other Notes Info.

       Section: A               Section Name: Investment Category - Held-to-Maturity Securities       No Data Flag: YES         Line Attributes: Dollars
                                                                                                                              Rounding Method: Millions                      Decimal: Zero
Line Status Line Description            NB       CY Basis (Costs) D              CY Unamortized           CY Net Investment     PY Basis (Costs) D             PY Unamortized        PY Net Investment
                                                                             Premium/Discount D                                                            Premium/Discount D
 1              Fixed/Debt              N/A
                Securities: Non-
                U.S. Government
                securities
 2              Fixed/Debt              N/A
                Securities: Non-
                U.S. Commercial
                securities
 3              Fixed/Debt              N/A
                Securities:
                Mortgage/asset
                backed securities
 4              Fixed/Debt              N/A
                Securities:
                Corporate and
                other bonds
 5              Fixed/Debt              N/A
                Securities: All other
                fixed income/debt
                securiteis
 6              Equity Securities:      N/A
                Common stocks
 7              Equity Securities:      N/A
                Unit trusts
 8              Equity Securities:      N/A
                All Other equity
                securities
 9              Other                   N/A
10              Total Held-to-          N/A
                Maturity Securities




                                                                                                        - 24 -
                                                                                                                                                                                      11/15/2013 22:23:35

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

     Note: 07             Debt and Equity Securities                                                                                Fiscal Year: 2013             Period: SEPTEMBER
     Entity: 1602         PENSION BENEFIT GUARANTY CORPORATION                                                                      Agency Notes:    AR - MD&A Section VII, Note 3 & APM

  Status: Complete                            The accompanying notes are an integral part of these financial statements.         I = Inactive Line


       Section: B               Section Name: Investment Category - Available-for-Sale Securities     No Data Flag: YES         Line Attributes: Dollars
                                                                                                                              Rounding Method: Millions                      Decimal: Zero
Line Status Line Description            NB       CY Basis (Costs) D       CY Unrealized Gain/Loss           CY Market Value     PY Basis (Costs) D      PY Unrealized Gain/Loss        PY Market Value
                                                                                               D                                                                             D
 1              Fixed/Debt              N/A
                Securities: Non-US
                Government
                securities
 2              Fixed/Debt              N/A
                Securities:
                Commercial
                securities
 3              Fixed/Debt              N/A
                Securities:
                Mortgage/asset
                backed securities
 4              Fixed/Debt              N/A
                Securities:
                Corporate and
                other bonds
 5              Fixed/Debt              N/A
                Securities: All other
                fixed income/debt
                secruties
 6              Equity Securities:      N/A
                Common stocks
 7              Equity Securities:      N/A
                Unit trusts
 8              Equity Securities:      N/A
                All other equity
                securities
 9              Other                   N/A
10              Total Available-        N/A
                for-Sale Securities




                                                                                                        - 25 -
                                                                                                                                                                                                 11/15/2013 22:23:35

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

     Note: 07             Debt and Equity Securities                                                                                     Fiscal Year: 2013                   Period: SEPTEMBER
     Entity: 1602         PENSION BENEFIT GUARANTY CORPORATION                                                                           Agency Notes:          AR - MD&A Section VII, Note 3 & APM

  Status: Complete                            The accompanying notes are an integral part of these financial statements.              I = Inactive Line


       Section: C               Section Name: Investment Category - Trading Securities                                               Line Attributes: Dollars
                                                                                                                                   Rounding Method: Millions                            Decimal: Zero
Line Status Line Description            NB       CY Basis (Costs) D       CY Unrealized Gain/Loss           CY Market Value          PY Basis (Costs) D           PY Unrealized Gain/Loss         PY Market Value
                                                                                               D                                                                                       D
 1              Fixed/Debt              N/A                      10,201                        -63                     10,138                        8,425                           683                      9,108
                Securities: Non-US
                Government
                securities
 2              Fixed/Debt              N/A                          53                                                      53                           442                                                   442
                Securities:
                Commercial
                securities
 3              Fixed/Debt              N/A                       2,937                         62                         2,999                     3,349                           159                      3,508
                Securities:
                Mortgage/asset
                backed securities
 4              Fixed/Debt              N/A                       9,734                        448                     10,182                        9,601                         1,271                     10,872
                Securities:
                Corporate and
                other bonds
 5              Fixed/Debt              N/A                       1,842                        -99                         1,743                     1,429                           -40                      1,389
                Securities: All other
                fixed income/debt
                securities
 6              Equity Securities:      N/A                       2,105                        551                         2,656                     1,956                           371                      2,327
                Common stocks
 7              Equity Securities:      N/A                      11,250                      6,879                     18,129                       12,778                         5,598                     18,376
                Unit trusts
 8              Equity Securities:      N/A                       2,709                         51                         2,760                     2,063                            36                      2,099
                All other equity
                securities
 9              Other                   N/A                       6,027                          2                         6,029                     4,617                            59                      4,676
10              Total Trading           N/A                      46,858                      7,831                     54,689                       44,660                         8,137                     52,797
                Securities




                                                                                                        - 26 -
                                                                                                                                                                                       11/15/2013 22:23:35

                                                                                      U.S. Department of the Treasury
                                                                                       Financial Management Service
                                                                                  Governmentwide Financial Report System
                                                                                          GF006 - FR Notes Report

     Note: 07             Debt and Equity Securities                                                                                 Fiscal Year: 2013             Period: SEPTEMBER
     Entity: 1602         PENSION BENEFIT GUARANTY CORPORATION                                                                       Agency Notes:    AR - MD&A Section VII, Note 3 & APM

  Status: Complete                             The accompanying notes are an integral part of these financial statements.         I = Inactive Line


       Section: D              Section Name: Other Information                                                                   Line Attributes: Dollars
                                                                                                                               Rounding Method: Millions                      Decimal: Zero
Line Status Line Description           NB        2013 - SEPTEMBER             2012 - SEPTEMBER               Previously Rptd      Line Item Change
 1              Proceeds from         Debit
                sales of available-
                for-sale securities
                (FASB ASC 320-
                10-50-9)
 2              Gross realized        Debit
                gains (included in
                earnings) from
                sales of available-
                for-sale securities
                (FASB ASC 320-
                10-50-9)
 3              Gross realized        Credit
                losses (included in
                earnings) from
                sales of available-
                for-sale securities
                (FASB ASC 320-
                10-50-9)
 4              Gross gains           Debit
                included in
                earnings from s
                from transfers of
                securities from
                available-for-sale
                into trading
 5              Gross losses          Credit
                included in
                earnings from s
                from transfers of
                securities from
                available-for-sale
                into trading
 6              Net unrealized        Debit
                holding gain on
                available-for-sale
                securities included
                in accumulated
                other
                comprehensive
                income



                                                                                                         - 27 -
                                                                                                                                                                                              11/15/2013 22:23:35

                                                                                        U.S. Department of the Treasury
                                                                                         Financial Management Service
                                                                                    Governmentwide Financial Report System
                                                                                            GF006 - FR Notes Report

     Note: 07             Debt and Equity Securities                                                                                        Fiscal Year: 2013             Period: SEPTEMBER
     Entity: 1602          PENSION BENEFIT GUARANTY CORPORATION                                                                             Agency Notes:    AR - MD&A Section VII, Note 3 & APM

  Status: Complete                               The accompanying notes are an integral part of these financial statements.              I = Inactive Line


       Section: D               Section Name: Other Information                                                                         Line Attributes: Dollars
                                                                                                                                      Rounding Method: Millions                      Decimal: Zero
Line Status Line Description             NB        2013 - SEPTEMBER             2012 - SEPTEMBER               Previously Rptd           Line Item Change
 7              Net unrealized          Credit
                holding loss on
                available-for-sale
                securities included
                in accumulated
                other
                comprehensive
                income
 8              Amount of               Debit
                gains/losses
                reclassified out of
                accumulated other
                comprehensive
                income into
                earnings for the
                period
 9              Portion of trading      Debit                        -183                       3,780                         3,780
                gains/losses that
                relates to trading
                securities still held
                at the reporting
                date
10              Net carrying            Debit
                amount of
                sold/transferred
                held-to-maturity
                securities (FASB
                ASC 320-10-50-
                10)
11              Net gain/loss in        Debit
                accum. other
                comp. income for
                any derivative that
                hedged the
                forecasted
                acquisition of HTM
                security




                                                                                                           - 28 -
                                                                                                                                                                                                  11/15/2013 22:23:35

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

    Note: 07          Debt and Equity Securities                                                                                        Fiscal Year: 2013                  Period: SEPTEMBER
    Entity: 1602       PENSION BENEFIT GUARANTY CORPORATION                                                                             Agency Notes:       AR - MD&A Section VII, Note 3 & APM

 Status: Complete                         The accompanying notes are an integral part of these financial statements.                I = Inactive Line

Tab: Text Data
Line               Question                                                                                          Answer
1                  Provide a description of the amounts reported on the "Line Item Notes" tab for lines 5, 8 and     1). The majority of the amount in line 5 consists of $1,650 million in pooled funds-fixed
                   9.                                                                                                income and $69 million in bank loans.

                                                                                                                     The majority of the amounts in line 8 consists of $1,469 million in foreign investments-
                                                                                                                     equity and $1,228 million in private equity.

                                                                                                                     The majority of the amount in line 9 consists of $3,322 million in security lending
                                                                                                                     collateral and $2,372 million in pooled funds-real estate.
2                  Provide a description of the amounts reported on the "Other Notes Infor" tab for lines 5, 8       2). The majority of the amount in line 5 consists of $1,750 million (cost) in pooled
                   and 9 in Sections A through C.                                                                    funds-fixed income and $68 million (cost) in bank loans.

                                                                                                                     The majority of the amounts in line 8 consists of $1,291 million (cost) in foreign
                                                                                                                     investments-equity and $1,355 million (cost) in private equity.

                                                                                                                     The majority of the amount in line 9 consists of $3,322 million (cost) in security lending
                                                                                                                     collateral and $2,364 million (cost) in pooled funds-real estate.
3                  Provide the basis on which the cost of a security sold or the amount reclassified out of          3). N/A
                   accumulated other comprehensive income into earnings was determined (FASB ASC 320-
                   10-50-9).
4                  Provide the circumstances leading to the decision to sell or transfer the security for held-to-   4). N/A
                   maturity securities (FASB ASC 320-10-50-10).
5                  Provide any other relevant information pertaining to this note. At a minimum, describe briefly    5). In accordance with the FASB Accounting Standards Codification Sections 815, 820,
                   the significant accounting policies pertaining to this note.                                      and 960 (formerly FAS 133, FAS 157 and FAS 35), investments, whether equity or debt
                                                                                                                     securities, real estate, or other, are presented at their fair value at the financial
                                                                                                                     statement date. The fair value of an investment is the amount that PBGC could
                                                                                                                     reasonably expect to receive for it in a current sale between a willing buyer and a willing
                                                                                                                     seller that is other than in a forced or liquidation sale.




                                                                                                           - 29 -
                                                                                                                                                                                                         11/15/2013 22:23:35

                                                                                        U.S. Department of the Treasury
                                                                                         Financial Management Service
                                                                                    Governmentwide Financial Report System
                                                                                            GF006 - FR Notes Report

     Note: 08            Other Assets                                                                                                           Fiscal Year: 2013                 Period: SEPTEMBER
     Entity: 1602        PENSION BENEFIT GUARANTY CORPORATION                                                                                   Agency Notes:        AR - Note 3, APM

  Status: Complete                          The accompanying notes are an integral part of these financial statements.                       I = Inactive Line

Tab: Line Item Notes
Closing Package Line Description                                               NB    Account      2013 - SEPTEMBER           2012 - SEPTEMBER
                                                                                       Type
Other Assets                                                                   D         A                             122                      5
                                                                                    Variance:                            0                      0           Rounding Method: Millions               Decimal: Zero
Line Status Line Description             2013 - SEPTEMBER               2012 - SEPTEMBER                   Previously Rptd              Line Item Changes
 1             Advances and
               prepayments
 4             Regulatory assets
 5             Derivative assets                                 122                               5                                                             5
 6             Other assets
               Total                                              122                              5                                                             5

Tab: Text Data
 Line                Question                                                                                                 Answer
 1                   Provide a description of advances and prepayments on the "Line Item Notes" tab for line 1.               1). N/A
 2                   Provide a description and related amounts for balances that exceed $1 billion in the line titled         2). N/A
                     "Other Assets" on the "Line Item Notes" tab.
 3                   Provide the amounts that are designated as either non-hedging or hedging instruments.                    3). N/A
 4                   Provide any other relevant information pertaining to this note. At a minimum, describe briefly           4). Derivative Contracts, as presented in the Statements of Financial Position includes
                     the significant accounting policies pertaining to this note.                                             receivables and liability positions in collateral deposits received, Swaps-CDS open
                                                                                                                              trades, Futures, Short Sales and F/X Forwards (for end of contract status during
                                                                                                                              financial statement period end).




                                                                                                              - 30 -
                                                                                                                                                                                     11/15/2013 22:23:35

                                                                                 U.S. Department of the Treasury
                                                                                  Financial Management Service
                                                                             Governmentwide Financial Report System
                                                                                     GF006 - FR Notes Report

     Note: 09          Accounts Payable                                                                                             Fiscal Year: 2013                Period: SEPTEMBER
   Entity: 1602        PENSION BENEFIT GUARANTY CORPORATION                                                                         Agency Notes:        AR - Note 8, APM

  Status: Complete                        The accompanying notes are an integral part of these financial statements.             I = Inactive Line

Tab: Line Item Notes
Closing Package Line Description                                        NB    Account     2013 - SEPTEMBER        2012 - SEPTEMBER
                                                                                Type
Accounts Payable                                                         C        L                          64                   67
                                                                             Variance:                        0                    0            Rounding Method: Millions        Decimal: Zero
Line Status Line Description         2013 - SEPTEMBER             2012 - SEPTEMBER                Previously Rptd           Line Item Changes
 1          Accounts Payable                                 64                          67                            67                            0
            Total                                            64                          67                            67                            0




                                                                                                    - 31 -
                                                                                                                                                                                                        11/15/2013 22:23:35

                                                                                       U.S. Department of the Treasury
                                                                                        Financial Management Service
                                                                                   Governmentwide Financial Report System
                                                                                           GF006 - FR Notes Report

     Note: 09            Accounts Payable                                                                                                    Fiscal Year: 2013                   Period: SEPTEMBER
     Entity: 1602        PENSION BENEFIT GUARANTY CORPORATION                                                                                Agency Notes:       AR - Note 8, APM

  Status: Complete                          The accompanying notes are an integral part of these financial statements.                    I = Inactive Line

Tab: Other Notes Info.

       Section: A             Section Name: Interest                                                      No Data Flag: YES             Line Attributes: Dollars
                                                                                                                                      Rounding Method: Millions                              Decimal: Zero
Line Status Line Description          NB        2013 - SEPTEMBER             2012 - SEPTEMBER C                 Previously Rptd C      Line Item Changes D
                                                               C
 1              Interest accrued      N/A
                and owed to others




Tab: Text Data
 Line                Question                                                                                             Answer
 1                   Provide any other relevant information pertaining to this note. At a minimum, describe briefly       1). The liability to be recorded shall reflect the amount of the invoice received but not
                     the significant accounting policies pertaining to this note.                                         paid. An accrued expense shall be recorded when goods or services have been
                                                                                                                          received and an account payable has not been established.




                                                                                                             - 32 -
                                                                                                                                                                                               11/15/2013 22:23:35

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

     Note: 10B          Treasury securities held by the Government trust, revolving, and special funds                                     Fiscal Year: 2013                 Period: SEPTEMBER
     Entity: 1602       PENSION BENEFIT GUARANTY CORPORATION                                                                               Agency Notes:       AR - Note 3

  Status: Complete                         The accompanying notes are an integral part of these financial statements.                   I = Inactive Line

Tab: Other Notes Info.

       Section: A            Section Name: Investments in Federal Debt securities                                                      Line Attributes: Dollars
                                                                                                                                     Rounding Method: Millions                        Decimal: Zero
Line Status Line Description         NB        CY Par value of the                 CY Unamortized CY Unamortized premium               CY Net Investment              PY Par Value of the PY Unamortized discount
                                                   investment D                       Discount C                       D                                                  investment D                         C
17             Pension Benefit      N/A                        23,305                           296                          1,571                    24,580                     21,703                       256
               Guaranty
               Corporation Fund
23                                  N/A
24                                  N/A
25                                  N/A
26             All other programs   N/A
               and funds
27             Total                N/A                        23,305                          -296                          1,571                    24,580                     21,703                     -256

Line Status Line Description         NB            PY Unamortized             PY Net Investment
                                                      premium D
17             Pension Benefit       N/A                         1,510                       22,957
               Guaranty
               Corporation Fund
23                                   N/A
24                                   N/A
25                                   N/A
26             All other programs    N/A
               and funds
27             Total                 N/A                         1,510                       22,957
       Section: B            Section Name: Fiduciary Funds - Tresury Securities Held by Deposit          No Data Flag: YES             Line Attributes: Dollars
                                           Funds (or Held by Non-Federal Custodians) with                                            Rounding Method: Millions                        Decimal: Zero
                                           Fiduciary Activity
Line Status Line Description         NB        CY Par value of the       CY Unamortized discount CY Unamortized premium                CY Net Investment             PY Par value of the PY Unamortized discount
                                                   investment D                               C                       D                                                  investment D                         C
 1                                  N/A
 2                                  N/A
 3                                  N/A
 4                                  N/A
 5                                  N/A
 6                                  N/A
 7                                  N/A



                                                                                                           - 33 -
                                                                                                                                                                                  11/15/2013 22:23:35

                                                                                    U.S. Department of the Treasury
                                                                                     Financial Management Service
                                                                                Governmentwide Financial Report System
                                                                                        GF006 - FR Notes Report

     Note: 10B         Treasury securities held by the Government trust, revolving, and special funds                             Fiscal Year: 2013              Period: SEPTEMBER
     Entity: 1602      PENSION BENEFIT GUARANTY CORPORATION                                                                       Agency Notes:    AR - Note 3

  Status: Complete                        The accompanying notes are an integral part of these financial statements.           I = Inactive Line


       Section: B           Section Name: Fiduciary Funds - Tresury Securities Held by Deposit          No Data Flag: YES     Line Attributes: Dollars
                                          Funds (or Held by Non-Federal Custodians) with                                    Rounding Method: Millions                     Decimal: Zero
                                          Fiduciary Activity
Line Status Line Description        NB        CY Par value of the       CY Unamortized discount CY Unamortized premium        CY Net Investment          PY Par value of the PY Unamortized discount
                                                  investment D                               C                       D                                       investment D                         C
 8                                 N/A
 9                                 N/A
10                                 N/A
11                                 N/A
12                                 N/A
13                                 N/A
14                                 N/A
15                                 N/A
16             Total               N/A

Line Status Line Description        NB            PY Unamortized             PY Net Investment
                                                     premium D
 1                                  N/A
 2                                  N/A
 3                                  N/A
 4                                  N/A
 5                                  N/A
 6                                  N/A
 7                                  N/A
 8                                  N/A
 9                                  N/A
10                                  N/A
11                                  N/A
12                                  N/A
13                                  N/A
14                                  N/A
15                                  N/A
16             Total                N/A




                                                                                                          - 34 -
                                                                                                                                                                                  11/15/2013 22:23:35

                                                                                    U.S. Department of the Treasury
                                                                                     Financial Management Service
                                                                                Governmentwide Financial Report System
                                                                                        GF006 - FR Notes Report

     Note: 10B         Treasury securities held by the Government trust, revolving, and special funds                             Fiscal Year: 2013              Period: SEPTEMBER
     Entity: 1602      PENSION BENEFIT GUARANTY CORPORATION                                                                       Agency Notes:    AR - Note 3

  Status: Complete                        The accompanying notes are an integral part of these financial statements.           I = Inactive Line


       Section: C           Section Name: Fiducuiary Funds-Treasury Securities Held by All              No Data Flag: YES     Line Attributes: Dollars
                                          Other Agency Funds with Fiduciary Activity                                        Rounding Method: Millions                     Decimal: Zero
Line Status Line Description        NB        CY Par value of the       CY Unamortized discount CY Unamortized premium        CY Net Investment          PY Par value of the PY Unamortized discount
                                                  investment D                               C                       D                                       investment D                         C
 1                                 N/A
 2                                 N/A
 3                                 N/A
 4                                 N/A
 5                                 N/A
 6                                 N/A
 7                                 N/A
 8                                 N/A
 9                                 N/A
10                                 N/A
11                                 N/A
12                                 N/A
13                                 N/A
14                                 N/A
15                                 N/A
16             Total               N/A




                                                                                                          - 35 -
                                                                                                                                                                                                         11/15/2013 22:23:35

                                                                                      U.S. Department of the Treasury
                                                                                       Financial Management Service
                                                                                  Governmentwide Financial Report System
                                                                                          GF006 - FR Notes Report

   Note: 10B           Treasury securities held by the Government trust, revolving, and special funds                                       Fiscal Year: 2013                    Period: SEPTEMBER
  Entity: 1602          PENSION BENEFIT GUARANTY CORPORATION                                                                                Agency Notes:        AR - Note 3

  Status: Complete                         The accompanying notes are an integral part of these financial statements.                    I = Inactive Line


    Section: C               Section Name: Fiducuiary Funds-Treasury Securities Held by All              No Data Flag: YES             Line Attributes: Dollars
                                           Other Agency Funds with Fiduciary Activity                                                Rounding Method: Millions                                Decimal: Zero
Line Status Line Description         NB            PY Unamortized              PY Net Investment
                                                      premium C
 1                                   N/A
 2                                   N/A
 3                                   N/A
 4                                   N/A
 5                                   N/A
 6                                   N/A
 7                                   N/A
 8                                   N/A
 9                                   N/A
10                                   N/A
11                                   N/A
12                                   N/A
13                                   N/A
14                                   N/A
15                                   N/A
16          Total                    N/A
Tab: Text Data
 Line               Question                                                                                             Answer
 1                  Provide any other relevant information pertaining to this note. At a minimum, describe briefly       1). Debt securities shall be recorded at face value. A premium or discount shall be
                    the significant accounting policies pertaining to this note.                                         recorded equal to the difference between face value and the cost basis.

                                                                                                                         Discounts and premiums on trust fund fixed debt securities are not accreted or
                                                                                                                         amortized. These securities and all other securities are marked to market.

                                                                                                                         Discounts and premiums on debt securities held in the Revolving Fund shall be
                                                                                                                         accreted or amortized by the effective interest method to arrive at a constant rate of
                                                                                                                         interest for the security. The straight-line method shall be acceptable only if it results in
                                                                                                                         an insignificant difference from use of the interest method. The premium/discount shall
                                                                                                                         be amortized/accreted over the term of the security, which will typically be through to
                                                                                                                         maturity date, or call date, whichever is more appropriate.




                                                                                                            - 36 -
                                                                                                                                                                               11/15/2013 22:23:35

                                                                                U.S. Department of the Treasury
                                                                                 Financial Management Service
                                                                            Governmentwide Financial Report System
                                                                                    GF006 - FR Notes Report

     Note: 11          Federal Employee and Veteran Benefits Payable                                                           Fiscal Year: 2013               Period: SEPTEMBER
   Entity: 1602        PENSION BENEFIT GUARANTY CORPORATION                                                                    Agency Notes:      N/A

  Status: Complete                      The accompanying notes are an integral part of these financial statements.          I = Inactive Line

Tab: Line Item Notes
Closing Package Line Description                                       NB    Account    2013 - SEPTEMBER       2012 - SEPTEMBER
                                                                               Type
Federal Employee and Veteran Benefits Payable                          C         L                         0                  0
                                                                            Variance:                      0                  0            Rounding Method: Millions       Decimal: Zero
Line Status Line Description         2013 - SEPTEMBER            2012 - SEPTEMBER               Previously Rptd        Line Item Changes
 1          Pension and accrued
            benefits
 2          Post-retirement health
            and accrued benefits
 3          Veteran's
            compensation and
            burial benefits
 4          Life Insurance and
            accrued benefits
 5          FECA Benefits
 6          Liability for other
            retirement and
            postemployment
            benefits
            Total




                                                                                                  - 37 -
                                                                                                                                                                               11/15/2013 22:23:35

                                                                                        U.S. Department of the Treasury
                                                                                         Financial Management Service
                                                                                    Governmentwide Financial Report System
                                                                                            GF006 - FR Notes Report

     Note: 11             Federal Employee and Veteran Benefits Payable                                                                Fiscal Year: 2013      Period: SEPTEMBER
     Entity: 1602         PENSION BENEFIT GUARANTY CORPORATION                                                                         Agency Notes:    N/A

  Status: Complete                               The accompanying notes are an integral part of these financial statements.         I = Inactive Line

Tab: Other Notes Info.

       Section: A              Section Name: Pension and Accrued Benefits Liability-To be                No Data Flag: YES         Line Attributes: Dollars
                                             completed for the amount entered for pension and                                    Rounding Method: Millions             Decimal: Zero
                                             accrued benefits in the "Line Item Notes" tab
Line Status Line Description             NB        2013 - SEPTEMBER             2012 - SEPTEMBER               Previously Rptd    Line Item Changes
 1              Pension and             Credit
                accrued benefits
                liability- beginning
                of period
 2              Prior-period            Credit
                adjustments(not
                restated)
 3              Prior (and past)        Credit
                service costs from
                plan amendments
                (or the initiation of
                a new plan) during
                the period
 4              Normal Costs            Credit
                (SFFAS No. 5, par.
                72)
 5              Interest on pension     Credit
                liability during the
                period
 6              Prior (and past)        Credit
                service cost (from
                the initiation of a
                new plan)
 7              Actuarial               Credit
                (gains)/losses (from
                experience)
                (SFFAS No. 33,
                par. 22)
 8              Actuarial               Credit
                (gains)/losses (from
                assumption
                changes) (SFFAS
                No. 33, par. 22)
 9              Other                   Credit
10              Total pension            N/A
                expense (SFFAS
                No. 5, par.72)
11              Less Benefits Paid      Debit



                                                                                                           - 38 -
                                                                                                                                                                               11/15/2013 22:23:35

                                                                                        U.S. Department of the Treasury
                                                                                         Financial Management Service
                                                                                    Governmentwide Financial Report System
                                                                                            GF006 - FR Notes Report

     Note: 11             Federal Employee and Veteran Benefits Payable                                                                Fiscal Year: 2013      Period: SEPTEMBER
     Entity: 1602         PENSION BENEFIT GUARANTY CORPORATION                                                                         Agency Notes:    N/A

  Status: Complete                               The accompanying notes are an integral part of these financial statements.         I = Inactive Line


       Section: A               Section Name: Pension and Accrued Benefits Liability-To be               No Data Flag: YES         Line Attributes: Dollars
                                              completed for the amount entered for pension and                                   Rounding Method: Millions             Decimal: Zero
                                              accrued benefits in the "Line Item Notes" tab
Line Status Line Description             NB        2013 - SEPTEMBER             2012 - SEPTEMBER               Previously Rptd    Line Item Changes
12              Pension and              N/A
                Accrued Benefits
                Liability-end of
                period




       Section: B               Section Name: Pension Liability Long-Term Significant Assumptions        No Data Flag: YES         Line Attributes: Percent
                                              Used in the Current FY and Prior FY Valuation
Line Status Line Description             NB        2013 - SEPTEMBER             2012 - SEPTEMBER               Previously Rptd    Line Item Changes
 1              Rate of Interest         N/A
                (except OPM)
 2              Rate of inflation        N/A
                (except OPM)
 3              Projected salary         N/A
                increases (except
                OPM)



       Section: C               Section Name: Postretirement Health and Accrued Benefits                 No Data Flag: YES         Line Attributes: Dollars
                                                                                                                                 Rounding Method: Millions             Decimal: Zero
Line Status Line Description             NB        2013 - SEPTEMBER             2012 - SEPTEMBER               Previously Rptd    Line Item Changes
 1              Postretirement          Credit
                health and accrued
                benefits liability-
                beginning of period
                (SFFAS No. 5,
                par.88)
 2              Prior-period            Credit
                adjustments (not
                restated)
 3              Prior (and past)        Credit
                service costs from
                plan amendments
                (or the initiation of



                                                                                                           - 39 -
                                                                                                                                                                               11/15/2013 22:23:35

                                                                                        U.S. Department of the Treasury
                                                                                         Financial Management Service
                                                                                    Governmentwide Financial Report System
                                                                                            GF006 - FR Notes Report

     Note: 11              Federal Employee and Veteran Benefits Payable                                                               Fiscal Year: 2013      Period: SEPTEMBER
     Entity: 1602          PENSION BENEFIT GUARANTY CORPORATION                                                                        Agency Notes:    N/A

  Status: Complete                               The accompanying notes are an integral part of these financial statements.         I = Inactive Line


       Section: C                Section Name: Postretirement Health and Accrued Benefits                No Data Flag: YES         Line Attributes: Dollars
                                                                                                                                 Rounding Method: Millions             Decimal: Zero
Line Status Line Description             NB        2013 - SEPTEMBER             2012 - SEPTEMBER               Previously Rptd    Line Item Changes
                a new plan) during
                the period
 4              Normal costs            Credit
 5              Interest on liability   Credit
 6              Actuarial            Credit
                (gains)/losses (from
                experience)
 7              Actuarial            Credit
                (gains)/losses (from
                assumption
                changes)
 8              Other                Credit
 9              Total                    N/A
                postretirement
                health benefits
                expense
10              Less claims paid        Debit
11              Postretirement           N/A
                health and accrued
                benefits liability-
                end of period
       Section: D                Section Name: Postretirement Health Liability Significant               No Data Flag: YES         Line Attributes: Percent
                                               Assumptions Used in Determining the Current FY
                                               and Prior FY Valuation
Line Status Line Description             NB        2013 - SEPTEMBER             2012 - SEPTEMBER               Previously Rptd    Line Item Changes
 1              Rate of Interest         N/A
 2              Ultimate rate of         N/A
                medical trend
 3              Single equivalent        N/A
                rate of medical
                trend




                                                                                                           - 40 -
                                                                                                                                                                                11/15/2013 22:23:35

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

     Note: 11            Federal Employee and Veteran Benefits Payable                                                             Fiscal Year: 2013          Period: SEPTEMBER
     Entity: 1602        PENSION BENEFIT GUARANTY CORPORATION                                                                      Agency Notes:     N/A

  Status: Complete                            The accompanying notes are an integral part of these financial statements.        I = Inactive Line


       Section: F             Section Name: Other                                                     No Data Flag: YES         Line Attributes: Dollars
                                                                                                                              Rounding Method: User-Defined            Decimal: User-Defined
Line Status Line Description           NB       2013 - SEPTEMBER             2012 - SEPTEMBER               Previously Rptd    Line Item Changes
 1              Non-marketable        Debit
                Treasury securities
                held by Thrift
                Savings Plan (TSP)
                Fund
 2              Total assets of       Debit
                pension (SFFAS
                No.5, par. 68)
 3              Market value of       Debit
                investments in
                market-based and
                marketable
                securities included
                in line 2
 4              Total assets of       Debit
                other retirement
                benefit plans
                (SFFAS No. 5, par.
                85)
 5              Market value of       Debit
                investments in
                market-based and
                marketable
                securities included
                in line 4 (SFFAS
                no. 5, par.85)
       Section: K             Section Name: Workers' Compensation Benefits (to be completed by        No Data Flag: YES         Line Attributes: Percent
                                            DOL)
Line Status Line Description           NB                     COLA                          CPIM
 5        I     2017+                 N/A




                                                                                                        - 41 -
                                                                                                                                                                         11/15/2013 22:23:35

                                                                                      U.S. Department of the Treasury
                                                                                       Financial Management Service
                                                                                  Governmentwide Financial Report System
                                                                                          GF006 - FR Notes Report

     Note: 11          Federal Employee and Veteran Benefits Payable                                                              Fiscal Year: 2013      Period: SEPTEMBER
    Entity: 1602       PENSION BENEFIT GUARANTY CORPORATION                                                                       Agency Notes:    N/A

 Status: Complete                         The accompanying notes are an integral part of these financial statements.           I = Inactive Line

Tab: Text Data                        No Data Flag: YES
Line               Question                                                                                           Answer
1                  Provide the following information as it relates to the future policy benefits for noncancelable
                   and renewable life insurance (other than whole life) (SFFAS No. 5, par. 110, table 9): a
                   description of each component of the liability for future policy benefits, an explanation of its
                   projected use, and any other potential uses.
2                  For pension plans that differ from the Civil Service Retirement System (CSRS), the Federal
                   Employee Retirement System (FERS), and the Military Retirement System (MRS), describe
                   how and why the assumptions differ from one of those plans (SFFAS No. 5, par. 67).
3                  Provide the long-term projection of the significant economic assumptions used in
                   determining pension liability and
                   the related expense (example of assumptions: actuarial, economic, interest rate, and trend).
4                  Provide a description of the changes in the significant assumptions used in determining
                   pension liability and the
                   related expense (SFFAS No. 33, par.19).
5                  Provide the long-term projection of the significant economic assumptions used in
                   determining the postretirement
                   health benefits liability and the related expense (example of assumptions: actuarial,
                   economic, interest rate, and
                   trend).
6                  Provide a description of the changes in the significant assumptions used in determining the
                   postretirement health
                   benefits liability and the related expense (SFFAS No. 33, par. 19).
10                 Provide the source(s) of the information entered for Line Item Notes tab lines 4, 5, and 6.
11                 Provide the source(s) for the components of pension expense entered in Section A.
12                 Provide the source(s) for the interest rate for pension expense entered in Section B.
13                 Provide the source(s) for the components of postretirement expense entered in Section C.
14                 Provide the source(s) for the interest rate for pension expense entered in Section D.
17                 Provide any other relevant information pertaining to this note. At a minimum, describe briefly
                   the significant
                   accounting policies pertaining to this note.




                                                                                                             - 42 -
                                                                                                                                                                                  11/15/2013 22:23:35

                                                                                  U.S. Department of the Treasury
                                                                                   Financial Management Service
                                                                              Governmentwide Financial Report System
                                                                                      GF006 - FR Notes Report

      Note: 12          Environmental and Disposal Liabilities                                                                    Fiscal Year: 2013               Period: SEPTEMBER
   Entity: 1602         PENSION BENEFIT GUARANTY CORPORATION                                                                      Agency Notes:      N/A

  Status: Complete                         The accompanying notes are an integral part of these financial statements.          I = Inactive Line

Tab: Line Item Notes
Closing Package Line Description                                         NB    Account     2013 - SEPTEMBER       2012 - SEPTEMBER
                                                                                 Type
Environmental and Disposal Liabilities                                    C        L                          0                  0
                                                                              Variance:                       0                  0            Rounding Method: Millions       Decimal: Zero
Line Status Line Description             2013 - SEPTEMBER          2012 - SEPTEMBER                Previously Rptd        Line Item Changes
  9
 10
 11
 12
 13
 14          Other Environmental
             and Disposal Liabilities
             Total




                                                                                                     - 43 -
                                                                                                                                                                                      11/15/2013 22:23:35

                                                                                       U.S. Department of the Treasury
                                                                                        Financial Management Service
                                                                                   Governmentwide Financial Report System
                                                                                           GF006 - FR Notes Report

     Note: 12            Environmental and Disposal Liabilities                                                                          Fiscal Year: 2013          Period: SEPTEMBER
     Entity: 1602        PENSION BENEFIT GUARANTY CORPORATION                                                                            Agency Notes:    N/A

  Status: Complete                           The accompanying notes are an integral part of these financial statements.               I = Inactive Line

Tab: Other Notes Info.

       Section: A              Section Name: Other Related Information                                   No Data Flag: YES            Line Attributes: Dollars
                                                                                                                                    Rounding Method: User-Defined            Decimal: User-Defined
Line Status Line Description          NB       2013 - SEPTEMBER               2012 - SEPTEMBER                   Previously Rptd     Line Item Changes
 1              Unrecognized         Debit
                portion of
                estimated total
                cleanup costs
                associated with
                general property,
                plant, and
                equipment


Tab: Text Data                          No Data Flag: YES
 Line                Question                                                                                              Answer
 1                   List the applicable laws and regulations covering cleanup requirements
 2                   Provide a description of the type of environmental and disposal liabilties identified.
 3                   Provide any other relevant information pertaining to this note. At a minimum, describe briefly
                     the significant accounting policies pertaining to this note.




                                                                                                            - 44 -
                                                                                                                                                                                          11/15/2013 22:23:35

                                                                                    U.S. Department of the Treasury
                                                                                     Financial Management Service
                                                                                Governmentwide Financial Report System
                                                                                        GF006 - FR Notes Report

     Note: 13          Benefits Due and Payable                                                                                           Fiscal Year: 2013               Period: SEPTEMBER
   Entity: 1602        PENSION BENEFIT GUARANTY CORPORATION                                                                               Agency Notes:      N/A

  Status: Complete                       The accompanying notes are an integral part of these financial statements.                    I = Inactive Line

Tab: Line Item Notes
Closing Package Line Description                                           NB    Account     2013 - SEPTEMBER          2012 - SEPTEMBER
                                                                                   Type
Benefits Due and Payable                                                   C         L                             0                     0
                                                                                Variance:                          0                     0            Rounding Method: Millions       Decimal: Zero
Line Status Line Description          2013 - SEPTEMBER              2012 - SEPTEMBER                   Previously Rptd            Line Item Changes
 9          Other Entitlement
            BenefitsDue and
            Payable
            Total

Tab: Text Data                       No Data Flag: YES
 Line             Question                                                                                               Answer
 1                Provide any other relevant information pertaining to this note. At a minimum, describe briefly
                  the significant accounting policies pertaining to this note.




                                                                                                         - 45 -
                                                                                                                                                                                     11/15/2013 22:23:35

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

     Note: 14            Insurance and Guarantee Program Liabilities                                                               Fiscal Year: 2013                 Period: SEPTEMBER
   Entity: 1602          PENSION BENEFIT GUARANTY CORPORATION                                                                      Agency Notes:        AR - Note 2 and Note 6

  Status: Complete                         The accompanying notes are an integral part of these financial statements.           I = Inactive Line

Tab: Line Item Notes
Closing Package Line Description                                            NB    Account    2013 - SEPTEMBER     2012 - SEPTEMBER
                                                                                    Type
Insurance and Guarantee Program Liabilities                                 C         L                105,018              105,636
                                                                                 Variance:                   0                    0            Rounding Method: Millions         Decimal: Zero
Line Status Line Description            2013 - SEPTEMBER               2012 - SEPTEMBER            Previously Rptd         Line Item Changes
 1              Single employer                           105,018                      105,635                   105,635                            0
 2              Multiemployer                                   0                            1                         1                            0
 7              Other Insurance
                Programs
 8
 9
            Total                                          105,018                     105,636                   105,636                            0




                                                                                                     - 46 -
                                                                                                                                                                                             11/15/2013 22:23:35

                                                                                      U.S. Department of the Treasury
                                                                                       Financial Management Service
                                                                                  Governmentwide Financial Report System
                                                                                          GF006 - FR Notes Report

     Note: 14            Insurance and Guarantee Program Liabilities                                                                   Fiscal Year: 2013                 Period: SEPTEMBER
     Entity: 1602         PENSION BENEFIT GUARANTY CORPORATION                                                                         Agency Notes:        AR - Note 2 and Note 6

  Status: Complete                             The accompanying notes are an integral part of these financial statements.           I = Inactive Line

Tab: Other Notes Info.

       Section: A              Section Name: Other Related Information                                                             Line Attributes: Dollars
                                                                                                                                 Rounding Method: Millions                           Decimal: Zero
Line Status Line Description           NB        2013 - SEPTEMBER             2012 - SEPTEMBER               Previously Rptd      Line Item Changes
 1              Total liabilities (as Credit                     120,585                    119,159                    119,159                          0
                reported on
                Balance
                Sheet/Statement of
                Financial
                Condition) PBGC




       Section: B              Section Name: Net Position/Equity                                                                   Line Attributes: Dollars
                                                                                                                                 Rounding Method: Millions                           Decimal: Zero
Line Status Line Description           NB        2013 - SEPTEMBER             2012 - SEPTEMBER               Previously Rptd      Line Item Changes
 1              PBGC                 Credit                      -35,369                    -34,379                    -34,379                          0




                                                                                                         - 47 -
                                                                                                                                                                                                 11/15/2013 22:23:35

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

    Note: 14          Insurance and Guarantee Program Liabilities                                                                      Fiscal Year: 2013                  Period: SEPTEMBER
    Entity: 1602       PENSION BENEFIT GUARANTY CORPORATION                                                                            Agency Notes:       AR - Note 2 and Note 6

 Status: Complete                         The accompanying notes are an integral part of these financial statements.               I = Inactive Line

Tab: Text Data
Line               Question                                                                                         Answer
1                  Provide a description for the type of insurance or guarantee programs identified in the "Line    1). PBGC operates two separate insurance programs for defined benefit plans. PBGC's
                   Item Notes" tab.                                                                                 single-employer program guarantees payment of basic pension benefits when
                                                                                                                    underfunded plans terminate. The insured event in the single-employer program is plan
                                                                                                                    termination. By contrast, in the multiemployer program, the insured event is plan
                                                                                                                    insolvency. PBGC's multiemployer program financially assists insolvent covered plans
                                                                                                                    to pay benefits at the statutorily guaranteed level. By law, the two programs are funded
                                                                                                                    and administered separately and their financial conditions, results of operations, and
                                                                                                                    cash flows are reported separately.
2                  Provide the name, description, and the related amounts of the insurance or guarantee             2). N/A
                   programs entered on the line titled, "Other insurance programs" in the "Line Item Notes" tab.
3                  Provide any other relevant information pertaining to this note. At a minimum, describe briefly   3). The values of the PVFB are particularly sensitive to changes in underlying estimates
                   the significant                                                                                  and assumptions. These estimates and assumptions could change and the impact of
                   accounting policies pertaining to this note.                                                     these changes may be material to PBGC's financial statements.

                                                                                                                    (1) Trusteed Plans-represents the present value of future benefit payments less the
                                                                                                                    present value of expected recoveries (for which a settlement agreement has not been
                                                                                                                    reached with sponsors and members of their controlled group) for plans that have
                                                                                                                    terminated and been trusteed by PBGC prior to fiscal year-end. Assets are shown
                                                                                                                    separately from liabilities for trusteed plans.

                                                                                                                    (2) Pending Termination and Trusteeship-represents the present value of future benefit
                                                                                                                    payments less the plans' net assets (at fair value) anticipated to be received and the
                                                                                                                    present value of expected recoveries (for which a settlement agreement has not been
                                                                                                                    reached with sponsors and members of their controlled group) for plans for which
                                                                                                                    termination action has been initiated and/or completed prior to fiscal year-end. Unlike
                                                                                                                    trusteed plans, the liability for plans pending termination and trusteeship is shown net of
                                                                                                                    plan assets.

                                                                                                                    (3) Settlements and Judgments-represents estimated liabilities related to settled
                                                                                                                    litigation.

                                                                                                                    (4) Net Claims for Probable Terminations-In accordance with the FASB Accounting
                                                                                                                    Standards Codification Section 450, Contingencies, PBGC recognizes net claims for
                                                                                                                    probable terminations which represent PBGC's best estimate of the losses, net of plan
                                                                                                                    assets, and the present value of expected recoveries (from sponsors and members of
                                                                                                                    their controlled group) for plans that are likely to terminate in the future. The PBGC
                                                                                                                    threshold for recognition of net claims for probable termination is $50 million or more of
                                                                                                                    underfunding. These estimated losses are based on conditions that existed as of
                                                                                                                    PBGC's fiscal year-end. Management believes it is likely that one or more events
                                                                                                                    subsequent to PBGC's fiscal year-end will occur, confirming the loss.




                                                                                                           - 48 -
                                                                                                                                                                                                11/15/2013 22:23:35

                                                                                        U.S. Department of the Treasury
                                                                                         Financial Management Service
                                                                                    Governmentwide Financial Report System
                                                                                            GF006 - FR Notes Report

      Note: 15             Other Liabilities                                                                                                Fiscal Year: 2013                   Period: SEPTEMBER
   Entity: 1602            PENSION BENEFIT GUARANTY CORPORATION                                                                             Agency Notes:         AR - Notes 3, 4, and 7

  Status: Complete                               The accompanying notes are an integral part of these financial statements.              I = Inactive Line

Tab: Line Item Notes
Closing Package Line Description                                               NB    Account     2013 - SEPTEMBER       2012 - SEPTEMBER
                                                                                       Type
Other Liabilities                                                               C        L                    15,502                   13,455
                                                                                    Variance:                      0                        0           Rounding Method: Millions           Decimal: Zero
Line Status Line Description                   2013 - SEPTEMBER           2012 - SEPTEMBER               Previously Rptd            Line Item Changes
 1               Deferred revenue                                  419                          358                           358                            0
 2               Accrued wages and                                   3                            3                             3                            0
                 benefits
 4               Other debt
 6               Legal and other
                 contingencies
 7               Grant payments due to
                 State and local
                 governments and
                 others
 8               Other employee and
                 actuarial liabilities
 10              D.C. pension liability
 11              Custodial liabilities
 12              Accrued annual leave                                 9                           9                             9                            0
 14              Advances and
                 prepayments
 15              Farm and other
                 subsidies
 16              Deposit funds
 17              Bonneville Power
                 Administration non-
                 Federal power projects
                 and capital lease
                 liabilities and disposal
                 liabilities
 18              Derivative liabilities                            210                           21                                                       21
 19
 20
 21
 22           Other Liabilities                                 14,861                      13,064                      13,064                                0
              Total                                             15,502                      13,455                      13,434                               21




                                                                                                           - 49 -
                                                                                                                                                                                        11/15/2013 22:23:35

                                                                                  U.S. Department of the Treasury
                                                                                   Financial Management Service
                                                                              Governmentwide Financial Report System
                                                                                      GF006 - FR Notes Report

   Note: 15           Other Liabilities                                                                                         Fiscal Year: 2013                Period: SEPTEMBER
  Entity: 1602        PENSION BENEFIT GUARANTY CORPORATION                                                                      Agency Notes:      AR - Notes 3, 4, and 7

 Status: Complete                         The accompanying notes are an integral part of these financial statements.         I = Inactive Line



Threshold

Line Description                                              Question                                                       Answer
Line Item Notes - Deferred revenue (2013 - SEPTEMBER)         Please provide explanations for any amounts that have          The change is primarily due to an increase in unearned premiums.
                                                              changed by 10% or more and or greater than 500,000 between
                                                              the current fiscal year and prior fiscal year. (Unaudited)
Line Item Notes - Other Liabilities (2013 - SEPTEMBER)        Please enter a description for any amounts over $50 million.   The total year over year increase in other liabilities of $1,797 million is
                                                                                                                             primarily attributable to the following: $2,921 million increase in Present
                                                                                                                             value of nonrecoverable future financial assistance, offset by decreases of
                                                                                                                             $949 million in Due for purchases of securities and $103 million in Payable
                                                                                                                             upon return of securities loaned.




                                                                                                        - 50 -
                                                                                                                                                                                                  11/15/2013 22:23:35

                                                                                      U.S. Department of the Treasury
                                                                                       Financial Management Service
                                                                                  Governmentwide Financial Report System
                                                                                          GF006 - FR Notes Report

    Note: 15           Other Liabilities                                                                                                Fiscal Year: 2013                  Period: SEPTEMBER
    Entity: 1602       PENSION BENEFIT GUARANTY CORPORATION                                                                             Agency Notes:       AR - Notes 3, 4, and 7

 Status: Complete                          The accompanying notes are an integral part of these financial statements.                I = Inactive Line

Tab: Text Data
Line               Question                                                                                           Answer
1                  Provide more details on the liabilities reported on the "Line Item Notes" tab for each line 1      1). Line 1 - Deferred revenue consists of unearned premium revenue for both the
                   through 21 by including a description of the significant related amounts and providing the         single-employer and multiemployer programs - which can be located in the balance
                   page number and the documentation support by email to FRD's central mailbox at                     sheet under Unearned premiums.
                   financial.reports@fms.treas.gov if amounts identified cannot be directly traced to the             Line 18 - Derivative liabilities consists of Due to Derivative Contracts and Accounts
                   agency's financial report.                                                                         Payable - Collateral Deposits, the sum total of which can be found
                                                                                                                      in the Payables, net section of the balance sheet.
                                                                                                                      Line 22 - Other liabilities consists of Present value of nonrecoverable future financial
                                                                                                                      assistance, Due for purchase of securities, and Payable upon return of securities
                                                                                                                      loaned - all of which can be found on the balance sheet.
2                  Provide a description and related amounts for balances that exceed $50 million on the Line         2). Items that consist of $50 million or more reported in Other liabilities are: Present
                   Item Notes tab, line 21, "Other liabilities," and provide the page number of the agency's          value of nonrecoverable future financial assistance ($9,931 million); Payable upon
                   financial report where the amount is identified.                                                   return of securities loaned ($3,322 million); and Due for purchases of securities ($1,608
                                                                                                                      million) - all of which can be located on the balance sheet.
3                  Provide the amounts that are designated as either non-hedging or hedging instruments.              3). N/A
4                  Provide any other relevant information pertaining to this note. At a minimum, describe briefly     4). Payable upon return of securities loaned represents the liability created
                   the significant                                                                                    undersecurities lending where PBGC maintains effective control over the securities and
                   accounting policies pertaining to this note.                                                       will remain as a liability until the transaction is completed and the securities are
                                                                                                                      returned.

                                                                                                                      Due for purchase of securities represents the liability position for open trades (not
                                                                                                                      settled), and are presented at fair value in accordance with general investment policies.

                                                                                                                      Present value of nonrecoverable future financial assistance represents the estimated
                                                                                                                      nonrecoverable payments to be provided by PBGC in the future to multiemployer plans
                                                                                                                      that will not be able to meet their benefit obligations. The present value of
                                                                                                                      nonrecoverable future financial assistance is based on the difference between the
                                                                                                                      present value of future guaranteed benefits and expenses and the market value of plan
                                                                                                                      assets, including the present value of future amounts expected to be paid by
                                                                                                                      employers, for those plans that are expected to require future assistance.

                                                                                                                      Derivatives are accounted for at fair market value in accordance with the FASB
                                                                                                                      Accounting Standards Codification Section 815. Derivatives are marked to market with
                                                                                                                      changes in value reported as a component of financial income on the Statements of
                                                                                                                      Operations and Changes in Net Position. PBGC presents all derivatives at fair value on
                                                                                                                      the Statements of Financial Position.

                                                                                                                      PBGC, through its investment managers, invested in investment products that used
                                                                                                                      various U.S. and non-U.S. derivative instruments including but not limited to: S&P 500
                                                                                                                      index futures, options, money market futures, government bond futures, interest rate,
                                                                                                                      credit default and total return swaps and swaption contracts, stock warrants and rights,
                                                                                                                      debt option contracts, and foreign currency forward and option contracts.




                                                                                                             - 51 -
                                                                                                                                                                                 11/15/2013 22:23:35

                                                                                 U.S. Department of the Treasury
                                                                                  Financial Management Service
                                                                             Governmentwide Financial Report System
                                                                                     GF006 - FR Notes Report

     Note: 17           Prior-Period Adjustments                                                                             Fiscal Year: 2013              Period: SEPTEMBER
     Entity: 1602       PENSION BENEFIT GUARANTY CORPORATION                                                                 Agency Notes:    Statements of Financial Position

  Status: Complete                        The accompanying notes are an integral part of these financial statements.      I = Inactive Line

Tab: Other Notes Info.

       Section: A            Section Name: Non-Federal Prior-Period Adjustments - Restated        No Data Flag: YES      Line Attributes: Dollars
                                                                                                                       Rounding Method: Millions                        Decimal: Zero
Line Status Line Description        NB                Amount C
 1                                  N/A
 2                                  N/A
 3                                  N/A
 4                                  N/A
 5                                  N/A
 6                                  N/A
 7                                  N/A
 8                                  N/A
 9                                  N/A
10                                  N/A
11              Total               N/A
       Section: B            Section Name: Federal Prior-Period Adjustments - Restated            No Data Flag: YES      Line Attributes: Dollars
                                                                                                                       Rounding Method: Millions                        Decimal: Zero
Line Status Line Description        NB                Amount C
 1                                  N/A
 2                                  N/A
 3                                  N/A
 4                                  N/A
 5                                  N/A
 6                                  N/A
 7                                  N/A
 8                                  N/A
 9                                  N/A
10                                  N/A
11              Total               N/A




                                                                                                    - 52 -
                                                                                                                                                                                 11/15/2013 22:23:35

                                                                                  U.S. Department of the Treasury
                                                                                   Financial Management Service
                                                                              Governmentwide Financial Report System
                                                                                      GF006 - FR Notes Report

     Note: 17           Prior-Period Adjustments                                                                             Fiscal Year: 2013              Period: SEPTEMBER
     Entity: 1602       PENSION BENEFIT GUARANTY CORPORATION                                                                 Agency Notes:    Statements of Financial Position

  Status: Complete                        The accompanying notes are an integral part of these financial statements.      I = Inactive Line


       Section: C            Section Name: Non-Federal Correction of Errors                       No Data Flag: YES      Line Attributes: Dollars
                                                                                                                       Rounding Method: Millions                        Decimal: Zero
Line Status Line Description        NB                Amount C
 1                                  N/A
 2                                  N/A
 3                                  N/A
 4                                  N/A
 5                                  N/A
 6                                  N/A
 7                                  N/A
 8                                  N/A
 9                                  N/A
10                                  N/A
11              Total               N/A
       Section: D            Section Name: Federal Correction of Errors                           No Data Flag: YES      Line Attributes: Dollars
                                                                                                                       Rounding Method: Millions                        Decimal: Zero
Line Status Line Description        NB                Amount C
 1                                  N/A
 2                                  N/A
 3                                  N/A
 4                                  N/A
 5                                  N/A
 6                                  N/A
 7                                  N/A
 8                                  N/A
 9                                  N/A
10                                  N/A
11              Total               N/A




                                                                                                    - 53 -
                                                                                                                                                                                 11/15/2013 22:23:35

                                                                                 U.S. Department of the Treasury
                                                                                  Financial Management Service
                                                                             Governmentwide Financial Report System
                                                                                     GF006 - FR Notes Report

     Note: 17           Prior-Period Adjustments                                                                             Fiscal Year: 2013              Period: SEPTEMBER
     Entity: 1602       PENSION BENEFIT GUARANTY CORPORATION                                                                 Agency Notes:    Statements of Financial Position

  Status: Complete                        The accompanying notes are an integral part of these financial statements.      I = Inactive Line


       Section: E            Section Name: Non-Federal Immaterial Errors                          No Data Flag: YES      Line Attributes: Dollars
                                                                                                                       Rounding Method: Millions                        Decimal: Zero
Line Status Line Description        NB                Amount C
 1                                  N/A
 2                                  N/A
 3                                  N/A
 4                                  N/A
 5                                  N/A
 6                                  N/A
 7                                  N/A
 8                                  N/A
 9                                  N/A
10                                  N/A
11              Total               N/A
       Section: F            Section Name: Federal Immaterial Errors                              No Data Flag: YES      Line Attributes: Dollars
                                                                                                                       Rounding Method: Millions                        Decimal: Zero
Line Status Line Description        NB                Amount C
 1                                  N/A
 2                                  N/A
 3                                  N/A
 4                                  N/A
 5                                  N/A
 6                                  N/A
 7                                  N/A
 8                                  N/A
 9                                  N/A
10                                  N/A
11              Total               N/A




                                                                                                    - 54 -
                                                                                                                                                                                   11/15/2013 22:23:35

                                                                                   U.S. Department of the Treasury
                                                                                    Financial Management Service
                                                                               Governmentwide Financial Report System
                                                                                       GF006 - FR Notes Report

     Note: 17             Prior-Period Adjustments                                                                             Fiscal Year: 2013              Period: SEPTEMBER
     Entity: 1602         PENSION BENEFIT GUARANTY CORPORATION                                                                 Agency Notes:    Statements of Financial Position

  Status: Complete                          The accompanying notes are an integral part of these financial statements.      I = Inactive Line


       Section: G              Section Name: Closing Package Adjustments                                                   Line Attributes: Dollars
                                                                                                                         Rounding Method: Millions                        Decimal: Zero
Line Status Line Description          NB                Amount C
 1              Statements of         N/A                       -367
                Financial Position-
                Equity Securities
 2              Statements of         N/A                         367
                Financial Position-
                Real estate and
                real estate
                investment trusts
 3              Statements of         N/A                          15
                Financial Position-
                Cash and cash
                equivalents
 4              Statements of         N/A                         -15
                Financial Position-
                Fixed maturity
                securities
 5              Statements of         N/A                         789
                Financial Position-
                Fixed maturity
                securities
 6              Statements of         N/A                       -789
                Financial Position-
                Equity Securities
 7                                    N/A
 8                                    N/A
 9                                    N/A
10                                    N/A
11              Total                 N/A                           0




                                                                                                      - 55 -
                                                                                                                                                                                                11/15/2013 22:23:35

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

    Note: 17          Prior-Period Adjustments                                                                                        Fiscal Year: 2013                  Period: SEPTEMBER
    Entity: 1602       PENSION BENEFIT GUARANTY CORPORATION                                                                           Agency Notes:       Statements of Financial Position

 Status: Complete                         The accompanying notes are an integral part of these financial statements.               I = Inactive Line

Tab: Text Data
Line               Question                                                                                         Answer
1                  Describe the restatements to the prior year that resulted from correcting errors that occurred   1). N/A
                   in the prior year (data reported in Sections A and B).
2                  Describe any errors that occurred in years preceding the prior year that adjusted the prior-     2). N/A
                   year beginning net position (data reported in Sections C and D).
3                  Describe any immaterial errors that occurred in the prior period(s) that were corrected          3). N/A
                   against the current-year operations (data reported in Sections E and F).
4                  Describe any adjustments of the previous year (2011) reclassification in this year's (2012)      4). As of 09/30/2012, $367 million pool fund real estate was recorded as pool fund
                   Closing Package prior-year (2011) reporting (data reported in Section G), excluding              equity on the Statements of Financial Position. In FY 2013, PBGC reclassified the $367
                   amounts reported as restatements in Section A and B.                                             million from the equity security to real estate and real estate investment trusts, which
                                                                                                                    resulted in increase of $367 million in Real estate and real estate investment trusts and
                                                                                                                    a $367 million decrease in Equity securities. This reclassification has no impact in the
                                                                                                                    total investment or net position reported on FY 2012 Statements of Financial Position.

                                                                                                                    As of 09/30/2012, $15 million in Foreign cash was recorded as Foreign investment fixed
                                                                                                                    on the Statements of Financial Position. In FY 2013, PBGC reclassified the $15 million
                                                                                                                    from Foreign investment fixed to Foreign Cash, which resulted in an increase of $15
                                                                                                                    million increase in Cash and cash equivalents and a $15 million decrease in Fixed
                                                                                                                    maturity securities. This reclassification has no impact in the total investment or net
                                                                                                                    position reported on FY 2012 Statements of Financial Position.

                                                                                                                    As of 09/30/2012, a $789 million pool fund fixed investment was recorded as a pool fund
                                                                                                                    equity investment on the Statements of Financial Position. In FY 2013, PBGC
                                                                                                                    reclassified the $789 million from the equity security to fixed securities, which resulted
                                                                                                                    in increase of $789 million in Fixed maturity securities and a $789 million decrease in
                                                                                                                    Equity securities. This reclassification has no impact in the total investment or net
                                                                                                                    position reported on FY 2012 Statements of Financial Position.

5                  Describe the adjustments to the current-year or prior-year beginning net position that           5). N/A
                   resulted from changes in accounting principles as reported on the Reclassified Statement of
                   Changes in Net Position, line 2.1 and/or line 3.1.
6                  Provide any other relevant information pertaining to this note. At a minimum, describe briefly   6). N/A
                   the significant accounting policies pertaining to this note.




                                                                                                           - 56 -
                                                                                                                                                                                             11/15/2013 22:23:35

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

     Note: 18            Contingencies (SFFAS Nos. 5 and 12)                                                                          Fiscal Year: 2013                 Period: SEPTEMBER
     Entity: 1602        PENSION BENEFIT GUARANTY CORPORATION                                                                         Agency Notes:        AR - Notes 2, 9 and 16

  Status: Complete                            The accompanying notes are an integral part of these financial statements.           I = Inactive Line

Tab: Other Notes Info.

       Section: A             Section Name: Insurance Contingencies (Reasonably Possible Only)                                    Line Attributes: Dollars
                                                                                                                                Rounding Method: Millions                           Decimal: Zero
Line Status Line Description          NB        2013 - SEPTEMBER             2012 - SEPTEMBER               Previously Rptd      Line Item Changes
 1              PBGC Defined         Credit                     292,207                    294,963                    294,963                          0
                Pension Plan
                (Single-employer)
 2              PBGC Defined         Credit                      36,718                     26,809                     26,809                          0
                Pension Plan
                (Multi-employer)
 4                                   Credit
 5                                   Credit
 6                                   Credit
 7                                   Credit
 8                                   Credit
 9              Other insurance      Credit
                contingencies
10              Total                 N/A                     -328,925                   -321,772                   -321,772                           0
       Section: B             Section Name: Insurance in force (Sum of Policy Face Value and          No Data Flag: YES           Line Attributes: Dollars
                                            Dividends Paid)                                                                     Rounding Method: User-Defined                       Decimal: User-Defined
Line Status Line Description          NB        2013 - SEPTEMBER             2012 - SEPTEMBER               Previously Rptd      Line Item Changes
 3        I                          Credit
 4        I                          Credit
 5        I                          Credit
 6        I                          Credit
 7        I                          Credit
 8        I     Other insurance in   Credit
                force
 9        I     Total                Debit




                                                                                                        - 57 -
                                                                                                                                                                                          11/15/2013 22:23:35

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

     Note: 18              Contingencies (SFFAS Nos. 5 and 12)                                                                        Fiscal Year: 2013              Period: SEPTEMBER
     Entity: 1602          PENSION BENEFIT GUARANTY CORPORATION                                                                       Agency Notes:     AR - Notes 2, 9 and 16

  Status: Complete                            The accompanying notes are an integral part of these financial statements.           I = Inactive Line


       Section: C              Section Name: Civil Litigation, Claims and Assessments                 No Data Flag: YES           Line Attributes: Dollars
                                                                                                                                Rounding Method: Millions                        Decimal: Zero
Line Status Line Description          NB        CYAccrued/Estimated      CY Estimated Range(Low           CY Estimated Range CY Claim amount(Unable           PYAccrued/Estimated PY Estimated Range(Low
                                                          amount                          end)                   (High end)      to determine loss)          amount rued/Estimated                 end)
                                                                                                                                                                         amount
 1              Probable             Credit
 2              Reasonably           Credit
                Possible
Line Status Line Description           NB        PY Estimated Range        PY Claim amunt (unable
                                                         (High end)                to determine)
 1              Probable             Credit
 2              Reasonably           Credit
                Possible
       Section: D              Section Name: Environmental Litigation, Claims, and Assessments        No Data Flag: YES           Line Attributes: Dollars
                                                                                                                                Rounding Method: User-Defined                    Decimal: User-Defined
Line Status Line Description          NB        CYAccrued/Estimated           CY Estimated Range          CY Estimated Range   CY Claim amunt(unable         PY Accrued/Estimated       PY Estimated Range
                                                          amount                      (Low end)                  (High end)            to determine)                    amount                  (Low end)
 1              Probable             Credit
 2              Reasonably           Credit
                Possible
Line Status Line Description           NB        PY Estimated Range      PY Claim amount (unable
                                                      (High Range)                 to determine)
 1              Probable             Credit
 2              Reasonably           Credit
                Possible
       Section: E              Section Name: Other Contingencies                                      No Data Flag: YES           Line Attributes: Dollars
                                                                                                                                Rounding Method: User-Defined                    Decimal: User-Defined
Line Status Line Description          NB               CY Probable        CY Reasonably Possible                 PY Probable   PY Reasonably Possible

 3                                   Credit
 4                                   Credit
 5                                   Credit




                                                                                                        - 58 -
                                                                                                                                                                                                  11/15/2013 22:23:35

                                                                                      U.S. Department of the Treasury
                                                                                       Financial Management Service
                                                                                  Governmentwide Financial Report System
                                                                                          GF006 - FR Notes Report

    Note: 18          Contingencies (SFFAS Nos. 5 and 12)                                                                               Fiscal Year: 2013                  Period: SEPTEMBER
    Entity: 1602      PENSION BENEFIT GUARANTY CORPORATION                                                                              Agency Notes:       AR - Notes 2, 9 and 16

 Status: Complete                         The accompanying notes are an integral part of these financial statements.                I = Inactive Line

Tab: Text Data
Line               Question                                                                                          Answer
1                  Provide the nature of the isurance contingencies.                                                 1). In accordance with the FASB Accounting Standards Codification Section 450,
                                                                                                                     Contingencies, PBGC classified a number of companies as reasonably possible rather
                                                                                                                     than probable terminations, reflecting the sponsors' financial condition and other factors
                                                                                                                     did not indicate that termination of their plans was likely. This classification was done
                                                                                                                     based upon information about the companies as of September 30, 2013.

                                                                                                                     The estimate of unfunded vested benefits exposure to loss for the single-employer
                                                                                                                     plans of these companies was measured as of December 31, 2012. The reasonably
                                                                                                                     possible exposure to loss in these plans was $292,207 million for FY 2013. This is a
                                                                                                                     slight decrease of $2,756 million from the reasonably possible exposure of $294,963
                                                                                                                     million in FY 2012. This decrease is primarily due to a decline in the aggregate liability
                                                                                                                     for plans classified as reasonably possible.

                                                                                                                     There are some multiemployer plans that may require future financial assistance.
                                                                                                                     PBGC included amounts in the liability for the present value of nonrecoverable future
                                                                                                                     financial assistance for multiemployer plans that PBGC estimated may require future
                                                                                                                     financial assistance. In addition, PBGC estimated as of September 30, 2013, that it is
                                                                                                                     reasonably possible that other multiemployer plans may require future financial
                                                                                                                     assistance in the amount of $36,718 million.
2                  Provide the nature of the litigation contingencies, including the range of loss for probable      2). N/A
                   liabilities.
3                  Provide the nature of the litigation contingencies including the range of loss for reasonably     3). Legal challenges to PBGC's policies and positions continued in FY 2013. At the end
                   possible contingencies.                                                                           of the fiscal year, PBGC had 53 active cases in state and federal courts and 350
                                                                                                                     bankruptcy and state receivership cases.

                                                                                                                     PBGC records as a liability on its financial statements an estimated cost for unresolved
                                                                                                                     litigation to the extent that losses in such cases are probable and estimable in amount.
                                                                                                                     PBGC cannot estimate with any degree of certainty the possible losses it could incur in
                                                                                                                     the event it does not prevail in these matters.

4                  Provide the total claim amount for cases assessed as "unable to determine" if significant.        4). N/A
                   Also, provide a statement on whether this materiality affects the financial statements.
5                  Describe the other claims that may derive from treaties or international agreements.              5). N/A
6                  Provide any other relevant information pertaining to this note. At a minimum, describe briefly    6). PBGC criteria for a single-employer plan sponsor to be classified as Reasonably
                   the significant accounting policies pertaining to this note.                                      Possible are:
                                                                                                                     a. The sponsor(s) or significant member(s) of its controlled group (e.g., a parent or
                                                                                                                     major subsidiary) is in reorganization under Title 11 of the United States code
                                                                                                                     b. An application for a funding waiver is pending or outstanding with the IRS
                                                                                                                     c. A minimum funding contribution has been missed
                                                                                                                     d. The sponsor(s) has an S&P senior unsecured credit rating or an issuer credit rating
                                                                                                                     less two notches of BB+ or below, or a Moody's senior unsecured credit rating or a
                                                                                                                     corporate family rating less one notch of Ba1 or below. If the controlled group is not
                                                                                                                     rated by Moody's and S&P, PBGC will use the Dun & Bradstreet Financial Stress Score
                                                                                                                     (if available) to classify the controlled group as Reasonably Possible or Remote


                                                                                                            - 59 -
                                                                                                                                                                                         11/15/2013 22:23:35

                                                                            U.S. Department of the Treasury
                                                                             Financial Management Service
                                                                        Governmentwide Financial Report System
                                                                                GF006 - FR Notes Report

   Note: 18         Contingencies (SFFAS Nos. 5 and 12)                                                                         Fiscal Year: 2013                  Period: SEPTEMBER
  Entity: 1602      PENSION BENEFIT GUARANTY CORPORATION                                                                        Agency Notes:       AR - Notes 2, 9 and 16

 Status: Complete                    The accompanying notes are an integral part of these financial statements.              I = Inactive Line

Tab: Text Data
Line             Question                                                                                     Answer
                                                                                                              e. The sponsor(s) has no bond rating, but analysis indicates that its unsecured debt
                                                                                                              would be below investment grade.
                                                                                                              f. The sponsor(s) meet at least one of the PBGC "high risk" criteria.
                                                                                                              g. Other (detailed explanation must be provided and be approved by PBGC's
                                                                                                              Contingency Working Group).
                                                                                                              PBGC calculated the future financial assistance liability for each multiemployer plan
                                                                                                              identified as probable, or reasonably possible. PBGC used a formula taking the present
                                                                                                              value of guaranteed future benefits and expense payments net of any future
                                                                                                              contributions or withdrawal liability payments. These amounts were as of the later of
                                                                                                              September 30, 2013, or the projected (or actual, if known) date of plan insolvency,
                                                                                                              discounted back to September 30, 2013. PBGC's identification of plans that are likely
                                                                                                              to require such assistance and estimation of related amounts required consideration of
                                                                                                              many complex factors, including estimating future cash flows, future mortality rates, and
                                                                                                              age of participants not in pay status. These factors are affected by future events,
                                                                                                              including actions by plans and their sponsors, most of which are beyond PBGC's
                                                                                                              control.




                                                                                               - 60 -
                                                                                                                                                                                                   11/15/2013 22:23:35

                                                                                        U.S. Department of the Treasury
                                                                                         Financial Management Service
                                                                                    Governmentwide Financial Report System
                                                                                            GF006 - FR Notes Report

     Note: 19              Commitments                                                                                                   Fiscal Year: 2013                     Period: SEPTEMBER
     Entity: 1602          PENSION BENEFIT GUARANTY CORPORATION                                                                          Agency Notes:          AR - Note 10

  Status: Complete                              The accompanying notes are an integral part of these financial statements.            I = Inactive Line

Tab: Other Notes Info.

       Section: A               Section Name: Capital leases-Asset                                        No Data Flag: YES          Line Attributes: Dollars
                                                                                                                                   Rounding Method: User-Defined                         Decimal: User-Defined
Line Status Line Description            NB                CY Federal               CY Non-Federal                     PY Federal       PY Non-Federal
 1              Building               Debit
 2              Land                   Debit
 3              Equipment              Debit
 4              Software license       Debit
 5              Other                  Debit
 6              Accumulated            Credit
                depreciation/amorti
                zation
 7              Net assets under        N/A
                capital leases
       Section: B               Section Name: Capital leases - Liability                                  No Data Flag: YES          Line Attributes: Dollars
                                                                                                                                   Rounding Method: User-Defined                         Decimal: User-Defined
Line Status Line Description            NB                 CY Federal              CY Non-Federal                     PY Federal       PY Non-Federal
 1              Future minimum         Credit
                lease programs
 2              Imputed interest       Debit
 3              Executory costs        Debit
                including any profit
 4              Total capital lease     N/A
                liability


       Section: C               Section Name: Commitments: Operating leases and undelivered                                          Line Attributes: Dollars
                                              orders                                                                               Rounding Method: Millions                             Decimal: Zero
Line Status Line Description            NB                CY Federal               CY Non-Federal                     PY Federal      PY Non-Federal
 1              Operating leases       Credit                                                     112                                                     131
 2            Undelivered orders Credit                                 10                        141                         17                          159
Threshold
 Line Description                                                   Question                                                          Answer
 Other Notes Info - Operating leases (CY Non-Federal)               Please provide explanations for any amounts that have             Operating lease commitments (Non-Federal) decreased in FY 2013
                                                                    changed by 10% or more and or greater than $500,000               because of a decrease in Future lease payments of PBGC's existing office
                                                                    between the current fiscal year and prior fiscal year.            facilities. The current facility lease expires in the beginning of FY 2019, and
                                                                    (unaudited)                                                       as such, is not a full fiscal year.



                                                                                                             - 61 -
                                                                                                                                                                                                       11/15/2013 22:23:35

                                                                                          U.S. Department of the Treasury
                                                                                           Financial Management Service
                                                                                      Governmentwide Financial Report System
                                                                                              GF006 - FR Notes Report

     Note: 19              Commitments                                                                                                          Fiscal Year: 2013                 Period: SEPTEMBER
     Entity: 1602          PENSION BENEFIT GUARANTY CORPORATION                                                                                 Agency Notes:      AR - Note 10

  Status: Complete                              The accompanying notes are an integral part of these financial statements.                   I = Inactive Line


       Section: C                Section Name: Commitments: Operating leases and undelivered                                               Line Attributes: Dollars
                                               orders                                                                                    Rounding Method: Millions                           Decimal: Zero
Threshold
 Line Description                                                    Question                                                                Answer
 Other Notes Info - Undelivered orders (CY Federal)                  Please provide explanations for any amounts that have                   PBGC has experienced an decrease in contractual services from FY 2012 to
                                                                     changed by 10% or more and or greater than $500,000                     FY 2013.
                                                                     between the current fiscal year and prior fiscal year.
                                                                     (unaudited)
 Other Notes Info - Undelivered orders (CY Non-Federal)              Please provide explanations for any amounts that have                   Non-Federal Undelivered orders decreased in FY 2013 because the
                                                                     changed by 10% or more and or greater than $500,000                     amount of contracts paid in FY 2013 was higher than the amount of new
                                                                     between the current fiscal year and prior fiscal year.                  contracts obligated. There were more contract payments in FY 2013 than in
                                                                     (unaudited)                                                             FY 2012.

       Section: D                Section Name: Other Commitments                                             No Data Flag: YES             Line Attributes: Dollars
                                                                                                                                         Rounding Method: User-Defined                       Decimal: User-Defined
Line Status Line Description            NB                CY Federal                 CY Non-Federal                      PY Federal          PY Non-Federal
 9                                     Credit
10                                     Credit
11                                     Credit
12                                     Credit
13                                     Credit
14              Total                   N/A


Tab: Text Data
 Line                   Question                                                                                              Answer
 1                      Describe the lessee's leasing arrangements including the basis on which contingent rental             1). PBGC leases its office facility under a commitment that began on January 1, 2005,
                        payments are determined, the existence and terms of renewal or purchase options,                      and expires December 10, 2018. This lease provides for periodic rate increases based
                        escalation clauses and restrictions imposed by lease agreements.                                      on increases in operating costs and real estate taxes over a base amount. In addition,
                                                                                                                              PBGC is leasing space for field benefit administrators. These leases began in 1996
                                                                                                                              and expire in 2018.
 2                      Explain any amounts listed in Section D in detail and reference the note, and/or location, in         2). N/A
                        the agency¿s Performance and Accountability Report (PAR).
 3                      Provide any other relevant information pertaining to this note. At a minimum, describe briefly        3). Commitments represent an obligation to make future payments in exchange for
                        the significant accounting policies pertaining to this note.                                          thereceipt of an asset or benefit. Operating leases having initial remaining non-
                                                                                                                              cancellable lease terms in excess of one year shall be disclosed in the financial
                                                                                                                              statements or the related footnotes.




                                                                                                                - 62 -
                                                                                                                                                                                           11/15/2013 22:23:35

                                                                                    U.S. Department of the Treasury
                                                                                     Financial Management Service
                                                                                Governmentwide Financial Report System
                                                                                        GF006 - FR Notes Report

     Note: 22            Funds From Dedicated Collections                                                                             Fiscal Year: 2013                Period: SEPTEMBER
  Entity: 1602            PENSION BENEFIT GUARANTY CORPORATION                                                                        Agency Notes:      N/A

  Status: Complete                           The accompanying notes are an integral part of these financial statements.            I = Inactive Line

Tab: Other Notes Info.

      Section: A               Section Name: Assets - Current Year                                   No Data Flag: YES             Line Attributes: Dollars
                                                                                                                                 Rounding Method: User-Defined                    Decimal: User-Defined
Line Status Line Description           NB           Cash and other             Fund balance with           Inv in U. S. Treas.   Interest Receivable D           Other Federal Assets   Other Federal Assets
                                                 monetary assets D                  Treasury D       Sec.(net of prem. & disc)                                 (Funds from Dedicated (Funds not From Dedicat
                                                                                                                            D                                              Collec) D                Coll) D
26                                     N/A
27                                     N/A
28                                     N/A
29                                     N/A
30                                     N/A
31              All other funds from   N/A
                dedicated
                collections
32              Intra-agency funds     N/A
                from dedicated
                collections
                elimination
                amounts
33              Total                  N/A

Line Status Line Description           NB         Other non-Federal                 Total assets
                                                          Assets D
26                                     N/A
27                                     N/A
28                                     N/A
29                                     N/A
30                                     N/A
31              All other funds from   N/A
                dedicated
                collections
32              Intra-agency funds     N/A
                from dedicated
                collections
                elimination
                amounts
33              Total                  N/A




                                                                                                        - 63 -
                                                                                                                                                                                         11/15/2013 22:23:35

                                                                                    U.S. Department of the Treasury
                                                                                     Financial Management Service
                                                                                Governmentwide Financial Report System
                                                                                        GF006 - FR Notes Report

     Note: 22            Funds From Dedicated Collections                                                                              Fiscal Year: 2013             Period: SEPTEMBER
  Entity: 1602            PENSION BENEFIT GUARANTY CORPORATION                                                                         Agency Notes:      N/A

  Status: Complete                           The accompanying notes are an integral part of these financial statements.             I = Inactive Line


      Section: B               Section Name: Assets - Prior Year                                     No Data Flag: YES              Line Attributes: Dollars
                                                                                                                                  Rounding Method: User-Defined                 Decimal: User-Defined
Line Status Line Description           NB           Cash and other             Fund balance with       Inv. in U.S. Treas. Sec.   Interest Receivable D       Other Federal assets      Other Federal Assets
                                                 monetary assets D                  Treasury D       (net of prem. & disc.) D                               (Funds From Dedicated    (Funds not from Dedicat
                                                                                                                                                                        Collec) D                   Coll) D
26                                     N/A
27                                     N/A
28                                     N/A
29                                     N/A
30                                     N/A
31              All other funds from   N/A
                dedicated
                collections
32              Intra-agency funds     N/A
                from dedicated
                collections
                elimination
                amounts
33              Total                  N/A

Line Status Line Description           NB         Other non-Federal                 Total assets
                                                          assets D
26                                     N/A
27                                     N/A
28                                     N/A
29                                     N/A
30                                     N/A
31              All other funds from   N/A
                dedicated
                collections
32              Intra-agency funds     N/A
                from dedicated
                collections
                elimination
                amounts
33              Total                  N/A




                                                                                                       - 64 -
                                                                                                                                                                                            11/15/2013 22:23:35

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

     Note: 22            Funds From Dedicated Collections                                                                           Fiscal Year: 2013             Period: SEPTEMBER
  Entity: 1602            PENSION BENEFIT GUARANTY CORPORATION                                                                      Agency Notes:       N/A

  Status: Complete                           The accompanying notes are an integral part of these financial statements.          I = Inactive Line


      Section: C               Section Name: Liabilities and Net Position - Current Year             No Data Flag: YES           Line Attributes: Dollars
                                                                                                                               Rounding Method: User-Defined                       Decimal: User-Defined
Line Status Line Description           NB           Benefits due and       Other Fed. Liab. (Funds   Other Fed. Liab. (Funds      Other non-Federal            Total liabilities        Ending net position C
                                                         payable C                From Dedicated         not from Dedicated             liabilities C
                                                                                    Collection) C                 Collec) C
26                                     N/A
27                                     N/A
28                                     N/A
29                                     N/A
30                                     N/A
31              All other funds from   N/A
                dedicated
                collections
32              Intra-agency funds     N/A
                from dedicated
                collections
                elimination
                amounts
33              Total                  N/A

Line Status Line Description           NB     Total liabilities and net
                                                             position
26                                     N/A
27                                     N/A
28                                     N/A
29                                     N/A
30                                     N/A
31              All other funds from   N/A
                dedicated
                collections
32              Intra-agency funds     N/A
                from dedicated
                collections
                elimination
                amounts
33              Total                  N/A




                                                                                                       - 65 -
                                                                                                                                                                                            11/15/2013 22:23:35

                                                                                      U.S. Department of the Treasury
                                                                                       Financial Management Service
                                                                                  Governmentwide Financial Report System
                                                                                          GF006 - FR Notes Report

     Note: 22            Funds From Dedicated Collections                                                                           Fiscal Year: 2013             Period: SEPTEMBER
  Entity: 1602            PENSION BENEFIT GUARANTY CORPORATION                                                                      Agency Notes:       N/A

  Status: Complete                           The accompanying notes are an integral part of these financial statements.          I = Inactive Line


      Section: D               Section Name: Liabilities and Net Position - Prior Year               No Data Flag: YES           Line Attributes: Dollars
                                                                                                                               Rounding Method: User-Defined                       Decimal: User-Defined
Line Status Line Description           NB           Benefits due and       Other Fed. Liab. (Funds   Other Fed. Liab. (Funds      Other non-Federal            Total liabilities        Ending net position C
                                                         payable C                From Dedicated         not from Dedicated             liabilities C
                                                                                    Collection) C                 Collec) C
26                                     N/A
27                                     N/A
28                                     N/A
29                                     N/A
30                                     N/A
31              All other funds from   N/A
                dedicated
                collections
32              Intra-agency funds     N/A
                from dedicated
                collections
                elimination
                amounts
33              Total                  N/A

Line Status Line Description           NB     Total liabilities and net
                                                             position
26                                     N/A
27                                     N/A
28                                     N/A
29                                     N/A
30                                     N/A
31              All other funds from   N/A
                dedicated
                collections
32              Intra-agency funds     N/A
                from dedicated
                collections
                elimination
                amounts
33              Total                  N/A




                                                                                                       - 66 -
                                                                                                                                                                                      11/15/2013 22:23:35

                                                                                    U.S. Department of the Treasury
                                                                                     Financial Management Service
                                                                                Governmentwide Financial Report System
                                                                                        GF006 - FR Notes Report

     Note: 22            Funds From Dedicated Collections                                                                             Fiscal Year: 2013            Period: SEPTEMBER
  Entity: 1602            PENSION BENEFIT GUARANTY CORPORATION                                                                        Agency Notes:    N/A

  Status: Complete                           The accompanying notes are an integral part of these financial statements.            I = Inactive Line


      Section: E               Section Name: Revenue, Financing, Expenses, and Other - Current       No Data Flag: YES            Line Attributes: Dollars
                                             Year                                                                               Rounding Method: User-Defined               Decimal: User-Defined
Line Status Line Description           NB              Net position,     Prior-period adjustment     Investment revenue from   Individual income taxes Unemployment and excise   Other taxes and receipts
                                              beginning of period C                            C       Treasury Securities C   and payroll tax withhold               taxes C                          C
                                                                                                                                                     C
26                                     N/A
27                                     N/A
28                                     N/A
29                                     N/A
30                                     N/A
31              All other funds from   N/A
                dedicated
                collections
32              Intra-agency funds     N/A
                from dedicated
                collections
                elimination
                amounts
33              Total                  N/A

Line Status Line Description           NB        Royalties and other           All other financing     Program gross cost or          Program earned      Non-program expenses       Net position, end of
                                                 special revenue C                    sources C          benefit payments D              revenues D                          D                   period
26                                     N/A
27                                     N/A
28                                     N/A
29                                     N/A
30                                     N/A
31              All other funds from   N/A
                dedicated
                collections
32              Intra-agency funds     N/A
                from dedicated
                collections
                elimination
                amounts
33              Total                  N/A




                                                                                                        - 67 -
                                                                                                                                                                                      11/15/2013 22:23:35

                                                                                    U.S. Department of the Treasury
                                                                                     Financial Management Service
                                                                                Governmentwide Financial Report System
                                                                                        GF006 - FR Notes Report

     Note: 22            Funds From Dedicated Collections                                                                             Fiscal Year: 2013            Period: SEPTEMBER
  Entity: 1602            PENSION BENEFIT GUARANTY CORPORATION                                                                        Agency Notes:    N/A

  Status: Complete                           The accompanying notes are an integral part of these financial statements.            I = Inactive Line


      Section: F               Section Name: Revenue, Financing, Expenses, and Other - Prior         No Data Flag: YES            Line Attributes: Dollars
                                             Year                                                                               Rounding Method: User-Defined               Decimal: User-Defined
Line Status Line Description           NB              Net position,     Prior-period adjustment     Investment revenue from   Individual income taxes Unemployment and excise   Other taxes and receipts
                                              beginning of period C                            C       Treasury Securities C   and payroll tax withhold               taxes C                          C
                                                                                                                                                     C
26                                     N/A
27                                     N/A
28                                     N/A
29                                     N/A
30                                     N/A
31              All other funds from   N/A
                dedicated
                collections
32              Intra-agency funds     N/A
                from dedicated
                collections
                elimination
                amounts
33              Total                  N/A

Line Status Line Description           NB        Royalties and other           All other financing     Program gross cost or          Program earned      Non-program expenses       Net position, end of
                                                 special revenue C                    sources C          benefit payments D              revenues D                          D                   period
26                                     N/A
27                                     N/A
28                                     N/A
29                                     N/A
30                                     N/A
31              All other funds from   N/A
                dedicated
                collections
32              Intra-agency funds     N/A
                from dedicated
                collections
                elimination
                amounts
33              Total                  N/A




                                                                                                        - 68 -
                                                                                                                                                                                 11/15/2013 22:23:35

                                                                                        U.S. Department of the Treasury
                                                                                         Financial Management Service
                                                                                    Governmentwide Financial Report System
                                                                                            GF006 - FR Notes Report

     Note: 22            Funds From Dedicated Collections                                                                                 Fiscal Year: 2013      Period: SEPTEMBER
     Entity: 1602        PENSION BENEFIT GUARANTY CORPORATION                                                                             Agency Notes:    N/A

  Status: Complete                          The accompanying notes are an integral part of these financial statements.                 I = Inactive Line


       Section: G             Section Name: Number of Agency Funds From Dedicated                          No Data Flag: YES          Line Attributes: Units
                                            Collections
Line Status Line Description          NB       2013 - SEPTEMBER                2012 - SEPTEMBER                    Previously Rptd    Line Item Changes
 1              Total number of       N/A
                funds from
                dedicated
                collections




Tab: Text Data                          No Data Flag: YES
 Line                Question                                                                                                Answer
 1                   Provide a general description of the individual funds from dedicated collections reported in
                     the Other Notes Info tab (SFFAS No. 27, par. 33, as amended by SFFAS No. 43). Also
                     describe how the entity accounts for and reports the fund (SFFAS No. 27, par. 23.1, as
                     amended by SFFAS No. 43).
 2                   State the legal authority for the administrative entity of each fund to use the revenues and
                     other financing sources based on SFFAS No. 27, par. 23.1, as amended by SFFAS No. 43.
 3                   Explain any change in legislation during or subsequent to the reporting period and before the
                     issuance of the financial statements that significantly change the purpose of the fund or that
                     redirect a material portion of the accumulated balance (SFFAS No. 27, par. 23.3, as
                     amended by SFFAS No. 43).
 4                   Provide the sources of revenue and other financing for amounts reported in columns 3
                     through 8 of Sections E and F in the Other Notes Info tab (SFFAS No. 27, par. 23.2, as
                     amended by SFFAS No. 43).
 5                   Provide any other relevant information pertaining to this note, including explanation for prior-
                     period adjustments, if any. At a minimum, describe briefly the significant accounting policies
                     pertaining to this note.




                                                                                                              - 69 -
                                                                                                                                                                             11/15/2013 22:23:35

                                                                                      U.S. Department of the Treasury
                                                                                       Financial Management Service
                                                                                  Governmentwide Financial Report System
                                                                                          GF006 - FR Notes Report

     Note: 25            Stewardship Land                                                                                             Fiscal Year: 2013      Period: SEPTEMBER
     Entity: 1602        PENSION BENEFIT GUARANTY CORPORATION                                                                         Agency Notes:    N/A

  Status: Complete                          The accompanying notes are an integral part of these financial statements.             I = Inactive Line


       Section: A             Section Name: Stewardship Land (SFFAS No. 29, par. 40d)                   No Data Flag: YES         Line Attributes: Units


Line Status Line Description         NB       2013 - SEPTEMBER               2012 - SEPTEMBER                  Previously Rptd    Line Item Changes
 1              Public Land          N/A
 2              National Forest      N/A
                System
 3              National Wildlife    N/A
                Refuge System
 4              National Park        N/A
                System
 5              Withdrawn public     N/A
                land
 6              Mission Land         N/A
 7              Water, power,and     N/A
                recreation
 8              Geographic           N/A
                management areas
 9              National fish        N/A
                hatcheries
10              Conservation areas   N/A
11          National marine          N/A
            monuments
12          All other                N/A
Tab: Text Data                         No Data Flag: YES
 Line                Question                                                                                            Answer
 1                   Describe the predominant uses of the stewardship land (SFFAS 29, par. 40c).
 2                   Provide the condition of the stewardship land (SFFAS 29, par. 41).
 3                   Provide a brief statement explainng how the stewardship land relates to the mission of the
                     agency (SFFAS No. 29, par. 40a).
 4                   Provide a brief description of the agency's stewardship policies for stewardsip land (SFFAS
                     No. 29, par. 40b).
 5                   Provide any other information relevant information pertaining to this note. At a minimum,
                     describe briefly the significant accounting policies pertaining to this note.




                                                                                                           - 70 -
                                                                                                                                                                             11/15/2013 22:23:35

                                                                                      U.S. Department of the Treasury
                                                                                       Financial Management Service
                                                                                  Governmentwide Financial Report System
                                                                                          GF006 - FR Notes Report

     Note: 26          Heritage Assets                                                                                               Fiscal Year: 2013       Period: SEPTEMBER
     Entity: 1602       PENSION BENEFIT GUARANTY CORPORATION                                                                         Agency Notes:     N/A

  Status: Complete                         The accompanying notes are an integral part of these financial statements.             I = Inactive Line


       Section: A            Section Name: Collection Type Heritage Assets (SFFAS No. 29, par.           No Data Flag: YES        Line Attributes: Units
                                           25d)
Line Status Line Description         NB        Physical units at the       Physical units at the end
                                              end of the Current FY                of the Prior FY
 1                                   N/A
 2                                   N/A
 3                                   N/A
 4                                   N/A
 5                                   N/A



       Section: B            Section Name: Non-Collection Type Heritage Assets (SFFAS No.                No Data Flag: YES        Line Attributes: Units
                                           29, par. 25d)
Line Status Line Description         NB        Physical units at the       Physical units at the end
                                              end of the Current FY                of the Prior FY
 1                                   N/A
 2                                   N/A
 3                                   N/A
 4                                   N/A
 5                                   N/A


Tab: Text Data                         No Data Flag: YES
 Line               Question                                                                                             Answer
 1                  Provide a brief statement explaining how heritage assets relate to the mission of the agency
                    (SFFAS No. 29, par. 25a).
 2                  Provide a brief description of the agency's stewardship policies for each major category of
                    the heritage assets (SFFAS No. 29, par. 25b).
 3                  Provide a brief description of the condition of each category of the heritage assets (SFFAS
                    29, par. 26).
 4                  Provide any other relevant information pertaining to this note. At a minimum, describe briefly
                    the significant accounting policies pertaining to this note.




                                                                                                            - 71 -
                                                                                                                                                                                            11/15/2013 22:23:35

                                                                                   U.S. Department of the Treasury
                                                                                    Financial Management Service
                                                                               Governmentwide Financial Report System
                                                                                       GF006 - FR Notes Report

     Note: 27        Fiduciary Activities                                                                                                Fiscal Year: 2013               Period: SEPTEMBER
     Entity: 1602    PENSION BENEFIT GUARANTY CORPORATION                                                                                Agency Notes:        N/A

  Status: Complete                          The accompanying notes are an integral part of these financial statements.                I = Inactive Line

Tab: Other Notes Info.

       Section: A         Section Name: Schedule of Fiduciary Net Assets - Deposit Funds -          No Data Flag: YES               Line Attributes: Dollars
                                        Current Year                                                                              Rounding Method: Millions                         Decimal: Zero
Line Status Line Description       NB        Inv. in Fed. debt secs-          Fid. FBWT (USSGL         Interest Receivable on    Invest. in non-Fed. debt      Cash & cash equivalents         Other assets D
                                              net of unam. prems &         account 1010 only) D       Fed. debt securities D      secs.(& relaed int. rec.)                          D
                                                           discs. D                                                                                      D
 8                                N/A
 9                                N/A
10                                N/A
11                                N/A
12                                N/A

Line Status Line Description       NB        Liability due & payable          Other liabilities C   Total fiduciary net assets
                                                 to beneficiaries C
 8                                N/A
 9                                N/A
10                                N/A
11                                N/A
12                                N/A
       Section: B         Section Name: Schedule of Fiduciary Net Assets - Deposit Funds -          No Data Flag: YES               Line Attributes: Dollars
                                        Prior Year                                                                                Rounding Method: Millions                         Decimal: Zero
Line Status Line Description       NB        Inv. in Fed. debt secs-          Fid. FBWT (USSGL         Interest Receivable on    Invest. in non-Fed. debt      Cash & cash equivalents         Other assets D
                                              net of unam. prems &         account 1010 only) D       Fed. debt securities D      secs.(& relaed int. rec.)                          D
                                                           discs. D                                                                                      D
 8                                N/A
 9                                N/A
10                                N/A
11                                N/A
12                                N/A

Line Status Line Description       NB        Liability due & payable          Other liabilities C   Total fiduciary net assets
                                                 to beneficiaries C
 8                                N/A
 9                                N/A
10                                N/A
11                                N/A
12                                N/A



                                                                                                       - 72 -
                                                                                                                                                                                            11/15/2013 22:23:35

                                                                                   U.S. Department of the Treasury
                                                                                    Financial Management Service
                                                                               Governmentwide Financial Report System
                                                                                       GF006 - FR Notes Report

     Note: 27        Fiduciary Activities                                                                                                Fiscal Year: 2013               Period: SEPTEMBER
     Entity: 1602    PENSION BENEFIT GUARANTY CORPORATION                                                                                Agency Notes:        N/A

  Status: Complete                          The accompanying notes are an integral part of these financial statements.                I = Inactive Line


       Section: C         Section Name: Schedule of Fiduciary Net Assets - All Other Agency         No Data Flag: YES               Line Attributes: Dollars
                                        Funds- Current Year                                                                       Rounding Method: Millions                         Decimal: Zero
Line Status Line Description       NB        Inv. in Fed. debt secs-          Fid. FBWT (USSGL         Interest Receivable on    Invest. in non-Fed. debt      Cash & cash equivalents         Other assets D
                                              net of unam. prems &         account 1010 only) D       Fed. debt securities D      secs.(& relaed int. rec.)                          D
                                                           discs. D                                                                                      D
 3                                N/A
 4                                N/A
 5                                N/A
 6                                N/A
 7                                N/A

Line Status Line Description       NB        Liability due & payable          Other liabilities C   Total fiduciary net assets
                                                 to beneficiaries C
 3                                N/A
 4                                N/A
 5                                N/A
 6                                N/A
 7                                N/A
       Section: D         Section Name: Schedule of Fiduciary Net Assets - All Other Agency         No Data Flag: YES               Line Attributes: Dollars
                                        Funds - Prior Year                                                                        Rounding Method: Millions                         Decimal: Zero
Line Status Line Description       NB        Inv. in Fed. debt secs-          Fid. FBWT (USSGL         Interest Receivable on    Invest. in non-Fed. debt      Cash & cash equivalents         Other assets D
                                              net of unam. prems &         account 1010 only) D       Fed. debt securities D      secs.(& relaed int. rec.)                          D
                                                           discs. D                                                                                      D
 3                                N/A
 4                                N/A
 5                                N/A
 6                                N/A
 7                                N/A

Line Status Line Description       NB        Liability due & payable          Other liabilities C   Total fiduciary net assets
                                                 to beneficiaries C
 3                                N/A
 4                                N/A
 5                                N/A
 6                                N/A
 7                                N/A




                                                                                                       - 73 -
                                                                                                                                                                                11/15/2013 22:23:35

                                                                                        U.S. Department of the Treasury
                                                                                         Financial Management Service
                                                                                    Governmentwide Financial Report System
                                                                                            GF006 - FR Notes Report

      Note: 27          Fiduciary Activities                                                                                            Fiscal Year: 2013       Period: SEPTEMBER
     Entity: 1602       PENSION BENEFIT GUARANTY CORPORATION                                                                            Agency Notes:     N/A

  Status: Complete                             The accompanying notes are an integral part of these financial statements.            I = Inactive Line


       Section: E            Section Name: Number of Agency Fiduciary Activities                            No Data Flag: YES        Line Attributes: Units


Line Status Line Description          NB           CY Total number of             PY Total number of
                                                   fiduciary funds- all    fiduciary funds- all funds
                                                               funds
 1                                   N/A
 2                                   N/A
 3                                   N/A
 4                                   N/A



Tab: Text Data                          No Data Flag: YES
 Line               Question                                                                                                Answer
 1                  Describe the fiduciary relationship, for example, the applicable legal authority, the objectives
                    of the fiduciary activity, and a general description of the beneficial owners or class of owners
                    of each fiduciary fund (SFFAS No. 31, par. 18(a)).
 2                  Provide information on any significant changes in fiduciary net assets from the prior period
                    (SFFAS No. 31, par. 18(c)).
 3                  Provide the TAS for all funds with fiduciary activities.
 4                  For any cash included in the Schedules of Fiduciary Net Assets, indicate if the cash is
                    represented by balances on deposit with either the U.S. Treasury or with a commercial
                    banking institution (SSFAS No. 31, par. 12).
 5                  Provide a description of any cash equivalents included in the Schedules of Fiduciary Net
                    Assets.
 6                  If separate audited financial statements are issued for an individual fiduciary activity with a
                    fiscal yearend other than September 30, indicate the fiduciary activity's FY (SFFAS No. 31,
                    par. 18(e)).
 7                  If separate audited financial statements are issued for an individual fiduciary activity, disclose
                    the basis of accounting used and the auditor's opinion on the current or most recent financial
                    statements. If the auditor's opinion was not unqualified, disclose the reason(s) stated by the
                    auditors and refer the reader to the audit opinion for further information (SFFAS No. 31, par.
                    22(a)).
 8                  If separate audited financial statements are issued for an individual fiduciary activity, provide
                    information on how the reader can obtain a copy of the financial statements and the audit
                    opinion thereon (SFFAS No. 31, par. 22(b)).
 9                  If more than one agency is responsible for administering a fiduciary activity, and the separate
                    portions of the activity can be clearly identified with another responsible agency, identify the
                    other agency(ies) involved in managing the activity (SFFAS No.31.par.19).
 10                 Provide any other relevant information pertaining to this note. At a minimum, describe briefly
                    the significant accounting policies pertaining to this note.




                                                                                                               - 74 -
                                                                                                                                                                                    11/15/2013 22:23:35

                                                                                  U.S. Department of the Treasury
                                                                                   Financial Management Service
                                                                              Governmentwide Financial Report System
                                                                                      GF006 - FR Notes Report

     Note: 28A         Financial and Housing Market Stabilization - Investment in Government Sponsored Enterprises (GSE)           Fiscal Year: 2013             Period: SEPTEMBER
   Entity: 1602        PENSION BENEFIT GUARANTY CORPORATION                                                                        Agency Notes:    N/A

  Status: Complete                       The accompanying notes are an integral part of these financial statements.             I = Inactive Line

Tab: Line Item Notes
Closing Package Line Description                                         NB    Account    2013 - SEPTEMBER         2012 - SEPTEMBER
                                                                                 Type
Investment in Government sponsored enterprises (GSEs)                    D         A                           0                   0
                                                                              Variance:                        0                   0         Rounding Method: Millions         Decimal: Zero
Line Status Line Description        CY Gross investment as of      CY Cumulative valuation         CY September 30 fair PY Gross investment as of   PY Cumulative valuation PY September 30 fair value
                                           September 30                   (gain/loss)                       value              September 30                (gain/loss)
 1          Fannie Mae senior
            preferred stock
 2          Freddie Mac senior
            preferred stock
 3          Fannie Mae warrants
            common stock
 4          Freddie Mac warrants
            common stock
 5
 6
 7
 8          Total GSE investment
            Total




                                                                                                      - 75 -
                                                                                                                                                                            11/15/2013 22:23:35

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

     Note: 28A           Financial and Housing Market Stabilization - Investment in Government Sponsored Enterprises (GSE)          Fiscal Year: 2013      Period: SEPTEMBER
     Entity: 1602        PENSION BENEFIT GUARANTY CORPORATION                                                                       Agency Notes:    N/A

  Status: Complete                            The accompanying notes are an integral part of these financial statements.         I = Inactive Line

Tab: Other Notes Info.

       Section: A             Section Name: Other Related Information                                 No Data Flag: YES         Line Attributes: Dollars
                                                                                                                              Rounding Method: Millions             Decimal: Zero
Line Status Line Description          NB        2013 - SEPTEMBER             2012 - SEPTEMBER               Previously Rptd    Line Item Changes
 1             Revenue               Credit
               recognized from
               acquisition of
               preferred stocks
               and warrants and
               valuation
               (gain)/loss on GSE
               preferred stocks
 2             Revenue               Credit
               recognized from
               dividends
       Section: B             Section Name: Other Related Information (in Percentages)                No Data Flag: YES         Line Attributes: Percent


Line Status Line Description          NB        2013 - SEPTEMBER             2012 - SEPTEMBER               Previously Rptd    Line Item Changes
 1             Nominal cost           N/A
               percentage of
               common stock on a
               fully diluted basis
 2             Rate of dividends      N/A




       Section: C             Section Name: Other Related Information in Units                        No Data Flag: YES         Line Attributes: Units


Line Status Line Description          NB        2013 - SEPTEMBER             2012 - SEPTEMBER               Previously Rptd    Line Item Changes
 1             Number of non-         N/A
               voting senior
               preferred stock -
               shares




                                                                                                        - 76 -
                                                                                                                                                                     11/15/2013 22:23:35

                                                                                   U.S. Department of the Treasury
                                                                                    Financial Management Service
                                                                               Governmentwide Financial Report System
                                                                                       GF006 - FR Notes Report

   Note: 28A        Financial and Housing Market Stabilization - Investment in Government Sponsored Enterprises (GSE)         Fiscal Year: 2013      Period: SEPTEMBER
  Entity: 1602       PENSION BENEFIT GUARANTY CORPORATION                                                                     Agency Notes:    N/A

 Status: Complete                       The accompanying notes are an integral part of these financial statements.         I = Inactive Line

Tab: Text Data                      No Data Flag: YES
Line             Question                                                                                         Answer
1                Provide any other relevant information pertaining to this note. At a minimum, describe briefly
                 the significant
                 accounting policies pertaining to this note.




                                                                                                         - 77 -
                                                                                                                                                                                      11/15/2013 22:23:35

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

     Note: 28B           Financial and housing Market Stabilization - Liabilities to Government Sponsored Enterprises (GSE)            Fiscal Year: 2013              Period: SEPTEMBER
   Entity: 1602          PENSION BENEFIT GUARANTY CORPORATION                                                                          Agency Notes:     N/A

  Status: Complete                         The accompanying notes are an integral part of these financial statements.               I = Inactive Line

Tab: Line Item Notes
Closing Package Line Description                                            NB    Account               Current FY            Current FY
                                                                                    Type
Liabilities to Government Sponsored Enterprises                              C        L                            0                  0
                                                                                 Variance:                         0                  0           Rounding Method: Millions       Decimal: Zero
Line Status Line Description            2013 - SEPTEMBER              2012 - SEPTEMBER                  Previously Rptd       Line Item Changes
 1           GSE accrued liability
 2           GSE contingent
             liability
 3      I
 4      I
 5      I
 6           All other liabilities
             Total




                                                                                                          - 78 -
                                                                                                                                                                                 11/15/2013 22:23:35

                                                                                      U.S. Department of the Treasury
                                                                                       Financial Management Service
                                                                                  Governmentwide Financial Report System
                                                                                          GF006 - FR Notes Report

     Note: 28B          Financial and housing Market Stabilization - Liabilities to Government Sponsored Enterprises (GSE)               Fiscal Year: 2013      Period: SEPTEMBER
     Entity: 1602       PENSION BENEFIT GUARANTY CORPORATION                                                                             Agency Notes:    N/A

  Status: Complete                          The accompanying notes are an integral part of these financial statements.                I = Inactive Line

Tab: Other Notes Info.

       Section: A            Section Name: Other Related Information                                     No Data Flag: YES           Line Attributes: Dollars
                                                                                                                                   Rounding Method: Millions             Decimal: Zero
Line Status Line Description         NB       2013 - SEPTEMBER                2012 - SEPTEMBER                  Previously Rptd     Line Item Changes
 1             Actual payment       Debit
               made to the GSE




       Section: B            Section Name: Case Scenarios                                                No Data Flag: YES           Line Attributes: Dollars
                                                                                                                                   Rounding Method: Millions             Decimal: Zero
Line Status Line Description         NB        2013 - SEPTEMBER             2012 - SEPTEMBER D                 Previously Rptd D   Line Item Changes D
                                                              D
 1             Optimistic case       N/A
               scenario
 2             Extreme case          N/A
               scenario




Tab: Text Data                         No Data Flag: YES
 Line               Question                                                                                              Answer
 1                  Provide any other relevant information pertaining to this note. At a minimum, describe briefly
                    the significant accounting policies pertaining to this note.




                                                                                                            - 79 -
This page intentionally left blank.
  Audit of the Pension Benefit Guaranty

Corporation’s Financial Statements Closing

  Package for Fiscal Year 2013 and 2012




  Audit Report AUD-2014-4 / FA-13-93-3




              Section VIII


   GF006F – Notes Status Report
This page intentionally left blank.
                                   U.S. Department of the Treasury/FMS                      11-18-2013 11:41:20
                                 Governmentwide Financial Report System

                                             Notes Status Report


Entity:   1602-PENSION BENEFIT GUARANTY CORPORATION                      Year:       2013            SEPTEMBER

Number    Note Title                                                                        Status

01        Federal Reserve Earnings, Subsequent Events, and Other Pertinent                  SUBMITTED
          Information
02        Cash and Other Monetary Assets                                                    SUBMITTED
03        Accounts and Taxes Receivable                                                     SUBMITTED
04A       Direct Loans Receivable and Mortgage Backed Securities                            SUBMITTED
04B       Loan Guarantees                                                                   SUBMITTED
05        Inventories and Related Property                                                  SUBMITTED
06        Property, Plant, and Equipment                                                    SUBMITTED
07        Debt and Equity Securities                                                        SUBMITTED
08        Other Assets                                                                      SUBMITTED
09        Accounts Payable                                                                  SUBMITTED
10B       Treasury securities held by the Government trust, revolving, and special          SUBMITTED
          funds
11        Federal Employee and Veteran Benefits Payable                                     SUBMITTED
12        Environmental and Disposal Liabilities                                            SUBMITTED
13        Benefits Due and Payable                                                          SUBMITTED
14        Insurance and Guarantee Program Liabilities                                       SUBMITTED
15        Other Liabilities                                                                 SUBMITTED
17        Prior-Period Adjustments                                                          SUBMITTED
18        Contingencies (SFFAS Nos. 5 and 12)                                               SUBMITTED
19        Commitments                                                                       SUBMITTED
22        Funds From Dedicated Collections                                                  SUBMITTED
25        Stewardship Land                                                                  SUBMITTED
26        Heritage Assets                                                                   SUBMITTED
27        Fiduciary Activities                                                              SUBMITTED
28A       Financial and Housing Market Stabilization - Investment in Government             SUBMITTED
          Sponsored Enterprises (GSE)
28B       Financial and housing Market Stabilization - Liabilities to Government            SUBMITTED
          Sponsored Enterprises (GSE)




                                                    - 1 -
This page intentionally left blank.
  Audit of the Pension Benefit Guaranty

Corporation’s Financial Statements Closing

  Package for Fiscal Year 2013 and 2012




  Audit Report AUD-2014-4 / FA-13-93-3




              Section IX


 GF007F – Other Financial Report
      (FR) Data Status Report
This page intentionally left blank.
                                   U.S. Department of the Treasury/FMS          11-15-2013 22:27:48
                                 Governmentwide Financial Report System

                                       Other FR Data Status Report


Entity:   1602-PENSION BENEFIT GUARANTY CORPORATION                  Year:   2013            SEPTEMBER

Number    Note Title                                                                Status

01        Taxes                                                                     SUBMITTED
08        Stewardship Investments                                                   SUBMITTED
09        Deferred Maintenance                                                      SUBMITTED
14        Risk Assumed-Federal Insurance and Guarantee Programs(SFFAS No.           SUBMITTED
          5, par. 105, 106,and 114)
15        Budget Deficit Reconciliation                                             SUBMITTED
16        Components of Loans and Equity Investments                                SUBMITTED
17        Federal Oil and Gas Resources                                             SUBMITTED




                                                 - 1 -
This page intentionally left blank.
  Audit of the Pension Benefit Guaranty

Corporation’s Financial Statements Closing

  Package for Fiscal Year 2013 and 2012




  Audit Report AUD-2014-4 / FA-13-93-3




               Section X


    GF007G – Other Data Report
This page intentionally left blank.
                                                                                                                                                                   11/15/2013 22:26:11

                                                                             U.S. Department of the Treasury
                                                                              Financial Management Service
                                                                         Governmentwide Financial Report System
                                                                                GF007 - Other Data Report

 Other Data: 01             Taxes                                                                                        Fiscal Year: 2013             Period: SEPTEMBER
       Entity: 1602         PENSION BENEFIT GUARANTY CORPORATION                                                             Agency Notes:    N/A
      Status: Complete                                                                    I = Inactive Line


  Tab: Other Data Info.
     Section: A               Section Name: Taxes (SSFAS No.7, par. 67-69)                      No Data: YES             Line Attributes: Dollars
                                                                                                                       Rounding Method: User-Defined         Decimal: User-Defined
Line Status   Line Description        NB      2013 - SEPTEMBER         2012 - SEPTEMBER              Previously Rptd      Line Item Changes
 1            Estimated realized      Debit
              value of compliance
              assessments as of
              the end of the period
 2            Estimated realizable    Debit
              value of pre-
              assessment work-
              in-progress
 3            Changes in 1 and 2      Debit
              above
 4            Other claims for        Debit
              refunds not yet
              accrued but likely to
              be paid when
              administrative
              actions are
              completed
 5            Management's best       Debit
              estimate of
              unasserted claims for
              refunds
 6            Changes in 4 and 5      Debit
              above
 7            Amount of               Debit
              assessments written
              off that continue to
              be statutorily
              collectible




                                                                                               - 1 -
                                                                                                                                                                                     11/15/2013 22:26:11

                                                                                          U.S. Department of the Treasury
                                                                                           Financial Management Service
                                                                                      Governmentwide Financial Report System
                                                                                             GF007 - Other Data Report

 Other Data: 01                Taxes                                                                                                       Fiscal Year: 2013             Period: SEPTEMBER
         Entity: 1602          PENSION BENEFIT GUARANTY CORPORATION                                                                            Agency Notes:    N/A
        Status: Complete                                                                                   I = Inactive Line


     Tab: Other Data Info.
      Section: B                  Section Name: Provide the following amount if a range is estimable              No Data: YES             Line Attributes: Dollars
                                                and not included in Sec. A (SFFAS No. 7 par 67-69)                                       Rounding Method: User-Defined         Decimal: User-Defined


Line Status      Line Description         NB                       CY Low                        CY High                        PY Low               PY High
 1               Estimated realizable    Debit
                 value of pre-
                 assessment work-
                 in-progress
 2               Changes in line 1       Debit
                 above
 3               Management's best       Debit
                 estimate of
                 unasserted claims for
                 refunds
 4               Changes in line 3       Debit
                 above

     Tab: Other Text Data

        Section: A                  Section Name: Taxes (SSFAS No.7, par. 67-69)                                       No Data: YES

 Line          Question                                                                                                         Answer
 1            Provide the explicit definitions of estimated amounts of the size of the tax gap.
 2            Provide the appropriate explanation of the limited reliability of the estimates of the size of the tax
              gap.
 3            Provide cross-references to portions of the tax gap due from identified noncompliant taxpayers
              and importers.
 4            Provide the estimates of the annual tax gap (amounts should specifically define whether it
              includes or excludes estimates of tax due on illegally earned revenue).
 5            Disclose the amounts by which trust funds may be over- or under-funded in comparison with the
              requirements of law, if reasonable estimable.




                                                                                                                 - 2 -
                                                                                                                                                                       11/15/2013 22:26:11

                                                                              U.S. Department of the Treasury
                                                                               Financial Management Service
                                                                          Governmentwide Financial Report System
                                                                                 GF007 - Other Data Report

 Other Data: 08            Stewardship Investments                                                                           Fiscal Year: 2013             Period: SEPTEMBER
       Entity: 1602        PENSION BENEFIT GUARANTY CORPORATION                                                                  Agency Notes:    N/A
      Status: Complete                                                                       I = Inactive Line


  Tab: Other Data Info.
     Section: A              Section Name: Investment in Non-Federal physical property (SFFAS      No Data: YES              Line Attributes: Dollars
                                           No. 8, par 87)                                                                  Rounding Method: User-Defined         Decimal: User-Defined


Line Status   Line Description      NB                   FY 2013                   FY 2012                       FY 2011                FY 2010                 FY 2009
 1                                  Debit
 2                                  Debit
 3                                  Debit
 4                                  Debit
 5                                  Debit
 6            Other non-Federal     Debit
              physical property

     Section: B              Section Name: Research and Development: Investment in                 No Data: YES              Line Attributes: Dollars
                                           Development (SFFAS No. 8, par. 94, 99 & 100)                                    Rounding Method: User-Defined         Decimal: User-Defined


Line Status   Line Description      NB                   FY 2013                   FY 2012                       FY 2011                FY 2010                 FY 2009
 1                                  Debit
 2                                  Debit
 3                                  Debit
 4                                  Debit
 5                                  Debit
 6            Other investment in   Debit
              development




                                                                                                  - 3 -
                                                                                                                                                                       11/15/2013 22:26:11

                                                                             U.S. Department of the Treasury
                                                                              Financial Management Service
                                                                         Governmentwide Financial Report System
                                                                                GF007 - Other Data Report

 Other Data: 08            Stewardship Investments                                                                           Fiscal Year: 2013             Period: SEPTEMBER
       Entity: 1602        PENSION BENEFIT GUARANTY CORPORATION                                                                  Agency Notes:    N/A
      Status: Complete                                                                       I = Inactive Line


  Tab: Other Data Info.
     Section: C              Section Name: Investment in Human Capital (SFFAS No. 8, par 100)      No Data: YES              Line Attributes: Dollars
                                                                                                                           Rounding Method: User-Defined         Decimal: User-Defined
Line Status   Line Description       NB                 FY 2013                    FY 2012                       FY 2011                FY 2010                 FY 2009
 1                                   Debit
 2                                   Debit
 3                                   Debit
 4                                   Debit
 5                                   Debit
 6            Other Investments in   Debit
              human capital


     Section: D              Section Name: Research and Development: Investment in Basic           No Data: YES              Line Attributes: Dollars
                                           Research (SFFAS No. 8, par.99 & 100)                                            Rounding Method: User-Defined         Decimal: User-Defined


Line Status   Line Description       NB                 FY 2013                    FY 2012                       FY 2011                FY 2010                 FY 2009
 1                                   Debit
 2                                   Debit
 3                                   Debit
 4                                   Debit
 5                                   Debit
 6            Other investments in   Debit
              basic research




                                                                                                  - 4 -
                                                                                                                                                                                  11/15/2013 22:26:11

                                                                                       U.S. Department of the Treasury
                                                                                        Financial Management Service
                                                                                   Governmentwide Financial Report System
                                                                                          GF007 - Other Data Report

 Other Data: 08                Stewardship Investments                                                                                  Fiscal Year: 2013             Period: SEPTEMBER
         Entity: 1602         PENSION BENEFIT GUARANTY CORPORATION                                                                          Agency Notes:    N/A
        Status: Complete                                                                                I = Inactive Line


     Tab: Other Data Info.
      Section: E                 Section Name: Research and Development: Investment in Applied                No Data: YES              Line Attributes: Dollars
                                               Research (SFFAS No. 8, par 100)                                                        Rounding Method: User-Defined         Decimal: User-Defined


Line Status      Line Description         NB                    FY 2013                       FY 2012                       FY 2011                FY 2010                 FY 2009
 1                                       Debit
 2                                       Debit
 3                                       Debit
 4                                       Debit
 5                                       Debit
 6               Other investment in     Debit
                 applied research


     Tab: Other Text Data

        Section: A                  Section Name: Investment in Non-Federal physical property (SFFAS             No Data: YES
                                                  No. 8, par 87)

 Line         Question                                                                                                      Answer
 1            Provide a description of federally owened physical property transferred to state and local
              governments. (SFFAS No. 8, par 87)
 2            Provide a description of the major programs of Federal investments in non-Federal physical
              property used in the "Other Data Info" tab. (SFFAS No.8 par. 87)
     Tab: Other Text Data

        Section: B                  Section Name: Research and Development: Investment in                        No Data: YES
                                                  Development (SFFAS No. 8, par. 94, 99 & 100)

 Line         Question                                                                                                      Answer
 1            Provide a description of the major programs of Federal investments in development used in the
              "Other Data Info" tab. (SFFAS No. 8, par. 100)
 2            Provide a description of the progress of major developmental projects including the results with
              respect to
              projects completed or otherwise terminated during the year and the status of projects that will
              continue (SFFAS No. 8,
              par. 99).




                                                                                                             - 5 -
                                                                                                                                                                      11/15/2013 22:26:11

                                                                                    U.S. Department of the Treasury
                                                                                     Financial Management Service
                                                                                Governmentwide Financial Report System
                                                                                       GF007 - Other Data Report

Other Data: 08              Stewardship Investments                                                                              Fiscal Year: 2013         Period: SEPTEMBER
       Entity: 1602         PENSION BENEFIT GUARANTY CORPORATION                                                                    Agency Notes:    N/A
       Status: Complete                                                                             I = Inactive Line



    Tab: Other Text Data

       Section: C               Section Name: Investment in Human Capital (SFFAS No. 8, par 100)             No Data: YES

Line         Question                                                                                                   Answer
1           Provide a description of the major education and training programs considered Federal
            investments in human
            capital used in the "Other Data Info" tab (SFFAS No. 8, par. 94).
    Tab: Other Text Data

       Section: D               Section Name: Research and Development: Investment in Basic                  No Data: YES
                                              Research (SFFAS No. 8, par.99 & 100)

Line         Question                                                                                                   Answer
1           Provide a description of the major programs of Federal investments in basic research used in the
            "Other Data
            Info" tab (SFFAS No. 8, par. 100).
2           Provide a description of any major new discoveries made during the year (SFFAS No. 8, par. 99)
    Tab: Other Text Data

       Section: E               Section Name: Research and Development: Investment in Applied                No Data: YES
                                              Research (SFFAS No. 8, par 100)

Line         Question                                                                                                   Answer
1           Provide a description of the major programs of Federal investments in applied research used in
            the "Other Data
            Info" tab (SFFAS No. 8, par. 100).
2           Provide a description of any major new applications developed during the year (SFFAS No. 8,
            par. 99)




                                                                                                         - 6 -
                                                                                                                                                               11/15/2013 22:26:11

                                                                       U.S. Department of the Treasury
                                                                        Financial Management Service
                                                                   Governmentwide Financial Report System
                                                                          GF007 - Other Data Report

 Other Data: 09             Deferred Maintenance                                                                   Fiscal Year: 2013             Period: SEPTEMBER
       Entity: 1602         PENSION BENEFIT GUARANTY CORPORATION                                                       Agency Notes:       N/A
      Status: Complete                                                            I = Inactive Line


  Tab: Other Data Info.
     Section: A               Section Name: Range of Amounts                            No Data: YES               Line Attributes: Dollars
                                                                                                                 Rounding Method: User-Defined          Decimal: User-Defined
Line Status   Line Description         NB            CY- Low   D       CY- High    D CY - Critical Maintenance             PY- Low     D            PY- High    D PY - Critical Maintenance
                                                                                                             D                                                                            D
 1            Buildings, structures,   N/A
              and facilities
 2            Furniture, fixtures,     N/A
              and equipment
 3            Other general            N/A
              property, plant, and
              equipment
 4            Heritage assets          N/A
 5            Stewardship land         N/A




                                                                                       - 7 -
                                                                                                                                                                                           11/15/2013 22:26:11

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                        GF007 - Other Data Report

 Other Data: 14               Risk Assumed-Federal Insurance and Guarantee Programs(SFFAS No. 5, par. 105, 106,and 114)                 Fiscal Year: 2013                  Period: SEPTEMBER
        Entity: 1602          PENSION BENEFIT GUARANTY CORPORATION                                                                          Agency Notes:         AR - Note 9
        Status: Complete                                                                            I = Inactive Line


  Tab: Other Data Info.
      Section: A                Section Name: Risk Assumed                                                                             Line Attributes: Dollars
                                                                                                                                     Rounding Method: Millions                      Decimal: Zero
Line Status     Line Description        NB        2013 - SEPTEMBER            2012 - SEPTEMBER                 Previously Rptd           Line Item Changes
 1              Present value of       Debit                     328,925                      321,772                     321,772                             0
                unpaid expected
                losses (net of
                associated
                premiums)
 2              Periodic changes       Debit                       7,153                       71,558                      71,558                             0




     Tab: Other Text Data

        Section: A                 Section Name: Risk Assumed

 Line         Question                                                                                                   Answer
 1            Provide the indicators of the range of uncertainty around Federal insurance and guarantee                 1). Single-employer plans sponsored by companies whose credit quality is below investment
              programs related estimates and sensitivity of the estimates to changes in major assumptions               grade pose a greater risk of being terminated. The estimated unfunded vested benefits
              (SFFAS No.5, par.114)                                                                                     exposure amounts disclosed below represent PBGC's estimates of the reasonably possible
                                                                                                                        exposure to loss given the inherent uncertainties about these plans. In rare circumstances
                                                                                                                        for certain large companies, the reasonably possible exposure calculation reflects the
                                                                                                                        estimated unfunded guaranteed benefit determination rather than the estimated unfunded
                                                                                                                        vested benefit determination.

                                                                                                                        In accordance with the FASB Accounting Standards Codification Section 450, Contingencies,
                                                                                                                        PBGC classified a number of these companies as reasonably possible rather than probable
                                                                                                                        terminations, reflecting the sponsors' financial condition and other factors did not indicate
                                                                                                                        that termination of their plans was likely. This classification was done based upon
                                                                                                                        information about the companies as of September 30, 2013. PBGC criteria for a single-
                                                                                                                        employer plan sponsor to be classified as Reasonably Possible are:
                                                                                                                        a. The sponsor(s) or significant member(s) of its controlled group (e.g., a parent or major
                                                                                                                        subsidiary) is in reorganization under Title 11 of the United States code.

                                                                                                                        b. An application for a funding waiver is pending or outstanding with the IRS.

                                                                                                                        c. A minimum funding contribution has been missed.

                                                                                                                        d. The sponsor(s) has an S&P senior unsecured credit rating or an issuer credit rating less
                                                                                                                        two notches of BB+ or below, or a Moody's senior unsecured credit rating or a corporate
                                                                                                                        family rating less one notch of Ba1 or below. If the controlled group is not rated by Moody's



                                                                                                            - 8 -
                                                                                                                                                                                          11/15/2013 22:26:11

                                                                                   U.S. Department of the Treasury
                                                                                    Financial Management Service
                                                                               Governmentwide Financial Report System
                                                                                      GF007 - Other Data Report

Other Data: 14              Risk Assumed-Federal Insurance and Guarantee Programs(SFFAS No. 5, par. 105, 106,and 114)                 Fiscal Year: 2013                  Period: SEPTEMBER
       Entity: 1602         PENSION BENEFIT GUARANTY CORPORATION                                                                           Agency Notes:        AR - Note 9
       Status: Complete                                                                           I = Inactive Line



    Tab: Other Text Data

       Section: A               Section Name: Risk Assumed

Line        Question                                                                                                   Answer
                                                                                                                      and S&P, PBGC will use the Dun & Bradstreet Financial Stress Score (if available) to classify
                                                                                                                      the controlled group as Reasonably Possible or Remote.

                                                                                                                      e. The sponsor(s) has no bond rating, but analysis indicates that its unsecured debt would be
                                                                                                                      below investment grade.

                                                                                                                      f. The sponsor(s) meet at least one of the PBGC "high risk" criteria.

                                                                                                                      g. Other (detailed explanation must be provided and be approved by PBGC's Contingency
                                                                                                                      Working Group).

2           Provide the actuarial or financial methods used to measure the present value of unpaid expected           2). The estimate of unfunded vested benefits exposure to loss for the single-employer plans
            losses (SFFAS No. 5. par. 114)                                                                            of these companies was measured as of December 31, 2012. The reasonably possible
                                                                                                                      exposure to loss in these plans was $292,207 million for FY 2013. This is a slight decrease
                                                                                                                      of $2,756 million from the reasonably possible exposure of $294,963 million in FY 2012.
                                                                                                                      This decrease is primarily due to a decline in the aggregate liability for plans classified as
                                                                                                                      reasonably possible.

                                                                                                                      Except in the rare circumstances as indicated earlier in this footnote, the estimate of
                                                                                                                      unfunded vested benefits exposure to loss is not generally based on PBGC-guaranteed
                                                                                                                      benefit levels, since data is not available to determine an estimate at this level of precision.
                                                                                                                      PBGC calculated this estimate, as in previous years, by using the most recent data available
                                                                                                                      from filings and submissions to us for plan years ended on or after December 31, 2011.
                                                                                                                      PBGC adjusted the value reported for liabilities to December 31, 2012, using a select rate of
                                                                                                                      2.47% for the first 20 years and 3.22% thereafter and applying the expense load as defined
                                                                                                                      in 29 CFR Part 4044, Appendix C. The rates were derived in conjunction with the 1994
                                                                                                                      Group Annuity Mortality Static Table (with margins) projected to 2022 using Scale AA to
                                                                                                                      approximate annuity prices as of December 31, 2012. The underfunding associated with
                                                                                                                      these plans could be substantially different at September 30, 2013, because of the economic
                                                                                                                      conditions that changed between December 31, 2012 and September 30, 2013. PBGC did
                                                                                                                      not adjust the estimate for events that occurred between December 31, 2012, and
                                                                                                                      September 30, 2013.

3           Provide a listing of the Federal insurance and guarantee programs (SFFAS No. 5, par. 105).                3). N/A




                                                                                                         - 9 -
                                                                                                                                                                             11/15/2013 22:26:11

                                                                                  U.S. Department of the Treasury
                                                                                   Financial Management Service
                                                                              Governmentwide Financial Report System
                                                                                     GF007 - Other Data Report

 Other Data: 15              Budget Deficit Reconciliation                                                                        Fiscal Year: 2013            Period: SEPTEMBER
       Entity: 1602          PENSION BENEFIT GUARANTY CORPORATION                                                                    Agency Notes:      MTS & SF 133
      Status: Complete                                                                          I = Inactive Line


  Tab: Other Data Info.
     Section: A                Section Name: Operating Revenue to Budget Receipts                       No Data: YES             Line Attributes: Dollars
                                                                                                                               Rounding Method: User-Defined           Decimal: User-Defined
Line Status   Line Description         NB          Budget Receipts      D   Operating Revenue      C    Diff Budget Receipts vs Cust Collections Trans to Cust Collections Received Adj Diff Between Budget
                                                                                                         Operating Revenue        GF or Rec Agency      D   from Collecting Agency Rec vs Operating Rev
                                                                                                                                                                                  C
 1            Individual income tax    N/A
              and tax withholdings
 2            Corporation income       N/A
              taxes
 3            Unemployment taxes       N/A
 4            Excise taxes             N/A
 5            Estate and gift taxes    N/A
 6            Customs duties           N/A
 7            Other taxes and          N/A
              receipts
 8            Earned revenue - to      N/A
              be completed by
              OPM only
 9            Total                    N/A
     Section: B                Section Name: Net Outlays to SBR                                                                  Line Attributes: Dollars
                                                                                                                               Rounding Method: Millions               Decimal: Zero
Line Status   Line Description         NB         CY - MTS Net Outlays       CY - SBR Net Outlays        CY - DIFFERENCE
                                                                     D                          C
 1            Net Outlays              N/A                     -1,576                     -1,576                           0




                                                                                                       - 10 -
                                                                                                                                                                  11/15/2013 22:26:11

                                                                             U.S. Department of the Treasury
                                                                              Financial Management Service
                                                                         Governmentwide Financial Report System
                                                                                GF007 - Other Data Report

 Other Data: 15           Budget Deficit Reconciliation                                                                     Fiscal Year: 2013          Period: SEPTEMBER
      Entity: 1602        PENSION BENEFIT GUARANTY CORPORATION                                                                 Agency Notes:    MTS & SF 133
     Status: Complete                                                                      I = Inactive Line


  Tab: Other Data Info.
    Section: C              Section Name: Earned Revenue to Undistributed Offsetting Receipts    No Data: YES               Line Attributes:
                                          - Employer Share, Employee Retirement (DOS, DOD
                                          and OPM only)


Line Status   Line Description      NB         CY - MTS Receipts        CY - PAR Amount               CY - Difference




    Section: D              Section Name: Earned Revenue to Undistributed Offsetting Receipts    No Data: YES               Line Attributes:
                                          - Interest Rec by Trust Funds (DOS, DOD, DOL, SSA,
                                          HHS and OPM only)


Line Status   Line Description      NB      CY - MTS Undistributed        CY - Earned Revenue                  Difference
                                          Offsetting Receipts, Tble 5 Rejported on agency PAR




                                                                                                - 11 -
                                                                                                                                                                                              11/15/2013 22:26:11

                                                                                        U.S. Department of the Treasury
                                                                                         Financial Management Service
                                                                                    Governmentwide Financial Report System
                                                                                           GF007 - Other Data Report

 Other Data: 15                Budget Deficit Reconciliation                                                                                 Fiscal Year: 2013                Period: SEPTEMBER
         Entity: 1602          PENSION BENEFIT GUARANTY CORPORATION                                                                               Agency Notes:      MTS & SF 133
        Status: Complete                                                                                I = Inactive Line


     Tab: Other Data Info.
      Section: E                 Section Name: Operating Revenue to Undistributed Offsetting                   No Data: YES                   Line Attributes:
                                               Receipts (DOI only)


Line Status      Line Description        NB             MTS Undistributed          Miscellaneous Earned                     Difference
                                                Offsetting Receipts, Tble 5         Revenue reported on
                                                                                               SCNP




     Tab: Other Text Data

        Section: A                  Section Name: Operating Revenue to Budget Receipts                             No Data: YES

 Line         Question                                                                                                        Answer
 1            Note: The normal balance for net outlays is not supported by the USSGL. The MTS Net Outlays
              are assigned a normal debit balance and the SBR Net Outlays a normal credit balance in GFRS.
              Please enter net outlays into both columns as normal, that is as a positive number. MTS Net
              Outlays will appear as a debit and SBR Net Outlays will appear as a credit in GFRS reports.
              This set-up was required for the difference column to calculate correctly.
 2            Collecting agencies provide the Closing Package line in which the custodial transfer-out
              (disposition of collection) was recorded and the trading partner code.
 3            Receiving agencies provide the Closing Package line in which the custodial transfer-in/revenue
              was recorded and the trading partner code.
 4            Provide a detailed description of the difference and whether this difference will be resolved next
              FY.
     Tab: Other Text Data

        Section: B                  Section Name: Net Outlays to SBR

 Line         Question                                                                                                         Answer
 1            Provide a detailed description of the difference and whether this difference will be resolved next              There are no differences between the September 30, 2013 final budgetary net outlays report
              FY.                                                                                                             (per MTS; Table 5) and the September 30, 2013 SF 133 Report on Budget Execution and
                                                                                                                              Budgetary Resources (per PBGC).




                                                                                                             - 12 -
                                                                                                                                                                         11/15/2013 22:26:11

                                                                                      U.S. Department of the Treasury
                                                                                       Financial Management Service
                                                                                  Governmentwide Financial Report System
                                                                                         GF007 - Other Data Report

Other Data: 15               Budget Deficit Reconciliation                                                                         Fiscal Year: 2013          Period: SEPTEMBER
       Entity: 1602          PENSION BENEFIT GUARANTY CORPORATION                                                                     Agency Notes:    MTS & SF 133
       Status: Complete                                                                               I = Inactive Line



    Tab: Other Text Data

       Section: C                Section Name: Earned Revenue to Undistributed Offsetting Receipts               No Data: YES
                                               - Employer Share, Employee Retirement (DOS, DOD
                                               and OPM only)

Line        Question                                                                                                      Answer
1           Provide a cross-reference to intragovernmental earned revenue reported in PAR in the "Agency
            Notes" field.
2           Provide a detailed description fo the difference and whether this difference will be resolved next
            FY.
    Tab: Other Text Data

       Section: D                Section Name: Earned Revenue to Undistributed Offsetting Receipts               No Data: YES
                                               - Interest Rec by Trust Funds (DOS, DOD, DOL, SSA,
                                               HHS and OPM only)

Line        Question                                                                                                      Answer
1           Provide a cross-reference to intragovernmental earned revenue reported in PAR in the "Agency
            Notes" field.
2           Provide a detailed description fo the difference and whether this difference will be resolved next
            FY.
    Tab: Other Text Data

       Section: E                Section Name: Operating Revenue to Undistributed Offsetting                     No Data: YES
                                               Receipts (DOI only)

Line        Question                                                                                                      Answer
1           Provide a detailed description fo the difference and whether this difference will be resolved next
            FY.




                                                                                                           - 13 -
                                                                                                                                                                            11/15/2013 22:26:11

                                                                               U.S. Department of the Treasury
                                                                                Financial Management Service
                                                                           Governmentwide Financial Report System
                                                                                  GF007 - Other Data Report

 Other Data: 16             Components of Loans and Equity Investments                                                         Fiscal Year: 2013             Period: SEPTEMBER
       Entity: 1602         PENSION BENEFIT GUARANTY CORPORATION                                                                   Agency Notes:      N/A
      Status: Complete                                                                        I = Inactive Line


  Tab: Other Data Info.
     Section: A               Section Name: Components of Direct Loans Receivable, Gross -          No Data: YES               Line Attributes: Dollars
                                            Current Year                                                                     Rounding Method: User-Defined           Decimal: User-Defined


Line Status   Line Description        NB      CY-Federal Direct Student   CY-Electric Loans       CY-Rural Housing Service        CY-Federal Family              CY-Water and         CY-Farm Loans
                                                              Loans                                                               Education Loan        Environmental Loans
 1            Direct Loans            Debit
              Receivable, Gross -
              Beginning of Year
 2            Disbursements           Debit
              (loans
              made/securities
              purchased)
 3            Repayments              Debit
 4            Losses                  Debit
 5            Capitalized interest    Debit
 6            Capitalized dividends Debit
 7            Other                   Debit
 8            Direct Loans            N/A
              receivable, gross-
              end of the year

Line Status   Line Description        NB        CY-Export-Import Bank        CY-U.S. Agency for      CY-Housing and Urban CY-GSE Mortgage Backed             CY-All other loans              CY-Total
                                                             Loans    International Development           Development          Securities Purchase               receivable
                                                                                                                                       Program
 1            Direct Loans            Debit
              Receivable, Gross -
              Beginning of Year
 2            Disbursements           Debit
              (loans
              made/securities
              purchased)
 3            Repayments              Debit
 4            Losses                  Debit
 5            Capitalized interest    Debit
 6            Capitalized dividends   Debit
 7            Other                   Debit
 8            Direct Loans             N/A
              receivable, gross-



                                                                                                  - 14 -
                                                                                                                                                                              11/15/2013 22:26:11

                                                                                U.S. Department of the Treasury
                                                                                 Financial Management Service
                                                                            Governmentwide Financial Report System
                                                                                   GF007 - Other Data Report

 Other Data: 16              Components of Loans and Equity Investments                                                          Fiscal Year: 2013             Period: SEPTEMBER
       Entity: 1602          PENSION BENEFIT GUARANTY CORPORATION                                                                    Agency Notes:      N/A
      Status: Complete                                                                          I = Inactive Line


  Tab: Other Data Info.
     Section: A                 Section Name: Components of Direct Loans Receivable, Gross -          No Data: YES               Line Attributes: Dollars
                                              Current Year                                                                     Rounding Method: User-Defined           Decimal: User-Defined


Line Status   Line Description         NB       CY-Export-Import Bank        CY-U.S. Agency for        CY-Housing and Urban CY-GSE Mortgage Backed             CY-All other loans              CY-Total
                                                             Loans    International Development             Development          Securities Purchase               receivable
                                                                                                                                         Program
              end of the year




     Section: B                 Section Name: Components of Direct Loans Receivable, Gross -          No Data: YES               Line Attributes: Dollars
                                              Prior Year                                                                       Rounding Method: User-Defined           Decimal: User-Defined


Line Status   Line Description         NB     PY-Federal Direct Student     PY-Electric Loans       PY-Rural Housing Service        PY-Federal Family              PY-Water and         PY-Farm Loans
                                                              Loans                                                                 Education Loan        Environmental Loans
 1            Direct Loans            Debit
              Receivable, gross -
              beginning of year
 2            Disbursements           Debit
              (loans
              made/securities
              purchased)
 3            Repayments              Debit
 4            Losses                  Debit
 5            Capitalized interest    Debit
 6            Capitalized dividends Debit
 7            Other                   Debit
 8            Direct Loans             N/A
              receivable, gross-
              end of the year

Line Status   Line Description         NB       PY-Export-Import Bank        PY-U.S. Agency for        PY-Housing and Urban PY-GSE Mortgage Backed             PY-All other loans              PY-Total
                                                             Loans    International Development             Development          Securities Purchase               receivable
                                                                                                                                         Program
 1            Direct Loans            Debit



                                                                                                    - 15 -
                                                                                                                                                                          11/15/2013 22:26:11

                                                                                U.S. Department of the Treasury
                                                                                 Financial Management Service
                                                                            Governmentwide Financial Report System
                                                                                   GF007 - Other Data Report

 Other Data: 16             Components of Loans and Equity Investments                                                       Fiscal Year: 2013             Period: SEPTEMBER
       Entity: 1602         PENSION BENEFIT GUARANTY CORPORATION                                                                 Agency Notes:    N/A
      Status: Complete                                                                       I = Inactive Line


  Tab: Other Data Info.
     Section: B               Section Name: Components of Direct Loans Receivable, Gross -         No Data: YES              Line Attributes: Dollars
                                            Prior Year                                                                     Rounding Method: User-Defined           Decimal: User-Defined


Line Status   Line Description        NB      PY-Export-Import Bank        PY-U.S. Agency for       PY-Housing and Urban PY-GSE Mortgage Backed            PY-All other loans              PY-Total
                                                           Loans    International Development            Development          Securities Purchase              receivable
                                                                                                                                      Program
              Receivable, gross -
              beginning of year
 2            Disbursements           Debit
              (loans
              made/securities
              purchased)
 3            Repayments              Debit
 4            Losses                  Debit
 5            Capitalized interest    Debit
 6            Capitalized dividends   Debit
 7            Other                   Debit
 8            Direct Loans            N/A
              receivable, gross-
              end of the year
     Section: C               Section Name: Components of Loan Guarantees, Gross - Current         No Data: YES              Line Attributes: Dollars
                                            Year                                                                           Rounding Method: User-Defined           Decimal: User-Defined


Line Status   Line Description        NB          CY-Federal Family         CY-Federal Housing       CY-Veterans Housing    CY-Export-Import Bank CY-Small Business Loans CY-Israeli Loan Guarantee
                                                 Education Loans         Administration Loans         Benefit Program                    Loans                                          Program
 1            Guaranteed Loans,       Debit
              gross-beginning of
              the year
 2            Disbursements           Debit
              (loans
              made/securities
              purchased)
 3            Repayments              Debit
 4            Other                   Debit
 5            Guaranteed Loans,       N/A
              gross-end of the
              year




                                                                                                 - 16 -
                                                                                                                                                                         11/15/2013 22:26:11

                                                                               U.S. Department of the Treasury
                                                                                Financial Management Service
                                                                           Governmentwide Financial Report System
                                                                                  GF007 - Other Data Report

 Other Data: 16            Components of Loans and Equity Investments                                                       Fiscal Year: 2013              Period: SEPTEMBER
       Entity: 1602        PENSION BENEFIT GUARANTY CORPORATION                                                                 Agency Notes:       N/A
      Status: Complete                                                                      I = Inactive Line


  Tab: Other Data Info.
     Section: C              Section Name: Components of Loan Guarantees, Gross - Current         No Data: YES              Line Attributes: Dollars
                                           Year                                                                           Rounding Method: User-Defined            Decimal: User-Defined


Line Status   Line Description      NB      CY-OPIC Credit Program CY-Rural Housing Service CY-Business and Industry            CY-Export Credit     CY-All other Guaranteed               CY-Total
                                                                                                           Loans           Guarantee Programs                       loans
 1            Guaranteed Loans,     Debit
              gross-beginning of
              the year
 2            Disbursements         Debit
              (loans
              made/securities
              purchased)
 3            Repayments            Debit
 4            Other                 Debit
 5            Guaranteed Loans,       N/A
              gross-end of the
              year
     Section: D               Section Name: Components of Loan Guarantees, Gross - Prior Year     No Data: YES              Line Attributes: Dollars
                                                                                                                          Rounding Method: User-Defined            Decimal: User-Defined
Line Status   Line Description      NB           PY-Federal Family         PY-Federal Housing       PY-Veterans Housing    PY-Export-Import Bank PY-Small Business Loans PY-Israeli Loan Guarantee
                                                Education Loans         Administration Loans         Benefit Program                    Loans                                          Program
 1             Guaranteed Loans,    Debit
               gross-beginning of
               the year
 2             Disbursements        Debit
               (loans
               made/securities
               purchased)
 3             Repayments           Debit
 4             Other                Debit
 5             Guaranteed Loans,    N/A
               gross-end of the
               year

Line Status   Line Description      NB      PY-OPIC Credit Program PY-Rural Housing Service PY-Business and Industry             PY-Export Credit    PY-All other Guaranteed               PY-Total
                                                                                                           Loans           Guarantee Programs                       loans
 1            Guaranteed Loans,     Debit
              gross-beginning of
              the year



                                                                                                - 17 -
                                                                                                                                                                             11/15/2013 22:26:11

                                                                                U.S. Department of the Treasury
                                                                                 Financial Management Service
                                                                            Governmentwide Financial Report System
                                                                                   GF007 - Other Data Report

 Other Data: 16             Components of Loans and Equity Investments                                                          Fiscal Year: 2013              Period: SEPTEMBER
       Entity: 1602         PENSION BENEFIT GUARANTY CORPORATION                                                                    Agency Notes:       N/A
      Status: Complete                                                                          I = Inactive Line


  Tab: Other Data Info.
     Section: D                 Section Name: Components of Loan Guarantees, Gross - Prior Year       No Data: YES              Line Attributes: Dollars
                                                                                                                              Rounding Method: User-Defined            Decimal: User-Defined
Line Status   Line Description         NB      PY-OPIC Credit Program PY-Rural Housing Service PY-Business and Industry              PY-Export Credit    PY-All other Guaranteed               PY-Total
                                                                                                              Loans            Guarantee Programs                       loans
 2            Disbursements           Debit
              (loans
              made/securities
              purchased)
 3            Repayments              Debit
 4            Other                   Debit
 5            Guaranteed Loans,       N/A
              gross-end of the
              year
     Section: E               Section Name: Components of TARP Direct Loans and Equity                No Data: YES              Line Attributes: Dollars
                                            Investments, Gross - Current Year                                                 Rounding Method: User-Defined            Decimal: User-Defined


Line Status   Line Description         NB         CY-Capital Purchase    CY-AIG, Inc., Investment    CY-Targeted Investment    CY-Automotive Industry         CY-Consumer and           CY-Public-Private
                                                          Program                     Program                   Program         Financing Program              Business Lending    Investment Program
                                                                                                                                                                    Initiative
 1            TARP loans and          Debit
              equity investments
              receivable, gross-
              beginning of year
 2            Disbursements           Debit
              (loans
              made/securities
              purchased)
 3            Repayments              Debit
 4            Losses                  Debit
 5            Capitalized interest    Debit
 6            Capitalized dividends Debit
 7            Other                   Debit
 8            TARP loans and           N/A
              equity investments
              receivable, gross-
              end of year

Line Status   Line Description         NB           CY-All Other TARP                CY-Total
                                                         Programs


                                                                                                    - 18 -
                                                                                                                                                                           11/15/2013 22:26:11

                                                                                U.S. Department of the Treasury
                                                                                 Financial Management Service
                                                                            Governmentwide Financial Report System
                                                                                   GF007 - Other Data Report

 Other Data: 16             Components of Loans and Equity Investments                                                          Fiscal Year: 2013             Period: SEPTEMBER
       Entity: 1602         PENSION BENEFIT GUARANTY CORPORATION                                                                    Agency Notes:       N/A
      Status: Complete                                                                          I = Inactive Line


  Tab: Other Data Info.
     Section: E               Section Name: Components of TARP Direct Loans and Equity                No Data: YES              Line Attributes: Dollars
                                            Investments, Gross - Current Year                                                 Rounding Method: User-Defined          Decimal: User-Defined


Line Status   Line Description        NB          CY-All Other TARP                  CY-Total
                                                       Programs
 1            TARP loans and          Debit
              equity investments
              receivable, gross-
              beginning of year
 2            Disbursements           Debit
              (loans
              made/securities
              purchased)
 3            Repayments              Debit
 4            Losses                  Debit
 5            Capitalized interest    Debit
 6            Capitalized dividends   Debit
 7            Other                   Debit
 8            TARP loans and          N/A
              equity investments
              receivable, gross-
              end of year
     Section: F               Section Name: Components of TARP Direct Loans and Equity                No Data: YES              Line Attributes: Dollars
                                            Investments, Gross - Prior Year                                                   Rounding Method: User-Defined          Decimal: User-Defined


Line Status   Line Description        NB        PY-Capital Purchase      PY-AIG, Inc., Investment    PY-Targeted Investment    PY-Automotive Industry         PY-Consumer and         PY-Public-Private
                                                        Program                       Program                   Program         Financing Program             Business Lending   Investment Program
                                                                                                                                                                   Initiative
 1            TARP loans and          Debit
              equity investments
              receivable, gross-
              beginning of year
 2            Disbursements           Debit
              (loans
              made/securities
              purchased)
 3            Repayments              Debit
 4            Losses                  Debit



                                                                                                    - 19 -
                                                                                                                                                                           11/15/2013 22:26:11

                                                                                U.S. Department of the Treasury
                                                                                 Financial Management Service
                                                                            Governmentwide Financial Report System
                                                                                   GF007 - Other Data Report

 Other Data: 16             Components of Loans and Equity Investments                                                          Fiscal Year: 2013             Period: SEPTEMBER
       Entity: 1602         PENSION BENEFIT GUARANTY CORPORATION                                                                    Agency Notes:       N/A
      Status: Complete                                                                          I = Inactive Line


  Tab: Other Data Info.
     Section: F               Section Name: Components of TARP Direct Loans and Equity                No Data: YES              Line Attributes: Dollars
                                            Investments, Gross - Prior Year                                                   Rounding Method: User-Defined          Decimal: User-Defined


Line Status   Line Description        NB        PY-Capital Purchase      PY-AIG, Inc., Investment    PY-Targeted Investment    PY-Automotive Industry         PY-Consumer and         PY-Public-Private
                                                        Program                       Program                   Program         Financing Program             Business Lending   Investment Program
                                                                                                                                                                   Initiative
 5            Capitalized interest    Debit
 6            Capitalized dividends Debit
 7            Other                   Debit
 8            TARP loans and          N/A
              equity investments
              receivable, gross-
              end of year

Line Status   Line Description        NB          PY-All Other TARP                  PY-Total
                                                        Programs
 1            TARP loans and          Debit
              equity investments
              receivable, gross-
              beginning of year
 2            Disbursements           Debit
              (loans
              made/securities
              purchased)
 3            Repayments              Debit
 4            Losses                  Debit
 5            Capitalized interest    Debit
 6            Capitalized dividends   Debit
 7            Other                   Debit
 8            TARP loans and           N/A
              equity investments
              receivable, gross-
              end of year




                                                                                                    - 20 -
                                                                                                                                                                     11/15/2013 22:26:11

                                                                                    U.S. Department of the Treasury
                                                                                     Financial Management Service
                                                                                Governmentwide Financial Report System
                                                                                       GF007 - Other Data Report

Other Data: 16              Components of Loans and Equity Investments                                                          Fiscal Year: 2013         Period: SEPTEMBER
       Entity: 1602         PENSION BENEFIT GUARANTY CORPORATION                                                                   Agency Notes:    N/A
       Status: Complete                                                                            I = Inactive Line



    Tab: Other Text Data

       Section: A               Section Name: Components of Direct Loans Receivable, Gross -                 No Data: YES
                                              Current Year

Line        Question                                                                                                   Answer
1           Provide details regarding the programs reported in Sections A and B that comprise amounts
            reported in the "all other Loans Receivable" column.
2           Provide a detailed description of the amounts reported in Sections A and B that comprose the
            "Other" line.

3           Provide details regarding the programs reported in Sections C and D that comprose the "Other"
            line in the "all other Guaranteed Loans" column.
4           Provide a detailed description of the amounts reported in Sections C and D that comprose the
            "Other" line.
5           Provide details regarding the programs reported in Sections E and F that comprise amounts
            reported in the "all other TARP Programs" column.

6           Provide a detailed description of the amounts reported in Sections E and F that comprise the
            "Other" line.




                                                                                                           - 21 -
                                                                                                                                                               11/15/2013 22:26:11

                                                                                U.S. Department of the Treasury
                                                                                 Financial Management Service
                                                                            Governmentwide Financial Report System
                                                                                   GF007 - Other Data Report

 Other Data: 17               Federal Oil and Gas Resources                                                          Fiscal Year: 2013             Period: SEPTEMBER
       Entity: 1602       PENSION BENEFIT GUARANTY CORPORATION                                                           Agency Notes:    N/A
      Status: Complete                                                                        I = Inactive Line


  Tab: Other Data Info.
     Section: A                Section Name: Asset Value for Oil and Gas Proved Resources -         No Data: YES     Line Attributes: Dollars
                                             Offshore                                                              Rounding Method: User-Defined         Decimal: User-Defined


Line Status   Line Description         NB     2013 - SEPTEMBER      D
 1            Oil and Lease            N/A
              Condensate
 2            Natural Gas, Wet         N/A
              After Lease
              Separation
 3                                     N/A
 4                                     N/A
 5                                     N/A
     Section: B                Section Name: Asset Value for Oil and Gas Proved Reserves -          No Data: YES     Line Attributes: Dollars
                                             Onshore                                                               Rounding Method: User-Defined         Decimal: User-Defined


Line Status   Line Description         NB     2013 - SEPTEMBER      D
 1            Oil and Lease            N/A
              Condensate
 2            Natural Gas, Wet         N/A
              After Lease
              Separation
 3                                     N/A
 4                                     N/A
 5                                     N/A




                                                                                                  - 22 -
                                                                                                                                                          11/15/2013 22:26:11

                                                                             U.S. Department of the Treasury
                                                                              Financial Management Service
                                                                         Governmentwide Financial Report System
                                                                                GF007 - Other Data Report

 Other Data: 17           Federal Oil and Gas Resources                                                         Fiscal Year: 2013              Period: SEPTEMBER
       Entity: 1602       PENSION BENEFIT GUARANTY CORPORATION                                                     Agency Notes:         N/A
      Status: Complete                                                                     I = Inactive Line


  Tab: Other Data Info.
     Section: C             Section Name: Quantity of Oil and Gas Proved Reserves - Offshore     No Data: YES   Line Attributes: Units


Line Status   Line Description     NB       2013 - SEPTEMBER
 1            Oil and Lease        N/A
              Condensate
 2            Natural Gas, Wet     N/A
              After Lease
              Separation
 3                                 N/A
 4                                 N/A
 5                                 N/A

     Section: D             Section Name: Quantity of Oil and Gas Proved Reserves - Onshore      No Data: YES   Line Attributes: Units


Line Status   Line Description     NB       2013 - SEPTEMBER
 1            Oil and Lease        N/A
              Condensate
 2            Natural Gas, Wet     N/A
              After Lease
              Separation
 3                                 N/A
 4                                 N/A
 5                                 N/A




                                                                                               - 23 -
                                                                                                                                                                   11/15/2013 22:26:11

                                                                                 U.S. Department of the Treasury
                                                                                  Financial Management Service
                                                                             Governmentwide Financial Report System
                                                                                    GF007 - Other Data Report

 Other Data: 17               Federal Oil and Gas Resources                                                              Fiscal Year: 2013             Period: SEPTEMBER
       Entity: 1602       PENSION BENEFIT GUARANTY CORPORATION                                                               Agency Notes:    N/A
      Status: Complete                                                                            I = Inactive Line


  Tab: Other Data Info.
     Section: E                Section Name: Average of the Regional Average Prices for Oil and         No Data: YES     Line Attributes: Dollars
                                             Gas Proved Reserves - Offshore                                            Rounding Method: User-Defined         Decimal: User-Defined


Line Status   Line Description         NB     2013 - SEPTEMBER       D
 1            Oil and Lease            N/A
              Condensate
 2            Natural Gas, Wet         N/A
              After Lease
              Separation
 3                                     N/A
 4                                     N/A
 5                                     N/A
     Section: F                Section Name: Average of the Regional Average Prices for Oil and         No Data: YES     Line Attributes: Dollars
                                             Gas Proved Reserves - Onshore                                             Rounding Method: User-Defined         Decimal: User-Defined


Line Status   Line Description         NB     2013 - SEPTEMBER       D
 1            Oil and Lease            N/A
              Condensate
 2            Natural Gas, Wet         N/A
              After Lease
              Separation
 3                                     N/A
 4                                     N/A
 5                                     N/A




                                                                                                      - 24 -
                                                                                                                                                                          11/15/2013 22:26:11

                                                                                       U.S. Department of the Treasury
                                                                                        Financial Management Service
                                                                                   Governmentwide Financial Report System
                                                                                          GF007 - Other Data Report

 Other Data: 17                  Federal Oil and Gas Resources                                                                     Fiscal Year: 2013           Period: SEPTEMBER
         Entity: 1602         PENSION BENEFIT GUARANTY CORPORATION                                                                    Agency Notes:      N/A
        Status: Complete                                                                              I = Inactive Line


     Tab: Other Data Info.
      Section: G                  Section Name: Average Royalty Rate for Oil and Gas Proved                  No Data: YES          Line Attributes: Percent
                                                Reserves - Offshore


Line Status      Line Description         NB       2013 - SEPTEMBER
 1               Oil and Lease            N/A
                 Condensate
 2               Natural Gas, Wet         N/A
                 After Lease
                 Separation
 3                                        N/A
 4                                        N/A
 5                                        N/A
      Section: H                  Section Name: Average Royalty Rate for Oil and Gas Proved                  No Data: YES          Line Attributes: Percent
                                                Reserves - Onshore


Line Status      Line Description         NB       2013 - SEPTEMBER
 1               Oil and Lease            N/A
                 Condensate
 2               Natural Gas, Wet         N/A
                 After Lease
                 Separation
 3                                        N/A
 4                                        N/A
 5                                        N/A

     Tab: Other Text Data

        Section: A                  Section Name: Asset Value for Oil and Gas Proved Resources -               No Data: YES
                                                  Offshore

 Line         Question                                                                                                    Answer
 1            Provide a concise statement explaining the nature and valuation (for example, measurement
              method, significant assumptions, etc.) of federal oil and gas resources.
 2            Describe any significant changes in the estimation methodology, including the underlying
              assumptions.
 3            Provide any other relevant information pertaining to this note. At a minumum, describe briefly the
              significant accounting policies pertaining to this note.




                                                                                                           - 25 -
                                                                                                                                                                      11/15/2013 22:26:11

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                        GF007 - Other Data Report

Other Data: 17              Federal Oil and Gas Resources                                                                        Fiscal Year: 2013         Period: SEPTEMBER
       Entity: 1602         PENSION BENEFIT GUARANTY CORPORATION                                                                    Agency Notes:    N/A
       Status: Complete                                                                             I = Inactive Line



    Tab: Other Text Data

       Section: B               Section Name: Asset Value for Oil and Gas Proved Reserves -                  No Data: YES
                                              Onshore

Line        Question                                                                                                    Answer
1           Provide a concise statement explaining the nature and valuation (for example, measurement
            method, significant assumptions, etc.) of federal oil and gas resources.
2           Describe any significant changes in the estimation methodology, including the underlying
            assumptions.
3           Provide any other relevant information pertaining to this note. At a minumum, describe briefly the
            significant accounting policies pertaining to this note.
    Tab: Other Text Data

       Section: C               Section Name: Quantity of Oil and Gas Proved Reserves - Offshore             No Data: YES

Line        Question                                                                                                    Answer
1           Provide a concise statement explaining the nature and valuation (for example, measurement
            method, significant assumptions, etc.) of federal oil and gas resources.
2           Describe any significant changes in the estimation methodology, including the underlying
            assumptions.
3           Provide any other relevant information pertaining to this note. At a minumum, describe briefly the
            significant accounting policies pertaining to this note.
    Tab: Other Text Data

       Section: D               Section Name: Quantity of Oil and Gas Proved Reserves - Onshore              No Data: YES

Line        Question                                                                                                    Answer
1           Provide a concise statement explaining the nature and valuation (for example, measurement
            method, significant assumptions, etc.) of federal oil and gas resources.
2           Describe any significant changes in the estimation methodology, including the underlying
            assumptions.
3           Provide any other relevant information pertaining to this note. At a minumum, describe briefly the
            significant accounting policies pertaining to this note.
    Tab: Other Text Data

       Section: E               Section Name: Average of the Regional Average Prices for Oil and             No Data: YES
                                              Gas Proved Reserves - Offshore

Line        Question                                                                                                    Answer
1           Provide a concise statement explaining the nature and valuation (for example, measurement
            method, significant assumptions, etc.) of federal oil and gas resources.
2           Describe any significant changes in the estimation methodology, including the underlying



                                                                                                         - 26 -
                                                                                                                                                                      11/15/2013 22:26:11

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                        GF007 - Other Data Report

Other Data: 17              Federal Oil and Gas Resources                                                                        Fiscal Year: 2013         Period: SEPTEMBER
       Entity: 1602         PENSION BENEFIT GUARANTY CORPORATION                                                                    Agency Notes:    N/A
       Status: Complete                                                                             I = Inactive Line



    Tab: Other Text Data

       Section: E               Section Name: Average of the Regional Average Prices for Oil and             No Data: YES
                                              Gas Proved Reserves - Offshore

Line        Question                                                                                                    Answer
            assumptions.
3           Provide any other relevant information pertaining to this note. At a minumum, describe briefly the
            significant accounting policies pertaining to this note.
    Tab: Other Text Data

       Section: F               Section Name: Average of the Regional Average Prices for Oil and             No Data: YES
                                              Gas Proved Reserves - Onshore

Line        Question                                                                                                    Answer
1           Provide a concise statement explaining the nature and valuation (for example, measurement
            method, significant assumptions, etc.) of federal oil and gas resources.
2           Describe any significant changes in the estimation methodology, including the underlying
            assumptions.
3           Provide any other relevant information pertaining to this note. At a minumum, describe briefly the
            significant accounting policies pertaining to this note.
    Tab: Other Text Data

       Section: G               Section Name: Average Royalty Rate for Oil and Gas Proved                    No Data: YES
                                              Reserves - Offshore

Line        Question                                                                                                    Answer
1           Provide a concise statement explaining the nature and valuation (for example, measurement
            method, significant assumptions, etc.) of federal oil and gas resources.
2           Describe any significant changes in the estimation methodology, including the underlying
            assumptions.
3           Provide any other relevant information pertaining to this note. At a minumum, describe briefly the
            significant accounting policies pertaining to this note.
    Tab: Other Text Data

       Section: H               Section Name: Average Royalty Rate for Oil and Gas Proved                    No Data: YES
                                              Reserves - Onshore

Line        Question                                                                                                    Answer
1           Provide a concise statement explaining the nature and valuation (for example, measurement
            method, significant assumptions, etc.) of federal oil and gas resources.
2           Describe any significant changes in the estimation methodology, including the underlying
            assumptions.



                                                                                                         - 27 -
                                                                                                                                                                      11/15/2013 22:26:11

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                        GF007 - Other Data Report

Other Data: 17              Federal Oil and Gas Resources                                                                        Fiscal Year: 2013         Period: SEPTEMBER
       Entity: 1602         PENSION BENEFIT GUARANTY CORPORATION                                                                    Agency Notes:    N/A
       Status: Complete                                                                             I = Inactive Line



 Tab: Other Text Data

       Section: H               Section Name: Average Royalty Rate for Oil and Gas Proved                    No Data: YES
                                              Reserves - Onshore

Line        Question                                                                                                    Answer
3           Provide any other relevant information pertaining to this note. At a minumum, describe briefly the
            significant accounting policies pertaining to this note.




                                                                                                         - 28 -
  Audit of the Pension Benefit Guaranty

Corporation’s Financial Statements Closing

  Package for Fiscal Year 2013 and 2012




  Audit Report AUD-2014-4 / FA-13-93-3




              Section XI


GF120 – Reclassification Audit Trail
Report at Statement Summary Level
                                                                U.S.Department of the Treasury                                                     11/15/2013 22:32:20
                                                                 Financial Management Service
                                                            Governmentwide Financial Report System


                                                GF120 - Reclassification Audit Trail Report - Agency Line Level

Statement: BALANCE SHEET                                                                 Fiscal Year: 2013                          Period: SEPTEMBER

Entity: 1602 - PENSION BENEFIT GUARANTY CORPORATION                            Reporting Method: MILLIONS                   Decimal Point: ZERO

Agency Line Item: Cash and cash equivalents                                      Account Type: A                                        F/N: B

                                                                           2013-SEPTEMBER
F/N Line Item Description             FR/Entity          Debit                  Credit                       Variance             Date/Time               User Id

N   Cash and Other Monetary Assets       FR                      3,563                                                       11/05/2013 07:47:39    SLESLI01
F   Fund Balance with Treasury           FR                          1                                                       11/05/2013 07:47:39    SLESLI01
F   Federal Investments                  FR                        813                                                       11/05/2013 07:47:39    SLESLI01

B         Cash and cash equivalents    Entity                                                4,377                      0    11/05/2013 07:47:39    SLESLI01


                                                                           2012-SEPTEMBER
F/N Line Item Description             FR/Entity          Debit                  Credit                       Variance             Date/Time               User Id

N   Cash and Other Monetary Assets       FR                      3,540                                                       11/05/2013 07:47:39    SLESLI01
F   Fund Balance with Treasury           FR                          1                                                       11/05/2013 07:47:39    SLESLI01
F   Federal Investments                  FR                        266                                                       11/05/2013 07:47:39    SLESLI01

B         Cash and cash equivalents    Entity                                                3,807                      0    11/05/2013 07:47:39    SLESLI01




                                                                              - 1 -
                                                                             U.S.Department of the Treasury                                                     11/15/2013 22:32:20
                                                                              Financial Management Service
                                                                         Governmentwide Financial Report System


                                                             GF120 - Reclassification Audit Trail Report - Agency Line Level

Statement: BALANCE SHEET                                                                              Fiscal Year: 2013                          Period: SEPTEMBER

Entity: 1602 - PENSION BENEFIT GUARANTY CORPORATION                                         Reporting Method: MILLIONS                   Decimal Point: ZERO

Agency Line Item: Securities lending collateral (Notes 3 and 5)                               Account Type: A                                        F/N: N

                                                                                        2013-SEPTEMBER
F/N Line Item Description                          FR/Entity          Debit                  Credit                       Variance             Date/Time               User Id

N   Debt and Equity Securities                        FR                      3,322                                                       10/29/2013 17:49:23    SLESLI01

N         Securities lending collateral (Notes 3    Entity                                                3,322                      0    10/29/2013 17:49:23    SLESLI01
    and 5)

                                                                                        2012-SEPTEMBER
F/N Line Item Description                          FR/Entity          Debit                  Credit                       Variance             Date/Time               User Id

N   Debt and Equity Securities                        FR                      3,425                                                       10/29/2013 17:49:23    SLESLI01

N         Securities lending collateral (Notes 3    Entity                                                3,425                      0    10/29/2013 17:49:23    SLESLI01
    and 5)




                                                                                           - 2 -
                                                                U.S.Department of the Treasury                                                     11/15/2013 22:32:20
                                                                 Financial Management Service
                                                            Governmentwide Financial Report System


                                                GF120 - Reclassification Audit Trail Report - Agency Line Level

Statement: BALANCE SHEET                                                                 Fiscal Year: 2013                          Period: SEPTEMBER

Entity: 1602 - PENSION BENEFIT GUARANTY CORPORATION                            Reporting Method: MILLIONS                   Decimal Point: ZERO

Agency Line Item: Fixed maturity securities                                      Account Type: A                                        F/N: B

                                                                           2013-SEPTEMBER
F/N Line Item Description             FR/Entity          Debit                  Credit                       Variance             Date/Time               User Id

N   Other Assets                         FR                                                      51                          11/05/2013 07:49:54    SLESLI01
F   Federal Investments                  FR                      23,767                                                      11/05/2013 07:49:54    SLESLI01
N   Debt and Equity Securities           FR                      25,115                                                      11/05/2013 07:49:54    SLESLI01

B         Fixed maturity securities    Entity                                                48,831                     0    11/05/2013 07:49:54    SLESLI01


                                                                           2012-SEPTEMBER
F/N Line Item Description             FR/Entity          Debit                  Credit                       Variance             Date/Time               User Id

N   Other Assets                         FR                          1                                                       11/05/2013 07:49:54    SLESLI01
F   Federal Investments                  FR                      22,691                                                      11/05/2013 07:49:54    SLESLI01
N   Debt and Equity Securities           FR                      25,319                                                      11/05/2013 07:49:54    SLESLI01

B         Fixed maturity securities    Entity                                                48,011                     0    11/05/2013 07:49:54    SLESLI01




                                                                              - 3 -
                                                                U.S.Department of the Treasury                                                     11/15/2013 22:32:20
                                                                 Financial Management Service
                                                            Governmentwide Financial Report System


                                                GF120 - Reclassification Audit Trail Report - Agency Line Level

Statement: BALANCE SHEET                                                                 Fiscal Year: 2013                          Period: SEPTEMBER

Entity: 1602 - PENSION BENEFIT GUARANTY CORPORATION                            Reporting Method: MILLIONS                   Decimal Point: ZERO

Agency Line Item: Equity securities                                              Account Type: A                                        F/N: N

                                                                           2013-SEPTEMBER
F/N Line Item Description             FR/Entity          Debit                  Credit                       Variance             Date/Time               User Id

N   Debt and Equity Securities           FR                      22,317                                                      11/05/2013 07:50:33    SLESLI01

N         Equity securities            Entity                                                22,317                     0    11/05/2013 07:50:33    SLESLI01


                                                                           2012-SEPTEMBER
F/N Line Item Description             FR/Entity          Debit                  Credit                       Variance             Date/Time               User Id

N   Debt and Equity Securities           FR                      21,463                                                      11/05/2013 07:50:33    SLESLI01

N         Equity securities            Entity                                                21,463                     0    11/05/2013 07:50:33    SLESLI01




                                                                              - 4 -
                                                             U.S.Department of the Treasury                                                     11/15/2013 22:32:20
                                                              Financial Management Service
                                                         Governmentwide Financial Report System


                                             GF120 - Reclassification Audit Trail Report - Agency Line Level

Statement: BALANCE SHEET                                                              Fiscal Year: 2013                          Period: SEPTEMBER

Entity: 1602 - PENSION BENEFIT GUARANTY CORPORATION                         Reporting Method: MILLIONS                   Decimal Point: ZERO

Agency Line Item: Private equity                                              Account Type: A                                        F/N: N

                                                                        2013-SEPTEMBER
F/N Line Item Description          FR/Entity          Debit                  Credit                       Variance             Date/Time               User Id

N   Debt and Equity Securities        FR                      1,228                                                       10/29/2013 18:11:18    SLESLI01

N         Private equity            Entity                                                1,228                      0    10/29/2013 18:11:18    SLESLI01


                                                                        2012-SEPTEMBER
F/N Line Item Description          FR/Entity          Debit                  Credit                       Variance             Date/Time               User Id

N   Debt and Equity Securities        FR                      1,339                                                       10/29/2013 18:11:18    SLESLI01

N         Private equity            Entity                                                1,339                      0    10/29/2013 18:11:18    SLESLI01




                                                                           - 5 -
                                                                  U.S.Department of the Treasury                                                     11/15/2013 22:32:20
                                                                   Financial Management Service
                                                              Governmentwide Financial Report System


                                                  GF120 - Reclassification Audit Trail Report - Agency Line Level

Statement: BALANCE SHEET                                                                   Fiscal Year: 2013                          Period: SEPTEMBER

Entity: 1602 - PENSION BENEFIT GUARANTY CORPORATION                              Reporting Method: MILLIONS                   Decimal Point: ZERO

Agency Line Item: Real estate and real estate investment trusts                    Account Type: A                                        F/N: N

                                                                             2013-SEPTEMBER
F/N Line Item Description               FR/Entity          Debit                  Credit                       Variance             Date/Time               User Id

N   Debt and Equity Securities             FR                      2,373                                                       11/05/2013 07:52:29    SLESLI01

N         Real estate and real estate    Entity                                                2,373                      0    11/05/2013 07:52:29    SLESLI01
    investment trusts

                                                                             2012-SEPTEMBER
F/N Line Item Description               FR/Entity          Debit                  Credit                       Variance             Date/Time               User Id

N   Debt and Equity Securities             FR                        878                                                       11/05/2013 07:52:29    SLESLI01

N         Real estate and real estate    Entity                                                  878                      0    11/05/2013 07:52:29    SLESLI01
    investment trusts




                                                                                - 6 -
                                                           U.S.Department of the Treasury                                                     11/15/2013 22:32:20
                                                            Financial Management Service
                                                       Governmentwide Financial Report System


                                           GF120 - Reclassification Audit Trail Report - Agency Line Level

Statement: BALANCE SHEET                                                            Fiscal Year: 2013                          Period: SEPTEMBER

Entity: 1602 - PENSION BENEFIT GUARANTY CORPORATION                       Reporting Method: MILLIONS                   Decimal Point: ZERO

Agency Line Item: Other                                                     Account Type: A                                        F/N: N

                                                                      2013-SEPTEMBER
F/N Line Item Description        FR/Entity          Debit                  Credit                       Variance             Date/Time               User Id

N   Debt and Equity Securities      FR                         28                                                       10/29/2013 18:13:07    SLESLI01

N         Other                   Entity                                                   28                      0    10/29/2013 18:13:07    SLESLI01


                                                                      2012-SEPTEMBER
F/N Line Item Description        FR/Entity          Debit                  Credit                       Variance             Date/Time               User Id

N   Debt and Equity Securities      FR                         77                                                       10/29/2013 18:13:07    SLESLI01

N         Other                   Entity                                                   77                      0    10/29/2013 18:13:07    SLESLI01




                                                                         - 7 -
                                                                   U.S.Department of the Treasury                                                     11/15/2013 22:32:20
                                                                    Financial Management Service
                                                               Governmentwide Financial Report System


                                                   GF120 - Reclassification Audit Trail Report - Agency Line Level

Statement: BALANCE SHEET                                                                    Fiscal Year: 2013                          Period: SEPTEMBER

Entity: 1602 - PENSION BENEFIT GUARANTY CORPORATION                               Reporting Method: MILLIONS                   Decimal Point: ZERO

Agency Line Item: Sponsors of terminated plans                                      Account Type: A                                        F/N: N

                                                                              2013-SEPTEMBER
F/N Line Item Description                FR/Entity          Debit                  Credit                       Variance             Date/Time               User Id

N   Accounts and Taxes Receivable           FR                         60                                                       10/29/2013 18:13:44    SLESLI01

N         Sponsors of terminated plans    Entity                                                   60                      0    10/29/2013 18:13:44    SLESLI01


                                                                              2012-SEPTEMBER
F/N Line Item Description                FR/Entity          Debit                  Credit                       Variance             Date/Time               User Id

N   Accounts and Taxes Receivable           FR                         41                                                       10/29/2013 18:13:44    SLESLI01

N         Sponsors of terminated plans    Entity                                                   41                      0    10/29/2013 18:13:44    SLESLI01




                                                                                 - 8 -
                                                                U.S.Department of the Treasury                                                     11/15/2013 22:32:20
                                                                 Financial Management Service
                                                            Governmentwide Financial Report System


                                                GF120 - Reclassification Audit Trail Report - Agency Line Level

Statement: BALANCE SHEET                                                                 Fiscal Year: 2013                          Period: SEPTEMBER

Entity: 1602 - PENSION BENEFIT GUARANTY CORPORATION                            Reporting Method: MILLIONS                   Decimal Point: ZERO

Agency Line Item: Premiums (Note 11)                                             Account Type: A                                        F/N: N

                                                                           2013-SEPTEMBER
F/N Line Item Description           FR/Entity            Debit                  Credit                       Variance             Date/Time               User Id

N   Accounts and Taxes Receivable       FR                       1,037                                                       10/29/2013 18:14:34    SLESLI01

N         Premiums (Note 11)           Entity                                                1,037                      0    10/29/2013 18:14:34    SLESLI01


                                                                           2012-SEPTEMBER
F/N Line Item Description           FR/Entity            Debit                  Credit                       Variance             Date/Time               User Id

N   Accounts and Taxes Receivable       FR                       1,087                                                       10/29/2013 18:14:34    SLESLI01

N         Premiums (Note 11)           Entity                                                1,087                      0    10/29/2013 18:14:34    SLESLI01




                                                                              - 9 -
                                                                 U.S.Department of the Treasury                                                      11/15/2013 22:32:20
                                                                  Financial Management Service
                                                             Governmentwide Financial Report System


                                                 GF120 - Reclassification Audit Trail Report - Agency Line Level

Statement: BALANCE SHEET                                                                   Fiscal Year: 2013                          Period: SEPTEMBER

Entity: 1602 - PENSION BENEFIT GUARANTY CORPORATION                             Reporting Method: MILLIONS                    Decimal Point: ZERO

Agency Line Item: Sale of securities                                               Account Type: A                                        F/N: N

                                                                            2013-SEPTEMBER
F/N Line Item Description              FR/Entity          Debit                   Credit                       Variance             Date/Time               User Id

N   Accounts and Taxes Receivable         FR                        601                                                        10/29/2013 18:15:10    SLESLI01

N         Sale of securities            Entity                                                   601                      0    10/29/2013 18:15:10    SLESLI01


                                                                            2012-SEPTEMBER
F/N Line Item Description              FR/Entity          Debit                   Credit                       Variance             Date/Time               User Id

N   Accounts and Taxes Receivable         FR                      1,353                                                        10/29/2013 18:15:10    SLESLI01

N         Sale of securities            Entity                                                 1,353                      0    10/29/2013 18:15:10    SLESLI01




                                                                               - 10 -
                                                                    U.S.Department of the Treasury                                                      11/15/2013 22:32:20
                                                                     Financial Management Service
                                                                Governmentwide Financial Report System


                                                    GF120 - Reclassification Audit Trail Report - Agency Line Level

Statement: BALANCE SHEET                                                                      Fiscal Year: 2013                          Period: SEPTEMBER

Entity: 1602 - PENSION BENEFIT GUARANTY CORPORATION                                Reporting Method: MILLIONS                    Decimal Point: ZERO

Agency Line Item: Derivative contracts (Note 4)                                       Account Type: A                                        F/N: N

                                                                               2013-SEPTEMBER
F/N Line Item Description                 FR/Entity          Debit                   Credit                       Variance             Date/Time               User Id

N   Other Assets                             FR                        173                                                        10/29/2013 18:16:41    SLESLI01
N   Accounts and Taxes Receivable            FR                        103                                                        10/29/2013 18:16:41    SLESLI01

N         Derivative contracts (Note 4)    Entity                                                   276                      0    10/29/2013 18:16:41    SLESLI01


                                                                               2012-SEPTEMBER
F/N Line Item Description                 FR/Entity          Debit                   Credit                       Variance             Date/Time               User Id

N   Other Assets                             FR                          4                                                        10/29/2013 18:16:41    SLESLI01
N   Accounts and Taxes Receivable            FR                         79                                                        10/29/2013 18:16:41    SLESLI01

N         Derivative contracts (Note 4)    Entity                                                    83                      0    10/29/2013 18:16:41    SLESLI01




                                                                                  - 11 -
                                                                U.S.Department of the Treasury                                                      11/15/2013 22:32:20
                                                                 Financial Management Service
                                                            Governmentwide Financial Report System


                                                GF120 - Reclassification Audit Trail Report - Agency Line Level

Statement: BALANCE SHEET                                                                  Fiscal Year: 2013                          Period: SEPTEMBER

Entity: 1602 - PENSION BENEFIT GUARANTY CORPORATION                            Reporting Method: MILLIONS                    Decimal Point: ZERO

Agency Line Item: Investment income                                               Account Type: A                                        F/N: B

                                                                           2013-SEPTEMBER
F/N Line Item Description             FR/Entity          Debit                   Credit                       Variance             Date/Time               User Id

F   Interest Receivable                  FR                        135                                                        10/29/2013 18:18:19    SLESLI01
N   Accounts and Taxes Receivable        FR                          4                                                        10/29/2013 18:18:19    SLESLI01
N   Debt and Equity Securities           FR                        306                                                        10/29/2013 18:18:19    SLESLI01

B         Investment income            Entity                                                   445                      0    10/29/2013 18:18:19    SLESLI01


                                                                           2012-SEPTEMBER
F/N Line Item Description             FR/Entity          Debit                   Credit                       Variance             Date/Time               User Id

F   Interest Receivable                  FR                        164                                                        10/29/2013 18:18:19    SLESLI01
N   Accounts and Taxes Receivable        FR                          4                                                        10/29/2013 18:18:19    SLESLI01
N   Debt and Equity Securities           FR                        296                                                        10/29/2013 18:18:19    SLESLI01

B         Investment income            Entity                                                   464                      0    10/29/2013 18:18:19    SLESLI01




                                                                              - 12 -
                                                              U.S.Department of the Treasury                                                      11/15/2013 22:32:20
                                                               Financial Management Service
                                                          Governmentwide Financial Report System


                                              GF120 - Reclassification Audit Trail Report - Agency Line Level

Statement: BALANCE SHEET                                                                Fiscal Year: 2013                          Period: SEPTEMBER

Entity: 1602 - PENSION BENEFIT GUARANTY CORPORATION                          Reporting Method: MILLIONS                    Decimal Point: ZERO

Agency Line Item: Other                                                         Account Type: A                                        F/N: N

                                                                         2013-SEPTEMBER
F/N Line Item Description           FR/Entity          Debit                   Credit                       Variance             Date/Time               User Id

N   Accounts and Taxes Receivable      FR                         4                                                         10/29/2013 18:19:04    SLESLI01

N         Other                      Entity                                                     4                      0    10/29/2013 18:19:04    SLESLI01


                                                                         2012-SEPTEMBER
F/N Line Item Description           FR/Entity          Debit                   Credit                       Variance             Date/Time               User Id

N   Accounts and Taxes Receivable      FR                         4                                                         10/29/2013 18:19:04    SLESLI01

N         Other                      Entity                                                     4                      0    10/29/2013 18:19:04    SLESLI01




                                                                            - 13 -
                                                                U.S.Department of the Treasury                                                      11/15/2013 22:32:20
                                                                 Financial Management Service
                                                            Governmentwide Financial Report System


                                                GF120 - Reclassification Audit Trail Report - Agency Line Level

Statement: BALANCE SHEET                                                                  Fiscal Year: 2013                          Period: SEPTEMBER

Entity: 1602 - PENSION BENEFIT GUARANTY CORPORATION                            Reporting Method: MILLIONS                    Decimal Point: ZERO

Agency Line Item: Capitalized assets, net                                         Account Type: A                                        F/N: N

                                                                           2013-SEPTEMBER
F/N Line Item Description            FR/Entity           Debit                   Credit                       Variance             Date/Time               User Id

N   Property, Plant and Equipment       FR                          50                                                        10/29/2013 18:19:29    SLESLI01

N         Capitalized assets, net      Entity                                                    50                      0    10/29/2013 18:19:29    SLESLI01


                                                                           2012-SEPTEMBER
F/N Line Item Description            FR/Entity           Debit                   Credit                       Variance             Date/Time               User Id

N   Property, Plant and Equipment       FR                          42                                                        10/29/2013 18:19:29    SLESLI01

N         Capitalized assets, net      Entity                                                    42                      0    10/29/2013 18:19:29    SLESLI01




                                                                              - 14 -
                                                                U.S.Department of the Treasury                                                      11/15/2013 22:32:20
                                                                 Financial Management Service
                                                            Governmentwide Financial Report System


                                                GF120 - Reclassification Audit Trail Report - Agency Line Level

Statement: BALANCE SHEET                                                                  Fiscal Year: 2013                          Period: SEPTEMBER

Entity: 1602 - PENSION BENEFIT GUARANTY CORPORATION                            Reporting Method: MILLIONS                    Decimal Point: ZERO

Agency Line Item: Trusteed plans                                                  Account Type: L                                        F/N: N

                                                                           2013-SEPTEMBER
F/N Line Item Description             FR/Entity          Debit                   Credit                       Variance             Date/Time               User Id

N   Insurance and Guarantee Program      FR                                                  103,125                          10/29/2013 18:20:42    SLESLI01
    Liabilities
N         Trusteed plans               Entity                    103,125                                                 0    10/29/2013 18:20:42    SLESLI01


                                                                           2012-SEPTEMBER
F/N Line Item Description             FR/Entity          Debit                   Credit                       Variance             Date/Time               User Id

N   Insurance and Guarantee Program      FR                                                  103,127                          10/29/2013 18:20:42    SLESLI01
    Liabilities
N         Trusteed plans               Entity                    103,127                                                 0    10/29/2013 18:20:42    SLESLI01




                                                                              - 15 -
                                                                     U.S.Department of the Treasury                                                      11/15/2013 22:32:20
                                                                      Financial Management Service
                                                                 Governmentwide Financial Report System


                                                     GF120 - Reclassification Audit Trail Report - Agency Line Level

Statement: BALANCE SHEET                                                                       Fiscal Year: 2013                          Period: SEPTEMBER

Entity: 1602 - PENSION BENEFIT GUARANTY CORPORATION                                 Reporting Method: MILLIONS                    Decimal Point: ZERO

Agency Line Item: Plans pending termination and trusteeship                            Account Type: L                                        F/N: N

                                                                                2013-SEPTEMBER
F/N Line Item Description                  FR/Entity          Debit                   Credit                       Variance             Date/Time               User Id

N   Insurance and Guarantee Program           FR                                                    1,091                          10/29/2013 18:21:12    SLESLI01
    Liabilities
N          Plans pending termination and    Entity                    1,091                                                   0    10/29/2013 18:21:12    SLESLI01
    trusteeship

                                                                                2012-SEPTEMBER
F/N Line Item Description                  FR/Entity          Debit                   Credit                       Variance             Date/Time               User Id

N   Insurance and Guarantee Program           FR                                                     418                           10/29/2013 18:21:12    SLESLI01
    Liabilities
N          Plans pending termination and    Entity                      418                                                   0    10/29/2013 18:21:12    SLESLI01
    trusteeship




                                                                                   - 16 -
                                                                U.S.Department of the Treasury                                                      11/15/2013 22:32:20
                                                                 Financial Management Service
                                                            Governmentwide Financial Report System


                                                GF120 - Reclassification Audit Trail Report - Agency Line Level

Statement: BALANCE SHEET                                                                  Fiscal Year: 2013                          Period: SEPTEMBER

Entity: 1602 - PENSION BENEFIT GUARANTY CORPORATION                            Reporting Method: MILLIONS                    Decimal Point: ZERO

Agency Line Item: Settlements and judgments                                       Account Type: L                                        F/N: N

                                                                           2013-SEPTEMBER
F/N Line Item Description             FR/Entity          Debit                   Credit                       Variance             Date/Time               User Id

N   Insurance and Guarantee Program      FR                                                      57                           10/29/2013 18:21:37    SLESLI01
    Liabilities
N         Settlements and judgments    Entity                      57                                                    0    10/29/2013 18:21:37    SLESLI01


                                                                           2012-SEPTEMBER
F/N Line Item Description             FR/Entity          Debit                   Credit                       Variance             Date/Time               User Id

N   Insurance and Guarantee Program      FR                                                      56                           10/29/2013 18:21:37    SLESLI01
    Liabilities
N         Settlements and judgments    Entity                      56                                                    0    10/29/2013 18:21:37    SLESLI01




                                                                              - 17 -
                                                                       U.S.Department of the Treasury                                                      11/15/2013 22:32:20
                                                                        Financial Management Service
                                                                   Governmentwide Financial Report System


                                                       GF120 - Reclassification Audit Trail Report - Agency Line Level

Statement: BALANCE SHEET                                                                         Fiscal Year: 2013                          Period: SEPTEMBER

Entity: 1602 - PENSION BENEFIT GUARANTY CORPORATION                                   Reporting Method: MILLIONS                    Decimal Point: ZERO

Agency Line Item: Claims for probable terminations                                       Account Type: L                                        F/N: N

                                                                                  2013-SEPTEMBER
F/N Line Item Description                    FR/Entity          Debit                   Credit                       Variance             Date/Time               User Id

N   Insurance and Guarantee Program             FR                                                     745                           10/29/2013 18:22:00    SLESLI01
    Liabilities
N         Claims for probable terminations    Entity                      745                                                   0    10/29/2013 18:22:00    SLESLI01


                                                                                  2012-SEPTEMBER
F/N Line Item Description                    FR/Entity          Debit                   Credit                       Variance             Date/Time               User Id

N   Insurance and Guarantee Program             FR                                                    2,035                          10/29/2013 18:22:00    SLESLI01
    Liabilities
N         Claims for probable terminations    Entity                    2,035                                                   0    10/29/2013 18:22:00    SLESLI01




                                                                                     - 18 -
                                                              U.S.Department of the Treasury                                                      11/15/2013 22:32:20
                                                               Financial Management Service
                                                          Governmentwide Financial Report System


                                              GF120 - Reclassification Audit Trail Report - Agency Line Level

Statement: BALANCE SHEET                                                                Fiscal Year: 2013                          Period: SEPTEMBER

Entity: 1602 - PENSION BENEFIT GUARANTY CORPORATION                          Reporting Method: MILLIONS                    Decimal Point: ZERO

Agency Line Item: Insolvent plans                                               Account Type: L                                        F/N: N

                                                                         2013-SEPTEMBER
F/N Line Item Description           FR/Entity          Debit                   Credit                       Variance             Date/Time               User Id

N   Other Liabilities                  FR                                                    1,352                          10/29/2013 18:23:03    SLESLI01

N         Insolvent plans            Entity                    1,352                                                   0    10/29/2013 18:23:03    SLESLI01


                                                                         2012-SEPTEMBER
F/N Line Item Description           FR/Entity          Debit                   Credit                       Variance             Date/Time               User Id

N   Other Liabilities                  FR                                                    1,388                          10/29/2013 18:23:03    SLESLI01

N          Insolvent plans           Entity                    1,388                                                   0    10/29/2013 18:23:03    SLESLI01




                                                                            - 19 -
                                                                U.S.Department of the Treasury                                                      11/15/2013 22:32:20
                                                                 Financial Management Service
                                                            Governmentwide Financial Report System


                                                GF120 - Reclassification Audit Trail Report - Agency Line Level

Statement: BALANCE SHEET                                                                  Fiscal Year: 2013                          Period: SEPTEMBER

Entity: 1602 - PENSION BENEFIT GUARANTY CORPORATION                            Reporting Method: MILLIONS                    Decimal Point: ZERO

Agency Line Item: Probable insolvent plans                                        Account Type: L                                        F/N: N

                                                                           2013-SEPTEMBER
F/N Line Item Description             FR/Entity          Debit                   Credit                       Variance             Date/Time               User Id

N   Other Liabilities                    FR                                                    8,579                          10/29/2013 18:23:23    SLESLI01

N         Probable insolvent plans     Entity                    8,579                                                   0    10/29/2013 18:23:23    SLESLI01


                                                                           2012-SEPTEMBER
F/N Line Item Description             FR/Entity          Debit                   Credit                       Variance             Date/Time               User Id

N   Other Liabilities                    FR                                                    5,622                          10/29/2013 18:23:23    SLESLI01

N          Probable insolvent plans    Entity                    5,622                                                   0    10/29/2013 18:23:23    SLESLI01




                                                                              - 20 -
                                                                     U.S.Department of the Treasury                                                      11/15/2013 22:32:20
                                                                      Financial Management Service
                                                                 Governmentwide Financial Report System


                                                     GF120 - Reclassification Audit Trail Report - Agency Line Level

Statement: BALANCE SHEET                                                                       Fiscal Year: 2013                          Period: SEPTEMBER

Entity: 1602 - PENSION BENEFIT GUARANTY CORPORATION                                 Reporting Method: MILLIONS                    Decimal Point: ZERO

Agency Line Item: Derivative contracts (Note 4)                                        Account Type: L                                        F/N: N

                                                                                2013-SEPTEMBER
F/N Line Item Description                  FR/Entity          Debit                   Credit                       Variance             Date/Time               User Id

N   Other Liabilities                         FR                                                     210                           10/29/2013 18:24:23    SLESLI01

N         Derivative contracts (Note 4)     Entity                      210                                                   0    10/29/2013 18:24:23    SLESLI01


                                                                                2012-SEPTEMBER
F/N Line Item Description                  FR/Entity          Debit                   Credit                       Variance             Date/Time               User Id

N   Other Liabilities                         FR                                                      94                           10/29/2013 18:24:23    SLESLI01

N          Derivative contracts (Note 4)    Entity                       94                                                   0    10/29/2013 18:24:23    SLESLI01




                                                                                   - 21 -
                                                                       U.S.Department of the Treasury                                                      11/15/2013 22:32:20
                                                                        Financial Management Service
                                                                   Governmentwide Financial Report System


                                                       GF120 - Reclassification Audit Trail Report - Agency Line Level

Statement: BALANCE SHEET                                                                         Fiscal Year: 2013                          Period: SEPTEMBER

Entity: 1602 - PENSION BENEFIT GUARANTY CORPORATION                                   Reporting Method: MILLIONS                    Decimal Point: ZERO

Agency Line Item: Due for purchases of securities                                        Account Type: L                                        F/N: N

                                                                                  2013-SEPTEMBER
F/N Line Item Description                    FR/Entity          Debit                   Credit                       Variance             Date/Time               User Id

N   Other Liabilities                           FR                                                    1,608                          10/29/2013 18:24:40    SLESLI01

N         Due for purchases of securities     Entity                    1,608                                                   0    10/29/2013 18:24:40    SLESLI01


                                                                                  2012-SEPTEMBER
F/N Line Item Description                    FR/Entity          Debit                   Credit                       Variance             Date/Time               User Id

N   Other Liabilities                           FR                                                    2,557                          10/29/2013 18:24:40    SLESLI01

N          Due for purchases of securities    Entity                    2,557                                                   0    10/29/2013 18:24:40    SLESLI01




                                                                                     - 22 -
                                                                        U.S.Department of the Treasury                                                      11/15/2013 22:32:20
                                                                         Financial Management Service
                                                                    Governmentwide Financial Report System


                                                        GF120 - Reclassification Audit Trail Report - Agency Line Level

Statement: BALANCE SHEET                                                                          Fiscal Year: 2013                          Period: SEPTEMBER

Entity: 1602 - PENSION BENEFIT GUARANTY CORPORATION                                    Reporting Method: MILLIONS                    Decimal Point: ZERO

Agency Line Item: Payable upon return of securities loaned                                Account Type: L                                        F/N: N

                                                                                   2013-SEPTEMBER
F/N Line Item Description                     FR/Entity          Debit                   Credit                       Variance             Date/Time               User Id

N   Other Liabilities                            FR                                                    3,322                          10/29/2013 18:25:13    SLESLI01

N         Payable upon return of securities    Entity                    3,322                                                   0    10/29/2013 18:25:13    SLESLI01
    loaned

                                                                                   2012-SEPTEMBER
F/N Line Item Description                     FR/Entity          Debit                   Credit                       Variance             Date/Time               User Id

N   Other Liabilities                            FR                                                    3,425                          10/29/2013 18:25:13    SLESLI01

N         Payable upon return of securities    Entity                    3,425                                                   0    10/29/2013 18:25:13    SLESLI01
    loaned




                                                                                      - 23 -
                                                               U.S.Department of the Treasury                                                      11/15/2013 22:32:20
                                                                Financial Management Service
                                                           Governmentwide Financial Report System


                                               GF120 - Reclassification Audit Trail Report - Agency Line Level

Statement: BALANCE SHEET                                                                 Fiscal Year: 2013                          Period: SEPTEMBER

Entity: 1602 - PENSION BENEFIT GUARANTY CORPORATION                           Reporting Method: MILLIONS                    Decimal Point: ZERO

Agency Line Item: Unearned premiums                                              Account Type: L                                        F/N: N

                                                                          2013-SEPTEMBER
F/N Line Item Description        FR/Entity              Debit                   Credit                       Variance             Date/Time               User Id

N   Other Liabilities                  FR                                                      419                           10/29/2013 18:25:42    SLESLI01

N         Unearned premiums           Entity                      419                                                   0    10/29/2013 18:25:42    SLESLI01


                                                                          2012-SEPTEMBER
F/N Line Item Description        FR/Entity              Debit                   Credit                       Variance             Date/Time               User Id

N   Other Liabilities                  FR                                                      358                           10/29/2013 18:25:42    SLESLI01

N          Unearned premiums          Entity                      358                                                   0    10/29/2013 18:25:42    SLESLI01




                                                                             - 24 -
                                                                      U.S.Department of the Treasury                                                      11/15/2013 22:32:20
                                                                       Financial Management Service
                                                                  Governmentwide Financial Report System


                                                      GF120 - Reclassification Audit Trail Report - Agency Line Level

Statement: BALANCE SHEET                                                                        Fiscal Year: 2013                          Period: SEPTEMBER

Entity: 1602 - PENSION BENEFIT GUARANTY CORPORATION                                  Reporting Method: MILLIONS                    Decimal Point: ZERO

Agency Line Item: Accounts payable and accrued expenses (Note 8)                        Account Type: L                                        F/N: B

                                                                                 2013-SEPTEMBER
F/N Line Item Description                   FR/Entity          Debit                   Credit                       Variance             Date/Time               User Id

N   Accounts Payable                           FR                                                      64                           10/30/2013 11:23:41    SLESLI01
N   Other Liabilities                          FR                                                      12                           10/30/2013 11:23:41    SLESLI01
F   Benefit Program Contributions Payable      FR                                                       1                           10/30/2013 11:23:41    SLESLI01

B        Accounts payable and accrued        Entity                      77                                                    0    10/30/2013 11:23:41    SLESLI01
    expenses (Note 8)

                                                                                 2012-SEPTEMBER
F/N Line Item Description                   FR/Entity          Debit                   Credit                       Variance             Date/Time               User Id

N   Accounts Payable                           FR                                                      67                           10/30/2013 11:23:41    SLESLI01
N   Other Liabilities                          FR                                                      11                           10/30/2013 11:23:41    SLESLI01
F   Benefit Program Contributions Payable      FR                                                       1                           10/30/2013 11:23:41    SLESLI01

B        Accounts payable and accrued        Entity                      79                                                    0    10/30/2013 11:23:41    SLESLI01
    expenses (Note 8)




                                                                                    - 25 -
                                                             U.S.Department of the Treasury                                                      11/15/2013 22:32:20
                                                              Financial Management Service
                                                         Governmentwide Financial Report System


                                             GF120 - Reclassification Audit Trail Report - Agency Line Level

Statement: BALANCE SHEET                                                               Fiscal Year: 2013                          Period: SEPTEMBER

Entity: 1602 - PENSION BENEFIT GUARANTY CORPORATION                         Reporting Method: MILLIONS                    Decimal Point: ZERO

Agency Line Item: Net position                                                 Account Type: E                                        F/N: B

                                                                        2013-SEPTEMBER
F/N Line Item Description          FR/Entity          Debit                   Credit                       Variance             Date/Time               User Id

B   Net Position-All Other Funds      FR                      35,636                                                       10/29/2013 18:28:04    SLESLI01

B         Net position              Entity                                                 35,636                     0    10/29/2013 18:28:04    SLESLI01


                                                                        2012-SEPTEMBER
F/N Line Item Description          FR/Entity          Debit                   Credit                       Variance             Date/Time               User Id

B   Net Position-All Other Funds      FR                      37,085                                                       10/29/2013 18:28:04    SLESLI01

B         Net position              Entity                                                 37,085                     0    10/29/2013 18:28:04    SLESLI01




                                                                           - 26 -
                                                                    U.S.Department of the Treasury                                                      11/15/2013 22:32:20
                                                                     Financial Management Service
                                                                Governmentwide Financial Report System


                                                    GF120 - Reclassification Audit Trail Report - Agency Line Level

Statement: INCOME STATEMENT                                                                   Fiscal Year: 2013                          Period: SEPTEMBER

Entity: 1602 - PENSION BENEFIT GUARANTY CORPORATION                                Reporting Method: MILLIONS                    Decimal Point: ZERO

Agency Line Item: Total Costs                                                         Account Type: TC                                       F/N: B

                                                                               2013-SEPTEMBER
F/N Line Item Description                 FR/Entity          Debit                   Credit                       Variance             Date/Time               User Id

F   Imputed Costs                            FR                          7                                                        10/29/2013 18:30:30    SLESLI01
F   Buy/Sell Costs                           FR                          7                                                        10/29/2013 18:30:30    SLESLI01
F   Benefit Program Costs                    FR                         25                                                        10/29/2013 18:30:30    SLESLI01
F   Federal Securities Interest Expense      FR                        117                                                        10/29/2013 18:30:30    SLESLI01
N   Non-Federal Gross Cost                   FR                       9,105                                                       10/29/2013 18:30:30    SLESLI01

B         Total Costs                      Entity                                                  9,261                     0    10/29/2013 18:30:30    SLESLI01


                                                                               2012-SEPTEMBER
F/N Line Item Description                 FR/Entity          Debit                   Credit                       Variance             Date/Time               User Id

F   Imputed Costs                            FR                          8                                                        10/29/2013 18:30:30    SLESLI01
F   Buy/Sell Costs                           FR                          4                                                        10/29/2013 18:30:30    SLESLI01
F   Benefit Program Costs                    FR                         24                                                        10/29/2013 18:30:30    SLESLI01
F   Federal Securities Interest Expense      FR                          6                                                        10/29/2013 18:30:30    SLESLI01
N   Non-Federal Gross Cost                   FR                      20,173                                                       10/29/2013 18:30:30    SLESLI01

B         Total Costs                      Entity                                                 20,215                     0    10/29/2013 18:30:30    SLESLI01




                                                                                  - 27 -
                                                                    U.S.Department of the Treasury                                                      11/15/2013 22:32:20
                                                                     Financial Management Service
                                                                Governmentwide Financial Report System


                                                    GF120 - Reclassification Audit Trail Report - Agency Line Level

Statement: INCOME STATEMENT                                                                   Fiscal Year: 2013                          Period: SEPTEMBER

Entity: 1602 - PENSION BENEFIT GUARANTY CORPORATION                                Reporting Method: MILLIONS                    Decimal Point: ZERO

Agency Line Item: Total Revenue                                                       Account Type: TR                                       F/N: B

                                                                               2013-SEPTEMBER
F/N Line Item Description                 FR/Entity          Debit                   Credit                       Variance             Date/Time               User Id

F   Federal Securities Interest Revenue      FR                                                    1,387                          10/29/2013 18:32:57    SLESLI01
    (exchange)
N   Non-Federal Earned Revenue               FR                                                    9,409                          10/29/2013 18:32:57    SLESLI01
F   Other Revenue (without reciprocals)      FR                                                       1                           10/29/2013 18:32:57    SLESLI01
F   Imputed Financing Source                 FR                                                       7                           10/29/2013 18:32:57    SLESLI01
N   Other Taxes and Receipts                 FR                                                       5                           10/29/2013 18:32:57    SLESLI01

B         Total Revenue                    Entity                    10,809                                                  0    10/29/2013 18:32:57    SLESLI01


                                                                               2012-SEPTEMBER
F/N Line Item Description                 FR/Entity          Debit                   Credit                       Variance             Date/Time               User Id

F   Federal Securities Interest Revenue      FR                                                    1,769                          10/29/2013 18:32:57    SLESLI01
    (exchange)
N   Non-Federal Earned Revenue               FR                                                   10,448                          10/29/2013 18:32:57    SLESLI01
F   Imputed Financing Source                 FR                                                       8                           10/29/2013 18:32:57    SLESLI01
N   Other Taxes and Receipts                 FR                           4                                                       10/29/2013 18:32:57    SLESLI01

B         Total Revenue                    Entity                    12,221                                                  0    10/29/2013 18:32:57    SLESLI01




                                                                                  - 28 -
                                                                          U.S.Department of the Treasury                                                      11/15/2013 22:32:20
                                                                           Financial Management Service
                                                                      Governmentwide Financial Report System


                                                          GF120 - Reclassification Audit Trail Report - Agency Line Level

Statement: INCOME STATEMENT                                                                         Fiscal Year: 2013                          Period: SEPTEMBER

Entity: 1602 - PENSION BENEFIT GUARANTY CORPORATION                                      Reporting Method: MILLIONS                    Decimal Point: ZERO

Agency Line Item: Net position, beginning of year                                           Account Type: BN                                       F/N: B

                                                                                     2013-SEPTEMBER
F/N Line Item Description                       FR/Entity          Debit                   Credit                       Variance             Date/Time               User Id

B   Beginning Net Position                         FR                      37,085                                                       10/30/2013 14:55:11    SLESLI01
F   Change in Accounting Principles - Federal      FR                         99                                                        10/30/2013 14:55:11    SLESLI01

B         Net position, beginning of year        Entity                                                 37,184                     0    10/30/2013 14:55:11    SLESLI01


                                                                                     2012-SEPTEMBER
F/N Line Item Description                       FR/Entity          Debit                   Credit                       Variance             Date/Time               User Id

B   Beginning Net Position                         FR                      29,062                                                       10/30/2013 14:55:11    SLESLI01
F   Change in Accounting Principles - Federal      FR                        128                                                        10/30/2013 14:55:11    SLESLI01

B         Net position, beginning of year        Entity                                                 29,190                     0    10/30/2013 14:55:11    SLESLI01




                                                                                        - 29 -
This page intentionally left blank.
If you want to report or discuss confidentially any instance
 of misconduct, fraud, waste, abuse, or mismanagement,
      please contact the Office of Inspector General.



                       Telephone:
            The Inspector General’s HOTLINE
                    1-800-303-9737

  The deaf or hard of hearing, dial FRS (800) 877-8339
   and give the Hotline number to the relay operator.



                           Web:
       http://oig.pbgc.gov/investigation/details.html



                         Or Write:
          Pension Benefit Guaranty Corporation
               Office of Inspector General
                     PO Box 34177
             Washington, DC 20043-4177
